App. 1
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
DANIEL Z. CROWE; LAWRENCE K.
PETERSON I; OREGON CIVIL
LIBERTIES ATTORNEYS,
an Oregon nonprofit corporation,
Plaintiffs-Appellants,
v.
OREGON STATE BAR, a Public
Corporation; OREGON STATE BAR
BOARD OF GOVERNORS; VANESSA
A. NORDYKE, President of the
Oregon State Bar Board of
Governors; CHRISTINE
CONSTANTINO, President-elect
of the Oregon State Bar Board
of Governors; HELEN MARIE
HIERSCHBIEL, Chief Executive
Officer of the Oregon State Bar;
KEITH PALEVSKY, Director of
Finance and Operations of the
Oregon State Bar; AMBER
HOLLISTER, General Counsel
for the Oregon State Bar,
Defendants-Appellees.

No. 19-35463
D.C. No.
3:18-cv-02139-JR

App. 2
DIANE L. GRUBER; MARK RUNNELS,
Plaintiffs-Appellants,
v.

No. 19-35470
D.C. No.
3:18-cv-01591-JR
OPINION

OREGON STATE BAR; CHRISTINE
CONSTANTINO; HELEN MARIE HIERSCHBIEL,
Defendants-Appellees.
Appeal from the United States District Court
for the District of Oregon
Michael H. Simon, District Judge, Presiding
Argued and Submitted May 12, 2020
Portland, Oregon
Filed February 26, 2021
Before: Jay S. Bybee and Lawrence VanDyke, Circuit
Judges, and Kathleen Cardone,* District Judge.
Per Curiam Opinion;
Partial Concurrence and Partial Dissent
by Judge VanDyke
COUNSEL
Jacob Huebert (argued) and Timothy Sandefur, ScharfNorton Center for Constitutional Litigation at the
Goldwater Institute, Phoenix, Arizona; Luke D. Miller,
Military Disability Lawyer LLC, Salem, Oregon; for
* The Honorable Kathleen Cardone, United States District
Judge for the Western District of Texas, sitting by designation.

App. 3
Plaintiffs-Appellants Daniel Z. Crowe, Lawrence K. Peterson I, and Oregon Civil Liberties Attorneys.
Michael L. Spencer (argued), Klamath Falls, Oregon,
for Plaintiffs-Appellants Diane L. Gruber and Mark
Runnels.
Elisa J. Dozono (argued) and Taylor D. Richman, Miller
Nash Graham & Dunn LLP, Portland, Oregon; Steven
M. Wilker (argued) and Megan K. Houlihan, Tonkon
Torp LLP, Portland, Oregon; Michael Gillette, Schwabe
Williamson & Wyatt P.C., Portland, Oregon; for Defendants-Appellees.
Ellen F. Rosenblum, Attorney General; Benjamin
Gutman, Solicitor General; Christopher A. Perdue,
Assistant Attorney General; Department of Justice,
Salem, Oregon; for Amicus Curiae State of Oregon.
Vanessa L. Holton, General Counsel; Robert G. Retana,
Deputy General Counsel; Brady R. Dewar, Assistant
General Counsel; Office of the General Counsel, State
Bar of California, San Francisco, California; for Amicus
Curiae State Bar of California.
Mary R. O’Grady and Kimberly Friday, Osborn Maledon P.A., Phoenix, Arizona, for Amicus Curiae State
Bar of Arizona.
OPINION
PER CURIAM:
To practice in Oregon, every lawyer must join and
pay annual membership fees to the Oregon State Bar

App. 4
(“the Bar” or “OSB”). In these cases, Plaintiffs1 claim
these compulsions violate their freedoms of speech and
association as guaranteed by the First Amendment,
made applicable to the states by the Due Process
Clause of the Fourteenth Amendment.
The district court dismissed all of Plaintiffs’
claims, concluding that the Bar was immune from suit
under the Eleventh Amendment; that Plaintiffs’ free
association and free speech claims were barred by
precedent; and that the Bar’s objection and refund procedures were constitutionally adequate. We agree with
the district court that precedent forecloses the free
speech claim, but neither the Supreme Court nor this
court has resolved the free association claim now before us. For the reasons that follow, Plaintiffs may have
stated a viable claim that Oregon’s compulsory Bar
membership requirement violates their First Amendment right of free association. We accordingly affirm in
part, reverse in part, and remand to the district court
with instructions.
I.

BACKGROUND

A. The Oregon State Bar
“The Oregon State Bar is a public corporation and
an instrumentality of the Judicial Department of the
1

“Plaintiffs” refers to Appellants in both No. 19-35463 (Daniel
Crowe, Lawrence Peterson, and the Oregon Civil Liberties Attorneys (individually referred to as the “Crowe Plaintiffs”)) and
No. 19-35470 (Diane Gruber and Mark Runnels (individually referred to as the “Gruber Plaintiffs”)).

App. 5
government of the State of Oregon.” Or. Rev. Stat.
§ 9.010(2). OSB is an integrated bar, meaning lawyers
must join it and pay an annual membership fee to
practice law in Oregon. Id. §§ 9.160(1), 9.200. OSB is
administered by its board of governors, who may
“adopt, alter, amend[,] and repeal” the Bar’s bylaws. Id.
§ 9.080. “[A]t all times,” the board must “serve the public interest” by “[r]egulating the legal profession and
improving the quality of legal services; [s]upporting
the judiciary and improving the administration of justice; and [a]dvancing a fair, inclusive[,] and accessible
justice system.” Id. The State of Oregon is not responsible for OSB’s debts. Id. § 9.010(6). Instead, OSB satisfies its own financial needs and obligations from the
membership fees it collects. Id. § 9.191(3). Subject to
oversight by the Oregon Supreme Court, OSB administers bar exams, investigates applicants’ character
and fitness, formulates and enforces rules of professional conduct, and establishes minimum continuing
legal education requirements for Oregon attorneys. Id.
§§ 9.210, 9.490, 9.114.
OSB also publishes a monthly Bar Bulletin, which is
subject to the bylaws’ general communications policy:
Communications of the Bar and its constituent groups and entities, including printed material and electronic communications, should
be germane to the law, lawyers, the practice of
law, the courts and the judicial system, legal
education and the Bar in its role as a mandatory membership organization. Communications, other than permitted advertisements,

App. 6
should advance public understanding of the
law, legal ethics and the professionalism and
collegiality of the bench and Bar.
OSB Bylaws § 11.1.2 OSB’s Chief Executive Officer
“has sole discretion . . . to accept or reject material submitted to the Bar for publication.” Id. § 11.203. “[P]artisan political advertising is not allowed[,]” and
“[p]artisan political announcements or endorsements
will not be accepted for publication as letters to the editor or feature articles.” Id. § 11.4.
OSB’s legislative and public policy activities must
reasonably relate to any of the following nine subjects:
Regulating and disciplining lawyers; improving the functioning of the courts including issues of judicial independence, fairness,
efficacy and efficiency; making legal services
available to society; regulating lawyer trust
accounts; the education, ethics, competence,
integrity and regulation of the legal profession; providing law improvement assistance
to elected and appointed government officials;
issues involving the structure and organization of federal, state and local courts in or affecting Oregon; issues involving the rules of
practice, procedure and evidence in federal,
state or local courts in or affecting Oregon; or
issues involving the duties and functions of
judges and lawyers in federal, state and local
courts in or affecting Oregon.
2

The OSB Bylaws are available at http://www.osbar.org/_docs/
rulesregs/bylaws.pdf.

App. 7
Id. § 12.1. The Bar maintains that all its communications and activities are intended to adhere to the
above-listed topics, and considers all these topics germane to its regulatory purpose.
B. The April 2018 Bulletin Statements
At the heart of Plaintiffs’ suits are two statements
published alongside each other in the April 2018 edition of the Bulletin, reproduced below in full. The first
was attributed to the Bar, signed by its leaders, and
stated as follows:
Statement on White Nationalism and
Normalization of Violence
As the United States continues to grapple
with a resurgence of white nationalism and
the normalization of violence and racism, the
Oregon State Bar remains steadfastly committed to the vision of a justice system that
operates without discrimination and is fully
accessible to all Oregonians. As we pursue
that vision during times of upheaval, it is particularly important to understand current
events through the lens of our complex and often troubled history. The legacy of that history
was seen last year in the streets of Charlottesville, and in the attacks on Portland’s
MAX train. We unequivocally condemn these
acts of violence.
We equally condemn the proliferation of
speech that incites such violence. Even as we
celebrate the great beneficial power of our

App. 8
First Amendment, as lawyers we also know it
is not limitless. A systemic failure to address
speech that incites violence emboldens those
who seek to do harm, and continues to hold
historically oppressed communities in fear
and marginalization.
As a unified bar, we are mindful of the breadth
of perspectives encompassed in our membership. As such, our work will continue to focus
specifically on those issues that are directly
within our mission, including the promotion
of access to justice, the rule of law, and a
healthy and functional judicial system that
equitably serves everyone. The current climate of violence, extremism and exclusion
gravely threatens all of the above. As lawyers,
we administer the keys to the courtroom, and
assist our clients in opening doors to justice.
As stewards of the justice system, it is up to
us to safeguard the rule of law and to ensure
its fair and equitable administration. We
simply cannot lay claim to a healthy justice
system if whole segments of our society are
fearful of the very laws and institutions that
exist to protect them.
In today’s troubling climate, the Oregon State
Bar remains committed to equity and justice
for all, and to vigorously promoting the law as
the foundation of a just democracy. The courageous work done by specialty bars throughout
the state is vital to our efforts and we continue
to be both inspired and strengthened by those
partnerships. We not only refuse to become accustomed to this climate, we are intent on

App. 9
standing in support and solidarity with those
historically marginalized, underrepresented
and vulnerable communities who feel voiceless within the Oregon legal system.
Across the page, a “Joint Statement of the Oregon Specialty Bar Associations Supporting the Oregon State
Bar’s Statement on White Nationalism and Normalization of Violence” stated:
The Oregon Asian Pacific American Bar Association, the Oregon Women Lawyers, the Oregon Filipino American Lawyers Association,
OGALLA-The LGBT Bar Association of Oregon, the Oregon Chapter of the National Bar
Association, the Oregon Minority Lawyers
Association, and the Oregon Hispanic Bar
Association support the Oregon State Bar’s
Statement on White Nationalism and Normalization of Violence and its commitment to
the vision of a justice system that operates
without discrimination and is fully accessible
to all Oregonians.
Through the recent events from the Portland
MAX train attacks to Charlottesville, we have
seen an emboldened white nationalist movement gain momentum in the United States
and violence based on racism has become normalized. President Donald Trump, as the
leader of our nation, has himself catered to
this white nationalist movement, allowing it
to make up the base of his support and providing it a false sense of legitimacy. He has allowed this dangerous movement of racism to
gain momentum, and we believe this is

App. 10
allowing these extremist ideas to be held up
as part of the mainstream, when they are not.
For example, President Trump has espoused
racist comments, referring to Haiti and African countries as “shithole countries” and
claiming that the United States should have
more immigrants from countries like Norway.
He signed an executive order that halted all
refugee admissions and barred people from
seven Muslim-majority countries, called
Puerto Ricans who criticized his administration’s response to Hurricane Maria “politically
motivated ingrates,” said that the white supremacists marching in Charlottesville,
North Carolina in August of 2017 were “very
fine people,” and called into question a federal
judge, referring to the Indiana-born judge as
“Mexican,” when the race of his parents had
nothing to do with the judge’s decision. We are
now seeing the white nationalist movement
grow in our state and our country under this
form of leadership.
As attorneys who lead diverse bar associations throughout Oregon, we condemn the violence that has occurred as a result of white
nationalism and white supremacy. Although
we recognize the importance of the First
Amendment of the United States Constitution and the protections it provides, we condemn speech that incites violence, such as the
violence that occurred in Charlottesville.
President Trump needs to unequivocally condemn racist and white nationalist groups.
With his continued failure to do so, we must
step in and speak up.

App. 11
As attorneys licensed to practice law in Oregon, we took an oath to “support the Constitution and the laws of the United States and of
the State of Oregon.” To that end, we have a
duty as attorneys to speak up against injustice, violence, and when state and federal laws
are violated in the name of white supremacy
or white nationalism. We must use all our resources, including legal resources, to protect
the rights and safety of everyone. We applaud
the Oregon State Bar’s commitment to equity
and justice by taking a strong stand against
white nationalism. Our bar associations
pledge to work with the Oregon State Bar and
to speak out against white nationalism and
the normalization of racism and violence.
OSB maintains both Bulletin statements are
germane to its role in improving the quality of legal
services. When Plaintiffs and other OSB members
complained about the statements, however, the Bar refunded $1.15 to Plaintiffs and other objectors—the portion of their membership fees used to publish the April
2018 Bulletin. On appeal, the Bar explains it paid the
refunds because “it has always sought, in accordance
with its Bylaws, to strictly adhere to the standards of
‘germane’ speech as set forth in Keller. . . . [T]he Bar
sought to avoid even the appearance of funding nongermane speech, by refunding their proportional dues
with interest.”

App. 12
C. District Court Proceedings
Plaintiffs filed these lawsuits against OSB officials
and OSB itself, alleging the compelled membership
and membership fee requirements violate their First
Amendment rights. Plaintiffs contend that (1) the two
statements from the April 2018 Bulletin are not germane; (2) compelling them to join and maintain membership in OSB violates their right to freedom of
association; and (3) compelling Plaintiffs to pay—without their prior, affirmative consent—annual membership fees to OSB violates their right to freedom of
speech. In addition, the Crowe Plaintiffs alone contend
that the Bar’s constitutionally mandated procedural
safeguards for objecting members are deficient. And
the Gruber Plaintiffs alone continue to argue on appeal
that OSB is not entitled to sovereign immunity from
suit.
Below, these cases were referred to a magistrate,
who first determined that OSB (but not the individual
OSB officials) was an “arm of the state” and immune
from suit pursuant to the Eleventh Amendment. The
magistrate then held the OSB statement “was made
within the specific context of promotion of access to justice, the rule of law, and a healthy and functional judicial system that equitably serves everyone” and “[wa]s
germane to improving the quality of legal services.” Assuming the Specialty Bars’ statement could “include[ ]
political speech that is not germane to a permissible
topic,” the magistrate noted it was not technically attributed to OSB but rather a “routinely publishe[d]
statement[ ]” in the Bulletin’s “forum for the exchange

App. 13
of ideas pertaining to the practice of law.” The magistrate alternatively concluded that, even assuming the
statements contained nongermane speech, Plaintiffs
would still have suffered no constitutional injury because of OSB’s existing safeguards designed to refund
membership funds misused for political purposes.
The magistrate recommended the district court
grant the Bar’s motions to dismiss and deny the
Gruber Plaintiffs’ motion for partial summary judgment. The district court fully adopted the magistrate’s
findings and recommendations and dismissed these
cases. Plaintiffs timely appealed.
II.

STANDARD OF REVIEW

The district court had jurisdiction pursuant to 28
U.S.C. § 1331 and 28 U.S.C. § 1343. We have jurisdiction under 28 U.S.C. § 1291, and “review de novo a dismissal on the basis of sovereign immunity or for failure
to state a claim upon which relief can be granted.” Ariz.
Students’ Ass’n v. Ariz. Bd. of Regents, 824 F.3d 858,
864 (9th Cir. 2016). Moreover, we must “accept the complaint[s’] well-pleaded factual allegations as true, and
construe all inferences in the plaintiff[s’] favor.” Id.
III.

DISCUSSION

Plaintiffs raise the same issues that were before
the district court in their appeals. We will begin with
Plaintiffs’ free speech and free association claims. We
consider the parties’ arguments with respect to the

App. 14
germaneness of the April 2018 Bulletin statements
and the adequacy of OSB’s procedural safeguards as
they pertain to Plaintiffs’ free speech and free association claims. Because we conclude that Plaintiffs have
stated a claim based on their right to free association,
which we must remand to the district court, we will
then address the question of OSB’s immunity from a
suit for damages, a claim only raised by the Gruber
Plaintiffs.
A. Free Speech
In Keller v. State Bar of California, 496 U.S. 1, 13–
14 (1990), the Supreme Court concluded that a state
bar may use mandatory dues to subsidize activities
“germane to those goals” of “regulating the legal profession and improving the quality of legal services”
without running afoul of its members’ First Amendment rights of free speech. Id. As a preliminary matter,
Plaintiffs argue that both April 2018 Bulletin statements constitute political speech nongermane to the
Bar’s role in regulating the legal profession. We need
not decide whether the district court erred in concluding that the Bulletin statements are germane under
Keller (or, in the case of the Specialty Bars’ statement,
not attributable to OSB) for purposes of this appeal because, even assuming both statements are nongermane, Plaintiffs’ free speech claim fails.
In rejecting the plaintiffs’ free speech claim in
Keller, the Supreme Court subjected integrated bars to
“the same constitutional rule with respect to the use of

App. 15
compulsory dues as are labor unions.” Keller, 496 U.S.
at 13 (adopting Abood v. Detroit Bd. of Educ., 431 U.S.
209, 234–36 (1977) (holding that a union may not fund
from mandatory fees political or ideological activities
nongermane to its collective bargaining duties)). However, the Supreme Court recently overruled Abood
because the “line between chargeable [germane] and
nonchargeable [nongermane] union expenditures has
proved to be impossible to draw with precision,” and
because even union speech germane to collective bargaining “is overwhelmingly of substantial public concern.” Janus v. Am. Fed’n of State, Cnty., & Mun. Emps.,
Council 31, 138 S. Ct. 2448, 2477, 2481 (2018). Plaintiffs argue that, given Keller’s reliance on Abood, faithful application of Keller now requires that we consult
Janus in analyzing their Keller claim and apply exacting scrutiny. See id. at 2477, 2486. According to Plaintiffs, OSB engages in political and ideological activities
(e.g., the Bulletin statements), so forcing them to pay
mandatory membership fees violates their free speech
rights. Plaintiffs urge that, under Janus, OSB’s membership fee requirement cannot survive exacting scrutiny, and therefore, membership fees may only be
constitutionally assessed if attorneys provide prior,
affirmative consent.
Given Keller’s instruction that integrated bars
adhere to the same constitutional constraints as unions, 496 U.S. at 13, Plaintiffs’ argument is not without
support. But Keller plainly has not been overruled.
See Janus, 138 S. Ct. at 2498 (Kagan, J., dissenting)
(noting that “today’s decision does not question” cases

App. 16
applying Abood, including Keller). Although Abood’s
rationale that Keller expressly relied on has been
clearly “rejected in [another] decision[ ], the Court of
Appeals should follow the [Supreme Court] case which
directly controls, leaving to [the Supreme] Court the
prerogative of overruling its own decisions.” Agostini v.
Felton, 521 U.S. 203, 237 (1997) (quoting Rodriguez de
Quijas v. Shearson/Am. Express, Inc., 490 U.S. 477, 484
(1989)). We are a lower court, and we would be scorning
Agostini’s clear directive if we concluded that Keller
now prohibits the very thing it permitted when decided.3
In the alternative, the Crowe Plaintiffs alone insist that, assuming mandatory dues remain constitutionally permissible, the district court nevertheless
erred in concluding that OSB provides adequate procedural safeguards. As discussed above, Keller subjected
integrated bars to the same constitutional constraints
as unions, allowing them to use compulsory dues only
to regulate attorneys or improve the quality of their
States’ legal professions—but not for “activities of an
ideological nature which fall outside of those areas of
activity.” 496 U.S. at 13–14. Having saddled integrated
bars with this “Abood obligation,” the Court concluded
they could satisfy that obligation “by adopting the sort
of procedures described in Hudson.” Id. at 17 (referencing Chicago Teachers Union v. Hudson, 475 U.S. 292
3

Because we do not think the Supreme Court has clearly abrogated or altered Keller’s holding, our precedent likewise bars
Plaintiffs’ requested relief as to this claim. See Gardner v. State
Bar of Nev., 284 F.3d 1040, 1042–43 (9th Cir. 2002).

App. 17
(1986)). At a minimum, Hudson’s safeguards “include
an adequate explanation of the basis for the [compulsory] fee, a reasonably prompt opportunity to challenge the amount of the fee before an impartial
decisionmaker, and an escrow for the amounts reasonably in dispute while such challenges are pending.”
Hudson, 475 U.S. at 310.
Here, OSB’s bylaws provide a dispute resolution
procedure for a “member of the Bar who objects to the
use of any portion of the member’s bar dues for activities he or she considers promotes or opposes political
or ideological causes. . . .” OSB Bylaws § 12.600. The
objecting member must notify OSB’s Board of Governors, and “[i]f the Board agrees with the member’s objection, it will immediately refund the portion of the
member’s dues that are attributable to the activity,
with interest.” Id. § 12.601. If the Board disagrees with
the objecting member, it offers binding arbitration before a neutral decisionmaker who conducts a hearing
and promptly decides “whether the matters at issue
are acceptable activities for which compulsory fees
may be used under applicable constitutional law.” Id.
§ 12.602. If the objector prevails, OSB pays the same
refund described above; conversely, if OSB prevails, the
matter is closed. Id.
The Crowe Plaintiffs argue that OSB’s procedures are deficient because (1) OSB does not provide
an independently audited report4 explaining how
4

Plaintiffs concede that OSB publishes information about its
allocation of membership fees each year.

App. 18
mandatory dues are calculated; and (2) OSB does not
provide the required escrow procedure. We disagree.
First, to the extent the Crowe Plaintiffs urge us to
require wholesale application of the procedures in
Hudson in this context, we decline to do so. Nowhere
does Keller require state bars to adopt procedures identical to or commensurate with those outlined in Hudson. 496 U.S. at 17 (“[A]n integrated bar could certainly
meet its Abood obligation by adopting the sort of procedures described in Hudson.”) (emphasis added). Indeed, the Court in Keller explicitly recognized that it
lacked the “developed record” available in Hudson and
accordingly held that “[q]uestions [of ] whether one or
more alternative procedures would likewise satisfy
that obligation are better left for consideration upon a
more fully developed record.” Id. Thus, we decline to
require an independently audited report and escrow
solely because Hudson required as much.
Nor are we persuaded that adherence to Hudson
is necessary—or even effective—to minimize infringement here. With respect to the independent audit,
Hudson required this high-level explanation in the
context of a union that affirmatively planned to engage in activities unrelated to collective bargaining
for which it could only charge its members. 475 U.S.
at 298. The Court obligated the union to provide a
detailed statement of fees in advance so that nonmembers could object before being charged for impermissible activities. Id. at 305–07. Hudson fashioned
the escrow requirement for the same reason—to “avoid
the risk that [nonmembers’] funds will be used, even

App. 19
temporarily, to finance ideological activities unrelated
to collective bargaining.” Id. at 305.
The Crowe Plaintiffs do not allege any similarly
affirmative plans by OSB to use Bar members’ dues for
nongermane purposes. Indeed, OSB maintains a policy
mandating that dues be used for germane activities
and communications. See, e.g., OSB Bylaws §§ 11.1,
12.1. As a practical matter, then, advance notice would
not have offered additional protection against the alleged constitutional violations because OSB would
have characterized all of its activities as germane.5
Similarly, an escrow requirement would not further
minimize risk of infringement because, unlike in Hudson, the allegedly impermissible speech is only identifiable after the fact.
A refund, which Plaintiffs received here, is the
only meaningful remedy for Plaintiffs’ alleged injuries.
Under the circumstances, OSB provides procedures
adequately tailored to “minimize the infringement” of
its members’ First Amendment rights. Hudson, 475
U.S. at 303. Indeed, we have observed, albeit in dicta,
that “allow[ing] members to seek a refund of the proportion of their dues that the State Bar has spent on
political activities unrelated to its regulatory function”
complies with Keller. Morrow v. State Bar of California,

5

We recognize that there is an argument to be made regarding the propriety of permitting OSB to define for itself what is
germane. That is not before us. Moreover, such an argument does
not alter the fact that advance notice in this case would not have
prevented Plaintiffs’ asserted constitutional injury.

App. 20
188 F.3d 1174, 1175 (9th Cir. 1999). OSB clearly provides that process here.
In sum, nothing in Keller mandates a strict application of the Hudson procedures. Indeed, an application of such procedures here would not have provided
greater protections for Plaintiffs. As alleged, the OSB’s
refund process is sufficient to minimize potential infringement on its members’ constitutional rights. We
therefore affirm the district court as to Plaintiffs’ free
speech claim and the adequacy of OSB’s procedural
safeguards with respect to protecting Plaintiffs’ free
speech rights.
B. Free Association
In Oregon, “a person may not practice law . . . unless the person is an active member of the Oregon
State Bar.” OR. REV. STAT. § 9.160(1). Plaintiffs claim
that because OSB engages in nongermane political activity like the Bulletin statements, this membership
requirement violates their freedom of association under the First and Fourteenth Amendments. We first must
decide whether the district court erred by concluding
this claim was foreclosed by existing precedent.
1. Does existing precedent foreclose Plaintiffs’
Free Association claim?
In Keller, the Supreme Court expressly declined to
address the “freedom of association claim” that attorneys “cannot be compelled to associate with an organization that engages in political or ideological activities

App. 21
beyond those for which mandatory financial support is
justified under the principles of Lathrop and Abood.”
496 U.S. at 17. Keller explained this unaddressed claim
was “much broader . . . than [the claim] at issue in
Lathrop.” Id. (discussing Lathrop v. Donohue, 367 U.S.
820 (1961)). Plaintiffs here insist they have presented
precisely this yet-to-be-resolved free association claim.
The district court concluded that Lathrop and Keller
foreclosed Plaintiffs’ association claim, so we examine
those cases in turn.
In Lathrop, a plurality of the Supreme Court held:
[T]he Supreme Court of Wisconsin, in order to
further the State’s legitimate interests in
raising the quality of professional services,
may constitutionally require that the costs of
improving the profession in this fashion
should be shared by the subjects and beneficiaries of the regulatory program, the lawyers,
even though the organization created to attain the objective also engages in some legislative activity.
367 U.S. at 843. On its own terms, Lathrop’s “free association” decision was limited to “compelled financial
support of group activities,” id. at 828; the Court emphasized that “[t]he only compulsion to which [Lathrop] ha[d] been subjected by the integration of the bar
[wa]s the payment of the annual dues of $15 per year.”
Id. at 828 (“We therefore are confronted . . . only with
a question of compelled financial support of group

App. 22
activities, not with involuntary membership in any
other aspect.”) (emphasis added).6
Lathrop also complained that the Wisconsin Bar
engaged in lobbying. See Lathrop, 367 U.S. at 827. But
the Lathrop plurality presumed, on the bare record before it, that all the bar’s activities, including lobbying,
related to “the regulatory program” of “improving the
profession.” Id. at 843. In other words, from what little
the Lathrop plurality could divine, even the bar’s lobbying was germane to the regulatory purposes justifying compelled financial association in the first place.
Id. Lathrop’s ultimate conclusion was deliberately limited: a state “may constitutionally require that the
costs of improving the profession in this fashion should
be shared by the subjects and beneficiaries of the regulatory program.” Id. At bottom, Lathrop merely permitted states to compel practicing lawyers to pay
toward the costs of regulating their profession. See
Keller, 496 U.S. at 9 (discussing “the limited scope of
the question [Lathrop] was deciding”).
Decades later, the Court revisited the issue in
Keller. As discussed above, Keller, like Lathrop, concluded that states could compel practicing attorneys to
pay dues to an integrated bar but that those dues could
6

The Supreme Court framed its decision in this way even
though Lathrop’s actual free association claim was similar to the
broader one Plaintiffs raise here. Lathrop, 367 U.S. at 827 (“The
core of appellant’s argument is that he cannot constitutionally be
compelled to join . . . an organization which . . . utilizes its property, funds and employees for the purposes of influencing legislation and public opinion toward legislation.”).

App. 23
only “constitutionally fund activities germane to those
goals” of “regulating the legal profession and improving the quality of legal services.” Id. at 13–14. Keller
then augmented the constitutional analysis, prohibiting integrated bars from funding with mandatory dues
“activities having political or ideological coloration
which are not reasonably related to the advancement
of [its regulatory] goals.” Id. at 15. In a later compelled
speech case, the Supreme Court explained that “[t]he
central holding in Keller . . . was that the objecting
members were not required to give speech subsidies for
matters not germane to the larger regulatory purpose
which justified the required association.” United States
v. United Foods, Inc., 533 U.S. 405, 414 (2001) (emphasis added).
Crucially, Keller expressly declined to address the
petitioners’ separate free association claim: “that they
cannot be compelled to associate with an organization
that engages in political or ideological activities beyond those for which mandatory financial support is
justified under the principles of Lathrop and Abood.”
Keller, 496 U.S. at 17. Keller acknowledged this was “a
much broader freedom of association claim than was at
issue in Lathrop.” Id. (explaining that the Keller petitioners’ free association claim challenged more than
“their ‘compelled financial support of group activities’ ”
(quoting Lathrop, 367 U.S. at 828)). Keller and Lathrop
thus speak for themselves: the Supreme Court has
never resolved this broader free association claim
based on compelled bar membership.

App. 24
Nor have we. In Morrow, the “plaintiffs complain[ed] that by virtue of their mandatory State Bar
membership, they [we]re associated in the public eye
with viewpoints they d[id] not in fact hold . . . [which]
violate[d] their First Amendment rights to free association.” 188 F.3d at 1175 (“The issue is whether plaintiffs’ First Amendment rights are violated by their
compulsory membership in a state bar association that
conducts political activities beyond those for which
mandatory financial support is justified.”). This is, essentially, the same claim Plaintiffs raise here. Just
like the instant claim, the Morrow plaintiffs raised the
“much broader freedom of association claim” that
Keller and Lathrop left unresolved. See Morrow, 188
F.3d at 1177 (“Plaintiffs nevertheless contend that
language in Keller leaves open the question whether
membership alone may cause the public to identify
plaintiffs with State Bar positions in violation of plaintiffs’ First Amendment rights.”). Nevertheless, we did
not resolve that claim.
When we reached the Morrow plaintiffs’ association claim, we essentially reformulated it: “[h]ere,
plaintiffs do not allege that they are compelled to associate in any way with the California State Bar’s political activities.” Id. By reformulating the claim, Morrow
held that the claim before it was “no broader than that
in Lathrop,” and noted “[t]he claim reserved in Keller
was a broader claim of violation of associational rights
than was at issue in either Lathrop or in this case.” Id.
Our avoidance of this broader free association claim
cannot preclude Plaintiffs’ efforts to resolve it here.

App. 25
Accordingly, Plaintiffs raise an issue that neither
the Supreme Court nor we have ever addressed:
whether the First Amendment tolerates mandatory
membership itself—independent of compelled financial support—in an integrated bar that engages in
nongermane political activities. In concluding that
precedent foreclosed this claim, the district court
erred.
2. Plaintiffs’ free association claim is viable.
The First Amendment protects the basic right to
freely associate for expressive purposes; correspondingly, “[t]he right to eschew association for expressive
purposes is likewise protected.” Janus, 138 S. Ct. at
2463 (citing Roberts v. U.S. Jaycees, 468 U.S. 609, 623
(1984)). Freedom from compelled association protects
two inverse yet equally important interests. First, it
shields individuals from being forced to “confess by
word or act their faith” in a prescriptive orthodoxy or
“matters of opinion” they do not share. W. Va. Bd. of
Educ. v. Barnette, 319 U.S. 624, 642 (1943). Second, because “[e]ffective advocacy of both public and private
points of view, particularly controversial ones, is undeniably enhanced by group association,” NAACP v.
Ala. ex rel. Patterson, 357 U.S. 449, 460 (1958), freedom
from compelled association checks the power of “official[s], high or petty, [to] prescribe what [opinions]
shall be orthodox.” Barnette, 319 U.S. at 642. In short,
like the “freedom of belief,” freedom from compelled association “is no incidental or secondary aspect of the

App. 26
First Amendment’s protections.” Abood, 431 U.S. at
235.
Plaintiffs’ freedom of association claim based on
the April 2018 Bulletin statements is viable. Because
the district court erred in dismissing this claim as foreclosed by our precedent, we reverse and remand.
On remand, there are a number of complicated
issues that the district court will need to address.
To begin, the district court will need to determine
whether Janus supplies the appropriate standard for
Plaintiffs’ free association claim and, if so, whether
OSB can satisfy its “exacting scrutiny standard.” Janus, 138 S. Ct. at 2477; see also, e.g., Fleck v. Wetch, 139
S. Ct. 590 (2018) (remanding a mandatory bar membership case for further consideration in light of Janus). Given that we have never addressed such a broad
free association claim, the district court will also likely
need to determine whether Keller’s instructions with
regards to germaneness and procedurally adequate
safeguards are even relevant to the free association inquiry. To avoid issuing an advisory opinion, we defer
consideration of these issues at this stage of the case.
See Ball v. Rodgers, 492 F.3d 1094, 1119 (9th Cir. 2007)
(declining to address an issue “at this time” until after
the district court has an opportunity to review on remand in light of the court’s instructions related to separate issues).

App. 27
C. Sovereign Immunity
As set forth above, the district court adopted the
magistrate’s recommendation, in which the magistrate
determined that OSB is “an arm of the state entitled
to Eleventh Amendment Immunity.” Although the
magistrate cited several district court decisions and
unpublished Ninth Circuit dispositions7 that have alluded to this conclusion, this is a matter of first impression before this court. The Eleventh Amendment bars,
with a few exceptions (see, e.g., Ex parte Young, 209 U.S.
123 (1908)), federal suits against unconsenting states,
their agencies, and their officers “regardless of the nature of the relief sought.” Pennhurst State Sch. & Hosp.
v. Halderman, 465 U.S. 89, 100 (1984). “[N]ot all statecreated or state-managed entities are immune from
suit in federal court. . . . an entity may be organized or
managed in such a way that it does not qualify as an
arm of the state entitled to sovereign immunity.” Durning v. Citibank, N.A., 950 F.2d 1419, 1423 (9th Cir.
1991).
In State ex rel. Frohnmayer v. Oregon State Bar,
the Oregon Supreme Court held that OSB is a state
agency as defined by its public records law. 767 P.2d
893, 895 (Or. 1989); see also OR. REV. STAT. § 192.311(6)
(“ ‘State Agency’ means any state officer, department,
board, commission or court created by the Constitution
7

Of note, the district court cited to our unpublished disposition in Eardley v. Garst, 232 F.3d 894 (9th Cir. 2000). Our circuit
rules prohibit citations to unpublished dispositions issued prior
to January 1, 2007 except in limited circumstances, none of which
are present here. See 9th Cir. R. 36.

App. 28
or statutes of this state. . . .”). And we acknowledge
that the Oregon Supreme Court “is the final authority
on the ‘governmental’ status of the [Bar] for purposes
of state law. But its determination . . . is not binding on
[federal courts] when . . . [deciding] a federal question.”
Keller, 496 U.S. at 11. We think that Frohnmayer has
answered, definitively, an important question: Is the
Oregon State Bar a state actor? The Oregon Supreme
Court has said “Yes,” and that means that OSB is
bound by those provisions of the U.S. Constitution that
bind state actors, such as the First Amendment, and
the Due Process and Equal Protection Clauses of the
Fourteenth Amendment. See, e.g., Burton v. Wilmington Parking Auth., 365 U.S. 715, 717 (1961). Finding
that an entity is the “state” for purposes of the First
Amendment or the Due Process and Equal Protection
Clauses, however, is not the same as concluding that
the entity is the “state” for purposes of the Eleventh
Amendment. See, e.g., Monell v. N.Y.C. Dep’t of Soc.
Servs., 436 U.S. 658, 690 n.54 (1978) (explaining there
is no “basis for concluding that the Eleventh Amendment is a bar to municipal liability” in § 1983 suits).
We recently discussed the different tests for state action and, as we will see, they are quite different from
our consideration of factors required for sovereign immunity. See Pasadena Republican Club v. W. Just. Ctr.,
___ F.3d ___, 2021 WL 235775, at *4 (9th Cir. Jan. 25,
2021) (listing various tests for state action). Accordingly, Frohnmayer does not answer the question before
us: Whether OSB is an arm of the state entitled to
immunity under the Eleventh Amendment.

App. 29
To determine whether OSB, which is “an instrumentality of the . . . government of the State of Oregon,” OR. REV. STAT. § 9.010(2), is an arm of the state
entitled to immunity, we apply the Mitchell framework. See Mitchell v. L.A. Cmty. Coll. Dist., 861 F.2d
198, 201 (9th Cir. 1988). The Mitchell factors are as
follows:
[1] whether a money judgment would be satisfied out of state funds, [2] whether the entity performs central governmental functions,
[3] whether the entity may sue or be sued,
[4] whether the entity has the power to take
property in its own name or only the name of
the state, and [5] the corporate status of the
entity. To determine these factors, the court
looks to the way state law treats the entity.
Id. (citation omitted). OSB “bear[s] the burden of proving the facts that establish its immunity under the
Eleventh Amendment.” ITSI T.V. Prods., Inc. v. Agric.
Ass’ns, 3 F.3d 1289, 1292 (9th Cir. 1993). We conclude
that, on the whole, the factors weigh against finding
OSB an “arm of the state” entitled to immunity.
1. Vulnerability of the State’s treasury
The first factor—whether a money judgment
would be satisfied out of state funds—weighs strongly
against immunity because Oregon law clearly answers
this question in the negative. OR. REV. STAT. § 9.010(6)
(“No obligation of any kind incurred or created under
this section shall be, or be considered, an indebtedness
or obligation of the State of Oregon.”).

App. 30
In this circuit, “the source from which the sums
sought by the plaintiff must come is the most important single factor in determining whether the Eleventh Amendment bars federal jurisdiction.” Durning,
950 F.2d at 1424 (citing Rutledge v. Ariz. Bd. of Regents, 660 F.2d 1345, 1349 (9th Cir. 1981); Ronwin v.
Shapiro, 657 F.2d 1071, 1073 (9th Cir. 1981); Jackson
v. Hayakawa, 682 F.2d 1344, 1350 (9th Cir. 1982)). Unlike the district court, we are not inclined to discount
the importance of this factor.8 Although it is true that
“[t]he Eleventh Amendment does not exist solely . . . to
prevent federal-court judgments that must be paid out
of a State’s treasury,” Seminole Tribe of Fla. v. Florida,
517 U.S. 44, 58 (1996) (cleaned up), “the vulnerability
of the State’s purse [i]s the most salient factor in Eleventh Amendment determinations.” Hess v. Port Auth.
Trans-Hudson Corp., 513 U.S. 30, 48 (1994). Indeed, as
the Supreme Court acknowledged in Hess, “the vast
majority of Circuits . . . have generally accorded this
factor dispositive weight.” 513 U.S. at 49 (internal quotation marks omitted). We certainly have, see Durning,
950 F.2d at 1424 (citing cases).
Nor are we persuaded by the district court’s observation that, “[d]espite the fact the Bar alone is responsible for any money damages it may incur. . . . [a]ny
money judgment would come from the Bar’s collection
8

The district court suggested that this factor carries less
weight in cases for primarily equitable relief. But even assuming
such a distinction bears on the weight of this factor, it has little
effect here as both complaints seek the return of OSB membership fees Plaintiffs have paid during the statute of limitations
period.

App. 31
of fees that is made possible because the State authorized the Bar to collect those fees.” Rather, we find
OSB’s collection of dues weighs against immunity, for
like the bar in Keller, OSB’s “principal funding comes,
not from appropriations made to it by the legislature,
but from dues levied on its members by the board of
governors.” 496 U.S. at 11.9
In short, Oregon law expressly disavows State financial responsibility for OSB, which is funded by
membership fees. Therefore, the first and most important Mitchell factor weighs strongly against immunity.
2. Central government functions
Mitchell’s second factor, “whether the entity performs central governmental functions,” is a closer call,
but we conclude that it weighs slightly against immunity. Mitchell, 861 F.2d at 201. To be sure, OSB, “an
instrumentality of [Oregon’s] Judicial Department,”
performs important government functions. OR. REV.
STAT. § 9.010(2). The district court detailed how the
Bar, subject to the review and direction of the Oregon
Supreme Court, manages bar examinations and attorney admissions, discipline, resignations, and reinstatements; and how the Oregon Supreme Court approves
9

The district court further opined, in a footnote, that if
Plaintiffs succeeded in eliminating mandatory membership fees,
the regulatory costs to the State would correspondingly increase.
These concerns, however well-intentioned, exceed the proper
scope of this first factor’s inquiry: Whether a money judgment
would be satisfied out of state funds.

App. 32
changes to some OSB bylaws, adopts rules of professional conduct, reviews OSB’s annual financials, and
approves its budget for certain activities.
We agree that OSB “undoubtedly performs important and valuable services for the State by way of
governance of the profession.” Keller, 496 U.S. at 11.
But like the integrated bar in Keller, “those services
are essentially advisory in nature.” Id. Integrated bars
are “a good deal different from most other entities that
would be regarded in common parlance as governmental agencies.” Id. (internal quotation marks omitted).
OSB “was created, not to participate in the general
government of the State, but to provide specialized professional advice to those with the ultimate responsibility of governing the legal profession.” Id. at 13. And
although Keller never specifically addressed sovereign
immunity, its analysis is pertinent and analogous to
the immunity question here. Keller identified (after a
lengthy discussion) constitutionally significant differences between an integrated bar and “traditional government agencies and officials.” Id. On that basis, the
Supreme Court rejected the argument that “the bar is
considered a governmental agency” that is “exempted
. . . from any constitutional constraints on the use of its
dues.” Id. at 10. Indeed, this was the principal basis on
which the Supreme Court reversed the California Supreme Court in Keller. Id. at 11–13.
Moreover, the second Mitchell factor inquiry must
be guided by “[t]he treatment of the entity under state
law.” Durning, 950 F.2d at 1426. The Gruber Plaintiffs
point out that under Oregon law, the Oregon Supreme

App. 33
Court—not OSB—makes final decisions on admitting
attorneys, disciplining attorneys, and adopting rules of
professional conduct. These same considerations convinced the Supreme Court in Keller that the California
bar was not “the typical government official or agency,”
but rather a professional association that provided recommendations to the ultimate regulator of the legal
profession. 496 U.S. at 11–12 (reversing the California
Supreme Court’s conclusion to the contrary). The Oregon Supreme Court exerts the same direct, regulatory
control over Oregon attorneys. See Ramstead v. Morgan, 347 P.2d 594, 601 (Or. 1959) (“No area of judicial
power is more clearly marked off . . . than the courts’
power to regulate the conduct of the attorneys who
serve under it.”). Given OSB’s similarity to the integrated bar in Keller, we find that the second Mitchell
factor weighs slightly against immunity.10 We note that
even if we were inclined to discount Keller—which we
cannot—and view OSB’s functions as central government functions, the second Mitchell factor is, at most,
a wash for OSB because the remaining four factors
weigh against immunity.

10

Our pre-Mitchell decisions in O’Connor v. State of Nevada,
686 F.2d 749, 750 (9th Cir. 1982) and Ginter v. State Bar of
Nevada 625 F.2d 829, 830 (9th Cir. 1980) do not require a contrary result. Neither opinion offers an explanation as to why the
Nevada state bar is an arm of the state. More importantly, our
present inquiry concerns Oregon’s state bar—not Nevada’s.

App. 34
3. Power to sue or be sued
Oregon law unequivocally imparts to OSB the
power to sue and be sued. OR. REV. STAT. § 9.010(5).
This factor thus militates against immunity. The district court nevertheless reasoned to the contrary because Oregon law elsewhere provides civil immunity to
the Bar and its officials in the performance of their duties related to admissions, licensing, reinstatements,
disciplinary proceedings, and client security fund
claims. OR. REV. STAT. §§ 9.537(2), 9.657. We are not
persuaded that limited grants of immunity for specific
functions cancel out the clear statutory grant of the
power to sue or be sued. In any event, we have recognized that although this factor warrants “some consideration, [it] is entitled to less weight than the first
two factors.” Belanger v. Madera Unified Sch. Dist.,
963 F.2d 248, 254 (9th Cir. 1992). As such, this factor
weighs slightly against immunity.
4. Power to take property in its own name
It is clear that OSB may “enter into contracts and
lease, acquire, hold, own, encumber, insure, sell, replace, deal in and with and dispose of real and personal
property.” OR. REV. STAT. § 9.010(5). This factor accordingly weighs against immunity.
5. Corporate status
“[OSB] is a public corporation and an instrumentality of . . . the State.” Id. § 9.010(2). But because the
Bar appoints its own leaders, amends most of its bylaws, and manages its internal affairs, OSB “is a

App. 35
corporate entity sufficiently independent from the
state.” Durning, 950 F.2d at 1428. Our decision in
Durning is illustrative here. There, the Wyoming Community Development Authority was “a body corporate
operating as a state instrumentality operated solely
for the public benefit” and its board was government
appointed. Id. at 1427 (emphasis in original). Yet
Durning concluded the fifth Mitchell factor weighed
against immunity. Id. at 1428. We reach the same conclusion here, for OSB is even more independent than
the Authority in Durning. OSB’s Board of Governors,
for instance, are not government appointed. OR. REV.
STAT. § 9.025(1)(a). The Board appoints OSB’s CEO. Id.
§ 9.055. And OSB “has the authority to . . . regulat[e]
and manag[e] . . . [its own affairs].” Id. § 9.080(1).
***
In sum, three factors, including the first and most
important, weigh against immunity and the other two
still lean slightly against immunity. The Mitchell factors thus compel the conclusion that OSB is not an
“arm of the state” entitled to immunity. We note that
even viewing two factors as neutral, OSB has not met
its burden to prove immunity.
IV.

CONCLUSION

In light of the foregoing, the district court is AFFIRMED IN PART, REVERSED IN PART, and
these cases are REMANDED for further proceedings
consistent with this opinion.

App. 36
VANDYKE, Circuit Judge, concurring in part and dissenting in part:
I agree with and concur in the entirety of the
panel’s opinion in these cases, except its resolution of
the Crowe Plaintiffs’ inadequate procedural safeguards claim based on Chicago Teachers Union v.
Hudson, 475 U.S. 292 (1986).
At first blush, it’s not obvious to me that the Bar’s
existing after-the-fact safeguards, which no one disputes fail to comply with the Supreme Court’s direction in Hudson, adequately “prevent[ ] compulsory
subsidization of ideological activity by” objecting bar
members. Id. at 302 (quoting Abood v. Detroit Bd. of
Educ., 431 U.S. 209, 237 (1977)). As the panel’s opinion
correctly concludes, even though the Supreme Court
seems to have moved on from the Abood rationale upon
which its Keller decision relied, we must still follow
Keller and thus reject Plaintiffs’ free speech claims in
these cases. But I don’t think that requires us to go further and ignore that the Supreme Court has now concluded even Hudson’s minimal safeguards are not
enough in other contexts. See Janus v. Am. Fed’n of
State, Cnty., & Mun. Emps., Council 31, 138 S. Ct. 2448,
2482, 2486 (2018) (concluding that “the Hudson notice
in the present case and in others that have come before
us do not begin to permit” objectors to protect their
First Amendment rights, and overruling Abood).
Given these developments in the law, it is hard for
me to see how something less than Hudson’s safeguards could suffice in the context of compulsory bar

App. 37
membership dues. Keller said that “an integrated bar
could certainly meet its Abood obligation by adopting
the sort of procedures described in Hudson,” Keller v.
State Bar of California, 496 U.S. 1, 17 (1990), which of
course we are bound by until the Supreme Court tells
us otherwise. See Agostini v. Felton, 521 U.S. 203, 237
(1997). But Keller never addressed what procedures
less protective than those required by Hudson would
suffice. Even assuming some type(s) of less protective
procedures might have been defensible before Janus
overruled Abood, it doesn’t strike me as very defensible
now that the Supreme Court has told us Hudson’s procedures are no longer sufficient in other contexts. Following Keller and Janus and Agostini, it may be that
Hudson’s requirements are now both a floor and a ceiling for integrated bars—at least until the Supreme
Court gives us more guidance.
Ultimately, however, I would address the Crowe
Plaintiffs’ inadequate safeguards claim by not doing so
in this appeal. We are remanding Plaintiffs’ free association claim, and if on remand they prevail on that
claim, the Bar will presumably need to change its bylaws, and maybe its entire structure. Because such
alterations would likely change the procedures the
Crowe Plaintiffs currently challenge, I don’t think it is
necessary that we review those procedures at this
stage of the case. To avoid issuing an advisory opinion,
I would defer consideration of this issue. See Ball v.
Rodgers, 492 F.3d 1094, 1119 (9th Cir. 2007) (declining to address a claim “at this time,” and waiting until

App. 38
after the district court on remand reviews the claim
anew in light of our court’s instructions on separate issues that could affect that claim). Accordingly, I respectfully dissent on this singular claim.

[cited in and attached to Crowe v. Oregon State Bar
No. 19-35463 archived on February 22, 2021]
[1] TABLE OF CONTENTS
Oregon State Bar Bylaws
(As amended by the Board of
Governors through June 26, 2020)
Article 1 Purpose of Bar and Definitions............ 7
Section 1.1 Definition ................................................7
Section 1.2 Purposes .................................................7
Article 2 Board of Governors ................................ 8
Section 2.1 Duties and Responsibilities ...................8
Subsection 2.100 General ......................................8
Subsection 2.101 Election ......................................9
Subsection 2.102 Board Committee and Other
Assignments ...........................................................9
Subsection 2.103 Judicial Campaigns and
Appointments .........................................................9
Subsection 2.104 Separation of Powers ..............10
Subsection 2.105 Amicus Curiae Briefs ..............10
Subsection 2.106 Indemnification .......................10

App. 39
Subsection 2.107 Defense of Disciplinary
Complaints and Proceedings ...............................10
Subsection 2.108 BOG member Censure or
Suspension from Service .....................................12
Section 2.2 Officers .................................................12
Subsection 2.200 Duties ......................................12
Subsection 2.201 Election ....................................13
Subsection 2.202 Removal ...................................13
Section 2.3 Public Members ...................................13
Subsection 2.300 Appointment ............................13
Subsection 2.301 Powers and Duties...................14
Subsection 2.302 Removal ...................................14
Subsection 2.303 Vacancies .................................14
Section 2.4 Meetings ...............................................14
Subsection 2.400 Robert’s Rules of Order ...........14
Subsection 2.401 Regular Meetings ....................14
Subsection 2.402 Special Meetings .....................14
Subsection 2.403 Emergency Meetings ...............14
Subsection 2.404 Minutes ....................................15
Subsection 2.405 Oregon New Lawyers Division Liaison.......................................................15
Section 2.5 Expenses...............................................15
Subsection 2.500 General Policy .........................15
Subsection 2.501 Conferences..............................15
Subsection 2.502 Gifts .........................................15

App. 40
Section 2.6 Conflicts of Interest..............................15
Subsection 2.600 Definitions ...............................16
Subsection 2.601 Prohibited Actions ...................17
Subsection 2.602 Disclosure of Conflict ..............17
Subsection 2.603 Board Members as Witnesses in Bar Proceedings ...................................18
Section 2.7 Judicial Selection .................................19
Subsection 2.700 General ....................................19
Subsection 2.701 Statewide Judicial Appointments ....................................................................19
Section 2.8 Chief Executive Officer .......................20
[2] Subsection 2.800 Duties .................................20
Subsection 2.801 Evaluation ...............................20
Subsection 2.802 Service of Notice ......................20
Subsection 2.803 Board Member Contact with
Staff......................................................................20
Section 2.9 Supreme Court Review of Oregon
Rules of Professional Conduct ................................20
Article 3 House of Delegates ................................ 21
Section 3.1 Duties and Powers ...............................21
Section 3.2 Delegates ..............................................21
Section 3.3 Resolutions ...........................................21
Section 3.4 Meeting Agenda ...................................21
Section 3.5 Parliamentarian ...................................21
Section 3.6 Initiative Petitions and Referenda ........22
Section 3.7 Location ................................................22

App. 41
Article 4 Awards ..................................................... 22
Section 4.1 General Policy ......................................22
Section 4.2 President’s Membership Service
Award ......................................................................22
Section 4.3 President’s Public Service Award ........22
Section 4.4 President’s Diversity & Inclusion
Award ......................................................................22
Section 4.5 President’s Special Award of Appreciation .................................................................23
Section 4.6 Award of Merit .....................................23
Section 4.7 Wallace P. Carson, Jr. Award for
Judicial Excellence ..................................................23
Section 4.8 President’s Public Leadership Award .......23
Section 4.9 President’s Sustainability Award ........23
Section 4.10 President’s Technology & Innovation Award ...............................................................23
Article 5 Oregon State Bar Delegates to the
American Bar Association House of Delegates .................................................................... 24
Section 5.1 Selection ...............................................24
Section 5.2 Voting....................................................24
Section 5.3 Expenses...............................................24
Article 6 Membership Classification and
Fees ........................................................................ 24
Section 6.1 Classification of Members....................24
Subsection 6.100 General ....................................24
Subsection 6.101 Active Pro Bono Status ...........25

App. 42
Subsection 6.102 Retired Status .........................25
Subsection 6.103 Reinstatement .........................26
Section 6.2 Register of Members ............................26
Section 6.3 Rights of Members ...............................26
Section 6.4 Annual Membership Fees and Assessments ................................................................26
Subsection 6.400 Due Date ..................................26
Subsection 6.401 Transfer of Member Status.......27
Subsection 6.402 Late Payment Penalty .............27
Subsection 6.403 Effect of Failure to Pay ............27
Subsection 6.404 New Admittees.........................27
Section 6.5 Waiver of Fees and Assessments .........27
Subsection 6.500 Hardship .................................27
Subsection 6.501 Military and Peace Corps
Service ..................................................................27
Subsection 6.502 Emergencies ............................28
Article 7 Financial Matters .................................. 28
[3] Section 7.1 Management of Funds ....................28
Subsection 7.100 General Policy .........................28
Subsection 7.101 Audit of the Books ...................28
Subsection 7.102 Borrowing ................................28
Subsection 7.103 Check Signatures ....................29
Subsection 7.104 Credit Policy ............................29
Subsection 7.105 Write-offs .................................29

App. 43
Section 7.2 Annual Budget .....................................29
Subsection 7.200 Approval by Board of Governors ...................................................................29
Subsection 7.201 Contingency Fund ...................29
Subsection 7.202 Approval by Supreme Court ......30
Subsection 7.203 Grants......................................30
Section 7.3 Reserve Policy ......................................30
Subsection 7.300 Purpose ....................................30
Subsection 7.301 General Fund ..........................30
Subsection 7.302 Reserve Funds .........................30
Section 7.4 Investment Policy ................................31
Subsection 7.400 Purpose ....................................31
Subsection 7.401 Investment Management.........32
Subsection 7.402 Management and Monitoring of Performance ..........................................32
Subsection 7.403 Prudent Investor Rule .............32
Section 7.5 Expense Reimbursements ...................32
Subsection 7.500 General Policy .........................32
Subsection 7.501 Eligible Expenses ....................32
Subsection 7.502 House of Delegates Meetings .......................................................................33
Subsection 7.503 Travel Reimbursements ..........33
Section 7.6 Location of Office .................................34
Article 8 Public Records/Meetings ..................... 34
Section 8.1 Public Records ......................................34
Subsection 8.100 General Policy .........................34

App. 44
Subsection 8.101 Public Record Requests
and Bar Fees for Public Records Searches
and Copies ...........................................................34
Subsection 8.102 Public Disclosure of Client
Assistance Office, Discipline Counsel’s Office
and Disciplinary Board Clerk Records ...............35
Section 8.2 Public Meetings....................................36
Subsection 8.201 Judicial Proceedings ...............36
Article 9 Election Procedures ............................. 36
Section 9.1 Date of Elections ..................................36
Section 9.2 Ballots...................................................37
Section 9.3 Voting....................................................37
Article 10 Diversity ................................................ 37
Article 11 Communications ................................. 38
Section 11.1 General Policy ....................................38
Section 11.2 Editorial Policy ...................................38
Subsection 11.201 Editorial Advisory Committee Policy .........................................................38
Subsection 11.202 Editorial Policies ...................38
Subsection 11.203 Review by Chief Executive Officer ............................................................38
Section 11.3 Media Relations .................................38
Section 11.4 Campaign Advertisements ................38
[4] Section 11.5 Membership Surveys and
Questionnaires ........................................................39
Article 12 Legislation and Public Policy........... 39
Section 12.1 Guidelines ..........................................39

App. 45
Section 12.2 Initiation of Legislation .....................39
Subsection 12.200 House of Delegates and
Membership .........................................................39
Subsection 12.201 Board of Governors ...............39
Section 12.3 Legislative Process.............................39
Section 12.4 Committees and Sections ..................40
Section 12.5 Professional Liability Fund Legislation .....................................................................40
Section 12.6 Objections to Use of Bar Dues ...........40
Subsection 12.600 Submission ............................40
Subsection 12.601 Refund ...................................41
Subsection 12.602 Arbitration.............................41
Article 13 Pro Bono................................................ 42
Section 13.1 Aspirational Standard .......................42
Section 13.2 Program Certification ........................42
Subsection 13.200 Procedure...............................42
Subsection 13.201 Criteria ..................................42
Subsection 13.202 Volunteer Recognition ...........43
Article 14 Committees ........................................... 43
Section 14.1 Standing and Special Committees ...........................................................................43
Section 14.2 Joint Committees ...............................43
Section 14.3 Committee Responsibilities ...............43
Section 14.4 Membership .......................................44
Section 14.5 Financial Issues .................................44
Section 14.6 Legislation ..........................................44

App. 46
Section 14.7 Administrative Services.....................44
Section 14.8 Committee Reports ............................44
Section 14.9 Quorum for Meetings .........................44
Article 15 Sections ................................................. 45
Section 15.1 Purpose ...............................................45
Section 15.2 Formation ...........................................45
Section 15.3 Bylaws ................................................45
Section 15.4 Finances .............................................45
Subsection 15.400 Dues .......................................45
Subsection 15.401 Donations ..............................46
Section 15.5 Administrative Services ....................46
Section 15.6 Continuing Legal Education Activities ......................................................................46
Subsection 15.600 CLE Seminars Scheduling ........................................................................46
Subsection 15.601 CLE Event Co-sponsorship
with Bar ...............................................................46
Subsection 15.602 CLE Event Registration ........46
Subsection 15.603 Oregon State Bar Logo ..........46
Section 15.7 Grants .................................................47
Article 16 Continuing Legal Education ............ 47
Section 16.1 Purpose ...............................................47
Section 16.2 OSB Continuing Legal Education Seminars Program...........................................47
Subsection 16.200 Reduced and Complimentary Registrations; Product Discounts ................47

App. 47
[5] Subsection 16.201 Expenses of Speakers
and Planners ........................................................48
Section 16.3 OSB Legal Publications Program ......48
Subsection 16.300 Benefit of Membership ..........48
Subsection 16.301 Discounts on Print Books .......48
Subsection 16.302 Volunteer Copyright Agreement ......................................................................48
Article 17 Member Services ................................. 48
Section 17.1 Administrative Services.....................48
Section 17.2 Bar-sponsored Tours ..........................49
Article 18 Discipline .............................................. 49
Section 18.1 State Professional Responsibility
Board .......................................................................49
Subsection 18.100 Duties ....................................49
Subsection 18.101 Composition ..........................49
Subsection 18.102 Expenses ................................49
Subsection 18.103 Notice to the Respondent .......49
Subsection 18.104 Disclosure of Contacts ...........49
Section 18.2 Letters of Admonition ........................50
Section 18.3 Recovery of Costs/Collection of
Judgments ...............................................................50
Section 18.4 Disciplinary Correspondence.............50
Section 18.5 Removing Lawyers from the Lawyer Referral Service Panel of Lawyers ...................50
Section 18.6 Suspension of Service ........................50
Subsection 18.600 Applicability to SPRB ...........50

App. 48
Section 18.601 SPRB Replacements ...................51
Section 18.7 Adjudicator .........................................51
Article 19 Legal Ethics Questions and Opinions ......................................................................... 51
Section 19.1 General Counsel’s Office ....................51
Subsection 19.100 Submission and Questions ......................................................................51
Subsection 19.101 Determination by General Counsel .........................................................51
Subsection 19.102 Ethics Advice to Bar
Members ...............................................................51
Subsection 19.103 Application of Oregon
RPC 8.6 ................................................................52
Section 19.2 Limitation of Advice ...........................52
Section 19.3 Legal Ethics Committee ....................52
Subsection 19.300 Response to Inquiries ............52
Subsection 19.301 Formal Opinion Process ........52
Article 20 Unlawful Practice of Law .................. 53
Section 20.1 Definitions ..........................................53
Section 20.2 Unlawful Practice of Law Committee.......................................................................53
Section 20.5 Processing Unlawful Practice of
Law Complaints ......................................................54
Subsection 20.500 Investigation..........................54
Subsection 20.501 Dispositions ...........................54
Section 20.6 Bar Counsel ........................................55
Subsection 20.600 Role of Bar Counsel...............55

App. 49
Subsection 20.601 Settlement Authority .............55
Subsection 20.602 Referral to Bar Counsel ........55
Section 20.7 Public Outreach and Education .......................................................................55
Subsection 20.700 Public Outreach ....................55
Subsection 7.701 Informal Advisory Opinions .......................................................................55
Section 20.8 Records ...............................................56
[6] Article 21 Client Security Fund..................... 56
Article 22 Fee Arbitration .................................... 56
Article 23 Professional Liability Fund .............. 57
Section 23.1 Board of Directors ..............................57
Section 23.2 Authority ............................................57
Section 23.3 Operation............................................57
Section 23.4 Reports ...............................................57
Section 23.5 Relationship with the Board of
Governors ................................................................58
Subsection 23.500 Liaisons .................................58
Subsection 23.501 Reports...................................58
Subsection 23.502 Release of Information ..........59
Subsection 23.503 BOG Members Participating in PLF Claims ..........................................59
Subsection 23.504 Annual Meeting .....................59
Subsection 23.505 Audit ......................................59
Subsection 23.506 Location of Office...................59
Subsection 23.507 Staff Responsibility ...............59

App. 50
Section 23.6 Assessment .........................................60
Subsection 23.600 Principles ..............................60
Article 24 Attorney Assistance ............................ 60
Section 24.1 Creation and Purpose ........................60
Section 24.2 Authority ............................................60
Subsection 24.200 State Lawyers Assistance
Committee ............................................................60
Subsection 24.201 Professional Liability Fund
Personal and Practice Management Assistance
Committee ............................................................61
Section 24.3 Composition........................................61
Subsection 24.300 State Lawyers Assistance
Committee ............................................................61
Subsection 24.301 Professional Liability Fund
Personal and Practice Management Assistance
Committee ............................................................61
Section 24.4 State Lawyers Assistance Committee Review and Intake ......................................61
Subsection 24.400 Complaints and Referrals .......................................................................61
Subsection 24.401 Designees ...............................62
Subsection 24.402 Preliminary Assessment
and Intake ............................................................62
Subsection 24.403 Notice to Referred Lawyer .......63
Section 24.5 State Lawyers Assistance Committee Investigations ..............................................63
Subsection 24.500 Meeting with Referred
Lawyer..................................................................63

App. 51
Subsection 24.501 Release of Information ..........63
Subsection 24.502 Professional Evaluation ........63
Subsection 24.503 Remedial Action Plan ...........64
Section 24.6 State Lawyers Assistance Committee Records.........................................................64
Section 24.7 Other State Lawyers Assistance
Committee Policies..................................................65
Subsection 24.700 Non-cooperation ....................65
Subsection 24.701 Confidentiality ......................65
Subsection 24.702 Duty to Report Unethical
Conduct ................................................................65
Subsection 24.703 Statistical Data .....................65
Subsection 24.704 Public Meetings .....................65
Article 25 Law Student Associates ..................... 66
Article 26 Sustainability ....................................... 66
Article 27 Unclaimed Lawyer Trust Account
Funds..................................................................... 66
[7] Section 27.100 Purpose .....................................66
Section 27.101 Administration ...............................66
Subsection 27.102 Disbursement ...........................66
Subsection 27.103 Claim Adjudication ..................67
Article 28 Admissions ............................................ 68
Section 28.1 Board of Bar Examiners ....................68
Section 28.2 Nominations .......................................68
Section 28.3 Liaisons ..............................................68
Section 28.4 Admissions Director ...........................68

App. 52
Section 28.5 Budget ................................................69
Section 28.6 Amendments ......................................69
Article 29 Amendment of Bylaws........................ 69
Subject Index ..............................................................70
Article 1 Purpose of Bar and Definitions
Section 1.1 Definition
In these Bylaws, unless the context or subject matter
otherwise requires:
(A) “State Bar” and “Bar” mean the Oregon State Bar,
as described in ORS Chapter 9.
(B)
9.

“State Bar Act” and “Bar Act” mean ORS Chapter

(C) “Board of Governors” and “Board” mean the
Board of Governors of the Oregon State Bar.
(D) “House of Delegates” and “House” mean the
House of Delegates of the Oregon State Bar created by
ORS 9.136.
(E) “President” means the President of the Oregon
State Bar.
(F) “President-elect” means the President-elect of the
Oregon State Bar.
(G) “Chief Executive Officer” means the Chief Executive Officer of the Oregon State Bar.
(H) “Governor” means a member of the Board of Governors of the Oregon State Bar.

App. 53
(I) “Member” means a member of the Oregon State
Bar.
Section 1.2 Purposes
The mission of the Oregon State Bar is to serve justice
by promoting respect for the rule of law, by improving
the quality of legal services and by increasing access to
justice.
The Bar fulfills that mission through the following
functions:
(A) We regulate the legal profession and improve the
quality of legal services.
(B) We support the judiciary and improve the administration of justice.
[8] (C) We advance a fair, inclusive, and accessible
justice system.
Article 2 Board of Governors
Section 2.1 Duties and Responsibilities
Subsection 2.100 General
(a) The Board of Governors governs the Bar, except
as provided in ORS 9.136 to 9.155, and must at all
times direct its power to serve the public interest as
provided in ORS 9.080(1).
(b) The Board establishes and monitors implementation of the mission, strategic plan, programs, services
and policies of the bar.

App. 54
(c) The Board monitors the financial condition of the
bar, ensures that adequate resources exist for operations, programs, and services, and approves the annual
bar budget.
(d) The Board selects and appoints the Chief Executive Officer, who is the Board’s only employee. The
Chief Executive Officer is responsible for implementing, administering and supervising bar operations, bar
staff, bar programs and services as provided in OSB
Bylaw 2.8. The Board supports, provides direction to,
evaluates the performance of, and determines compensation for the Chief Executive Officer. The Board commits to providing a work environment for the Chief
Executive Officer that is free of harassment and intimidation, as provided in the BOG Anti-Harassment Policy. Any board member who is aware that a board
member has engaged in harassment or intimidation
against the Chief Executive Officer or any other OSB
staff should report the information immediately to the
bar president, president-elect, Chief Executive Officer
or OSB General Counsel, as appropriate.
(e) Board members are ambassadors for the bar.
Board members should listen to stakeholders and
bring their perspectives and concerns to the attention
of the board. They should share information with
stakeholders about the mission, strategic plan, programs, services, activities and policies of the bar.
Stakeholders include, but are not limited to, members of the public, bar members and law students
within the board member’s region, committees, sections and other bar groups to which the board member

App. 55
is appointed as liaison, members of local, specialty and
affinity bars, and state and local government officials.
(f ) Board members are advocates for the bar within
the legal and other communities and should avoid
speaking publicly in opposition to positions taken by
the Board of Governors.
(g) Board members are leaders within the legal and
other communities who should model the values of the
Oregon State Bar.
(h) Board members are committed to providing a
professional, inclusive, and harassment-free experience for everyone at bar-sponsored events, meetings
and functions. Any board member who is aware that
someone has engaged in harassment or intimidation
against an attendee of a bar-sponsored event, meeting
or function, should report the information immediately, as provided in the OSB Event Anti-Harassment
Policy.
[9] (i) Board members are committed to preparing for
and attending all board meetings and other functions
except when, in a board member’s judgment, an emergency or compelling circumstance arises that prevents
participation.
(j) Board members are committed to development of
the skills and competencies needed to contribute to the
successful governance of the bar, including but not limited to, organizational knowledge, oversight of the
Chief Executive Officer, financial literacy, and cultural
competency.

App. 56
(k) Each board member has special talents, perspectives, and community connections that contribute to
the successful governance of the Bar. Expressing
opinions, sharing expertise, and providing diverse
perspectives on issues before the Bar are important
and encouraged.
Subsection 2.101 Election
(a) The election of lawyer-members of the Board will
be conducted according to Article 9 of the Bar’s Bylaws.
Newly elected governors and officers of the Bar take
office on January 1 of the year following their election.
(b) Candidate statements for the office of Governor
from a region must be in writing. The Chief Executive
Officer will prepare the forms for the candidate statements and supply the forms to the applicants. Applicants must complete and file the form with the Chief
Executive Officer by the date set by the Board. The
Chief Executive Officer must conduct elections in accordance with the Bar Bylaws and the Bar Act.
Subsection 2.102 Board Committee and Other
Assignments
At or shortly after the annual orientation and retreat,
board members will be invited to indicate their preferences for board committee and other assignments.
Members of the senior class will be invited to identify
one or more board committees they would like to chair.
The Chief Executive Officer and president-elect will

App. 57
develop a slate of assignments based on the preferences. Senior class members shall have priority in
the choice of assignments, but the preferences of all
member will be honored to the extent possible and appropriate. The proposed slate will be circulated to the
board and any board member may request a change of
assignments. The president-elect will make reasonable
effort to accommodate any change requests, but the
president-elect’s decision will be final.
Subsection 2.103 Judicial Campaigns and Appointments
(a) Bar Positions on Judicial Campaigns and Appointments. The members of the Board must refrain
from stating or suggesting that the bar or Board is taking a position on judicial campaigns or appointments,
except to relay recommendations made by the Board
pursuant to OSB Bylaw 2.703, Statewide Judicial Appointments.
(b) Personal Positions on Judicial Campaigns and
Appointments. If a member agrees to be listed as supporting or opposing a judicial candidate and be identified as a member of the Board, any publication must
include a prominent disclaimer that the views expressed are the member’s own and do not represent the
views of the bar or Board. Members of the Board who
express a personal position on a judicial campaign or
appointment should strive to explain that they are not
taking a position on behalf of the bar or Board. public
involvement in judicial campaigns and appointments

App. 58
that in any way identifies them as members of the
Board, officers of the Bar, or otherwise representing
the Oregon State Bar.
[10] Subsection 2.104 Separation of Powers
The Board will not nominate or appoint persons who
work in or for the state executive or legislative departments to the following bodies: State Professional
Responsibility Board, Disciplinary Board, Minimum
Continuing Legal Education Board and Commission
on Judicial Fitness and Disability. In the case of a challenge to the candidacy of a member of the Board of
Governors under ORS 9.042, the Board will follow the
procedures outlined in the statute.
Subsection 2.105 Amicus Curiae Briefs
A section or committee that wishes to enter an amicus
curiae appearance before any trial court or appellate
court must obtain prior approval from the Board. The
request must be in writing and must include a synopsis of the question involved, the posture of the case, the
position to be taken in the amicus appearance, and the
anticipated cost of appearing amicus curiae including
lawyer fees, if any. The question involved must directly
or substantially affect admission to the practice of law,
the practice of law, discipline of members of the bench
or bar, the method of selecting members of the judiciary or other questions of substantial interest to the
Bar or a committee or section. The Board will determine whether the question involved can be adequately

App. 59
presented to the court without the amicus appearance
of the committee or section. All costs for appearance by
a section must be paid by the section; if the Board approves the filing of an amicus appearance by a committee, the Bar will pay any costs for the appearance.
Subsection 2.106 Indemnification
The Bar must indemnify its officers, board members,
directors, employees and agents and defend them for
their acts and omissions occurring in the performance
of their duties, to the fullest extent permitted by ORS
Chapter 30 relating to indemnification by public bodies, especially the provisions of ORS 30.285. The term
“officers, board members, directors, employees and
agents” of the Bar includes subordinate groups established by the Bar or the Supreme Court to perform one
or more of the Bar’s authorized functions, including the
Board of Bar Examiners, the Professional Liability
Fund, the State Professional Responsibility Board, the
Disciplinary Board, bar counsel and the State Lawyers
Assistance Committee. The right to and method and
amount of defense and indemnification are determined
in accordance with the provisions of ORS 30.285 or
comparable provisions of law governing indemnity of
state agents in effect at the time of a claim.
Subsection 2.107 Defense of Disciplinary Complaints and Proceedings
(a) The bar will defend any of its current and former
officers, employees and agents (hereafter “Accused”),

App. 60
whether elected or appointed, against any complaint
of professional misconduct arising out of an act or
omission occurring in the performance of his or her official duties on behalf of the bar as provided in this bylaw.
(b) The duty to defend does not apply in the case of
malfeasance, gross negligence or willful or wanton neglect of duty.
(c) If any complaint is made to the Oregon State Bar
or other agency or court with disciplinary jurisdiction over the Accused or a disciplinary proceeding is
brought by the Oregon State Bar or such agency or
court against an Accused which on its face [11] falls
within the provisions of subsection (a) of this bylaw, or
which the Accused asserts to be based in fact on an act
or omission in the performance of his or her official duties on behalf of the bar and not within the scope of
subsection (b) of this bylaw, the Accused may file a
written request for a defense with the General Counsel, or if the request is by the General Counsel, the
President of the bar. The General Counsel or President,
as the case may be, will thereupon present his or her
recommendations to the Board of Governors regarding
the approval of an agreement to pay for the defense of
the Accused, including attorney fees and costs during
the investigation, prosecution, and appeal of a complaint of professional misconduct. The Board of Governors will approve such terms and conditions of
payment for the defense as it deems appropriate under
the circumstances, including the Board’s right to select counsel to defend the Accused, unless the Board

App. 61
determines that the complaint does not arise out of an
act or omission occurring in the performance of official
duties on behalf of the bar, or that the act or omission
amounted to malfeasance, gross negligence or willful
or wanton neglect of duty, in which case the Board will
reject the request.
(d) If the Board agrees to pay for the defense of a complaint or disciplinary proceeding, the Accused shall cooperate fully with the lawyer(s) hired by the bar to
defend the Accused. If the Board determines that the
Accused has not cooperated with defense counsel or
has otherwise acted to prejudice defense counsel’s good
faith decisions regarding the proper defense of the
matter for which a defense is provided, the Board may
at any time terminate the continued defense of the
matter and require the Accused to reimburse the bar
for all funds it has paid on account of the defense of the
Accused. The Board may condition the provision of a
defense under this bylaw on the Accused’s agreement
to make such reimbursement upon the Board’s good
faith determination that the Accused has failed to cooperate with defense counsel or otherwise acted to
prejudice defense counsel’s good faith decisions regarding the proper defense of the matter.
(e) If the Board concludes, after undertaking to pay
for the Accused’s defense, that the conduct was malfeasance, grossly negligent, or the willful or wanton neglect of duty, the Board will terminate the continued
defense of the matter and require the Accused to reimburse the bar for all funds it has paid on account of the
defense. The Board may condition the provision of a

App. 62
defense under this bylaw on the Accused’s agreement
to make such reimbursement upon the Board’s good
faith determination that the Accused has engaged in
such conduct.
(f ) If the Accused in a disciplinary proceeding is
found to have violated the rules of professional duct, a
disciplinary statute or disciplinary regulation, the Accused must reimburse the bar for all funds it has paid
on account of the defense of the Accused. The Board
may condition the provision of a defense under this
bylaw on the Accused’s agreement to make such reimbursement upon the entry of a final judgment
imposing discipline on the Accused. Discipline for
purposes of this bylaw should be a reprimand or
greater sanction imposed by the Disciplinary Board or
the Oregon Supreme Court or other court or agency
having disciplinary jurisdiction over the Accused. If
the discipline is a reprimand, the board may waive the
reimbursement requirement.
(g) If the Board denies an Accused a defense under
this bylaw or terminates the provision of such a defense under the terms of this bylaw and the Accused is
found in any disciplinary proceeding for which a defense was denied or terminated not to have violated
any rule of professional conduct or disciplinary statute
or regulation, [12] the bar will reimburse the Accused
for his or her reasonable attorney fees and costs in
defense of such matter so long as the Accused’s conduct occurred in the performance of official duties on
behalf of the bar and did not separately constitute
malfeasance, gross negligence or willful or wanton

App. 63
neglect of duty, as, in good faith, is determined by the
Board. Pro se representation does not qualify for the
reimbursement of reasonable attorney fees and costs
under this subsection.
Subsection 2.108 BOG member Censure or Suspension from Service
(a) A board member may be censured or suspended
from board service for cause on a two-thirds vote of the
entire Board of Governors. The board must provide the
board member to be censured or suspended with advance written notice of the vote. Upon request, the
board must also provide the reason for the proposed
censure or suspension and an opportunity to contest it
in writing or in person at a meeting of the Board.
“Cause” includes, but is not limited to: incapacity to
serve; a serious breach of, or repeated failures to meet,
the duties outlined in these bylaws, or; conduct or activities that bring discredit to, or may give rise to liability for, the bar.
(b) A board member against whom charges of misconduct have been approved for filing by the State
Professional Responsibility Board is automatically
suspended from board service until the charges filed
against them have been resolved or until their term
ends or is terminated as provided in ORS 9.025(5).
(c) The Board of Governors may appoint a temporary
replacement to serve until the board member suspended under this bylaw is again able to serve.

App. 64
Section 2.2 Officers
Subsection 2.200 Duties
(a)

President

The President presides at all meetings of the Board
and has the authority to exercise the Board’s power between board meetings and to take appropriate action
whenever the President finds that a board meeting is
not necessary or cannot reasonably be convened. However, the President’s action must be consistent with
any actions taken or policies previously adopted by the
Board or by the membership. The President must report any such action at the next board meeting. The
President performs such other duties as the Board directs.
(b)

President-Elect

The President-elect performs the duties of the President in the absence, inability or refusal of the President to perform those duties. The President-elect
performs other duties as the Board directs.
(c)

Immediate Past President

The Immediate Past President is a non-voting ex officio member of the Board. Upon completion of the term
for which the President is elected, the President becomes the Immediate Past-President for one year. The
duties of the Immediate Past President will be as
agreed between the Immediate Past President and the
Board from time to time. Expenses of the Immediate
Past President will be reimbursed as approved by the
Board.

App. 65
[13] Subsection 2.201 Election
(a)

Time of Election

The President and President-elect are elected at the
last regularly scheduled board meeting of the calendar
year. The only candidate for President is the Presidentelect.
(b)

President-Elect

Any lawyer member of the second-year class may be a
candidate for the office of President-elect by notifying the Chief Executive Officer by September 1. Each
candidate must submit with said notice a statement
outlining the candidate’s qualifications, reasons for
seeking the position, and vision for the bar. A Nominating Committee, consisting of the fourth-year class and
the current President-elect, will interview each candidate and nominating committee members will confer
with the remaining board members to discuss their
view about each candidate’s respective qualifications.
The Nominating Committee will announce its candidate for President-elect at least 20 days prior to the
last regularly scheduled board meeting of the calendar
year. The Nominating Committee’s selection will be the
sole candidate for President-elect unless at least six
members nominate another candidate by written petition delivered to the Chief Executive Officer not less
than 10 days prior to the last regularly scheduled
board meeting of the calendar year. If the Nominating
Committee is unable to select a sole candidate for President-elect, the board will elect a President-elect at its

App. 66
last regularly scheduled board meeting of the calendar
year, pursuant to Subsection 2.201(c).
(c)

Voting

If there is only one candidate for an office, the candidate is deemed elected without a formal vote. When
there are two nominees for President-elect, the candidate receiving the most votes will be elected. If there
are three nominees for President-elect and no candidate receives more than 50 percent of the votes on the
first vote, the candidate receiving the fewest votes is
eliminated and another vote will be taken. Only board
members present at the meeting may vote.
Subsection 2.202 Removal
Any officer of the Bar may be removed with or without
cause on a three-fourths affirmative vote of all board
members. That position is then filled by the Board, at
the same or a subsequent meeting, using the above
rules as far as applicable.
Section 2.3 Public Members
In addition to the resident active members of the Bar
required by ORS 9.025, four public positions exist on
the Board of the Bar.
Subsection 2.300 Appointment
Any person appointed to a public position on the Board
must meet the qualifications set forth in ORS 9.025(1).

App. 67
Public members serve for a term of four years, beginning on January 1 of the year following appointment.
Every attempt will be made to maintain geographic
distribution; however, the priority will be to match the
current needs of the Board with the areas of interest of
the public members.
[14] Subsection 2.301 Powers and Duties
Public members of the Board have the same voting
rights as the lawyer members of the Board. They take
the same oath of office and are charged with the same
functions and duties as provided by statute and Board
Policies. Public members cannot serve as officers of the
Bar.
Subsection 2.302 Removal
Public members of the Board are subject to removal by
the Board upon the following grounds and for the following reasons: A public member no longer meets the
initial qualifications for appointment set forth in Subsection 2.300 of the Bar’s Bylaws; or a public member
commits an act substantially similar to the conduct
proscribed by ORS 9.527 or fails to perform the duties
of the office. If at least ten members of the Board propose that the public member be removed, the public
member is given written notice of the proposed removal, together with the reasons therefore. The written notice must be given at least 15 days before the
next regularly scheduled board meeting. Thereafter, on

App. 68
a vote of at least ten members of the Board, the public
member is removed and the position is vacated.
Subsection 2.303 Vacancies
On the death, resignation or removal of a public member of the Board, the Board must appoint a replacement to serve the unexpired portion of the then vacant
position. Any person so appointed must satisfy the
qualifications for appointment set forth in Subsection
2.400 of the Bar’s Bylaws and is subject to removal as
set forth in Subsection 2.302 of the Bar’s Bylaws.
Section 2.4 Meetings
Subsection 2.400 Robert’s Rules of Order
Board meetings are governed by ORS Chapter 9, these
bylaws, and the most recent edition of Robert’s Rules
of Order.
Subsection 2.401 Regular Meetings
Meetings of the Board are held at such times and
places as the Board determines. The Chief Executive
Officer will provide notice of the time and place of all
meetings in accordance with ORS 192.610 to 192.690.
Subsection 2.402 Special Meetings
A special meeting of the Board may be called by the
President or by three Governors filing a written request with the Chief Executive Officer. If, within five

App. 69
days after a written request by three Governors, the
President fails or refuses for any reason to set a time
for and give notice of a special meeting, the Chief Executive Officer must call the meeting and provide at
least 24 hours’ notice of the time and place of the special meeting in accordance with ORS 192.610 to
192.690.
Subsection 2.403 Emergency Meetings
When the President determines that a matter requires
immediate attention of the Board, an emergency meeting may be called on less than 24 hours’ notice. Notice
must be given to members of the board, the media and
other interested persons as may be appropriate under
the circumstances. The notice must indicate the subject [15] matter to be considered. Only the matters for
which the emergency meeting is called may be considered at the meeting.
Subsection 2.404 Minutes
Accurate minutes of all board meetings must be preserved in writing or in a sound, video or digital recording. The minutes must reflect at least the following
information: members present, motions or proposals
and their disposition, the substance of any discussion
on any matter, and a reference to any document discussed at the meeting. The minutes must reflect the
vote of each member of the Board by name if the vote
is not unanimous. Draft minutes, identified as such,
will be available to the public within a reasonable time

App. 70
after the meeting. Final minutes will be available to
the public within a reasonable time after approval by
the Board. The minutes of executive sessions will be
available to the public except where disclosure would
be inconsistent with the purpose of the executive session.
Subsection 2.405 Oregon New Lawyers Division
Liaison
The Oregon New Lawyers Division (“ONLD”) has a
non-voting liaison to the Board, who must be a member
of the ONLD Executive Committee. The ONLD liaison
is appointed by the chair of the ONLD Executive Committee to serve for a one-year term. No person may
serve more than three terms as ONLD liaison. If the
ONLD liaison is unable to attend a meeting of the
Board, the ONLD chair may appoint another member
of the ONLD Executive Committee to attend the meeting.
Section 2.5 Expenses
Subsection 2.500 General Policy
All provisions of Section 7.5 of the Bar’s Bylaws (Expense Reimbursements) apply to the Board of Governors with the following additions. Officers of the Board
who, because of their office, must occupy a suite or special room other than the standard room occupied by
most board members will be entitled to be reimbursed
for the extra expense. Members of the Board who host
board dinners will be reimbursed the actual cost of the

App. 71
dinner regardless of whether it is held in the board
member’s home or at a restaurant.
Subsection 2.501 Conferences
The Bar will reimburse the actual expenses of the
President and/or President-elect and their spouses or
partners and the Chief Executive Officer, to any out-ofstate conference that is included in the annual budget.
Other attending board members are not eligible for
any reimbursement unless specifically authorized by
the Board. Each year the Bar will reimburse the actual
expenses of the President-elect and spouse or partner
and the Chief Executive Officer, to attend the ABA Bar
Leadership Conference or a comparable conference.
Subsection 2.502 Gifts
The expense of gifts by the Board to its retiring members is a budgeted expense.
Section 2.6 Conflicts of Interest
Bar officials are subject to the provisions of ORS Chapter 244, the Government Standards and Practices Act.
Nothing in this section is intended to enlarge or [16]
contradict the statutory provisions as they may apply
to bar officials. To the extent anything in this section
contradicts the provisions of ORS Chapter 244, bar officials shall be bound by the statutory provisions.

App. 72
Subsection 2.600 Definitions
As used in Section 2:
(a) “Actual conflict of interest” means that the person,
a relative of the person or a business with which the
person or a relative of the person is associated will derive a private pecuniary benefit or detriment as a result of an action, decision or recommendation of the
person in the course of bar-related activities.
(b) “Bar official” means members of the Board of Governors; appointees of the Board of Governors, including
members of standing committees, bar counsel panels,
and the State Professional Responsibility Board; section officers and executive committee members; and
bar staff.
(c) “Business” means any corporation, partnership,
proprietorship, firm, enterprise, franchise, association,
organization, self-employed person and any other legal
entity operated for economic gain, but excluding any
income-producing not-for-profit corporation that is tax
exempt under IRC §501(c) with which a bar official is
associated only as a member or board director or in a
non-remunerative capacity.
(d) “Business with which the person is associated”
means:
(1) any private business or closely held corporation of which the bar official or the bar official’s
relative is a director, officer, owner, employee or
agent or any business or closely held corporation
in which the bar official or the bar official’s relative

App. 73
owns or has owned stock worth $1,000 or more at
any point in the preceding year;
(2) Any publicly held corporation in which the
bar official or the bar official’s relative owns or has
owned $100,000 or more in stock or another form
of equity interest, stock options or debt instruments at any point in the preceding calendar year;
and
(3) Any publicly held corporation of which the
bar official or the bar official’s relative is a director
or officer.
(e) Except as excluded by ORS 244.020(6), “gift” means
something of economic value given to or solicited by a
bar official, or a relative or member of the household of
the bar official:
(1) Without valuable consideration of equivalent
value, including the full or partial forgiveness of
indebtedness, which is not extended to others who
are not bar officials or the relatives or members of
the household of bar officials on the same terms
and conditions; or
(2) For valuable consideration less than that required from others who are not bar officials.
(f ) “Potential conflict of interest” means that the bar
official, a relative of the bar official or a business with
which the bar official or a relative of the bar official is
associated, could derive a private pecuniary benefit or
detriment as a result of an action, decision or recommendation of the person in the course of bar-related

App. 74
activities, unless the pecuniary benefit or detriment
arises out of the following:
[17] (1) An interest or membership in a particular business, industry, occupation or other class required by law as a prerequisite to the holding by
the bar official of the office or position.
(2) Any action in the bar official’s official capacity
which would affect to the same degree a class consisting of all inhabitants of the state, or a smaller
class consisting of an industry, occupation or other
group including one of which or in which the bar
official, or the bar official’s relative or business
with which the person or the bar official’s relative
is associated, is a member or is engaged.
(3) Membership in or membership on the board
of directors of a nonprofit corporation that is taxexempt under section 501(c) of the Internal Revenue Code.
(g) “Member of the household” means any person who
resides with the bar official.
(f ) “Relative” means the bar official’s spouse, the bar
official’s Oregon Registered Domestic Partner, any children of the bar official or the bar official’s spouse or
Oregon Registered Domestic Partner, and siblings
and parents of the bar official or the bar official’s
spouse or Oregon Registered Domestic Partner. Relative also means any individual for whom the bar official provides benefits arising from the bar official’s
public employment or from whom the bar official receives benefits arising from that individual’s employment.

App. 75
Subsection 2.601 Prohibited Actions
Regardless of whether an actual or potential conflict is
disclosed:
(a) No bar official may use or attempt to use the person’s official position to obtain any financial gain or the
avoidance of any financial detriment that would not
otherwise be available to the person, but for the bar
official’s holding of the official position, except official
salary, reimbursement of expenses for official activities
or unsolicited awards for professional achievement for
the bar official, a relative of the bar official, a member
of the household of the bar official, or for any business
with which the bar official or the bar official’s relative
is associated.
(b) No bar official may attempt to further the personal gain of the bar official through the use of confidential information gained by reason of an official
activity or position.
(c) No bar official or relative or member of the household of a bar official may solicit or receive, during any
calendar year, any gift or gifts with an aggregate value
of more than $50 from any single source that could reasonably be known to have an economic interest, distinct from that of the general public, in any matter
subject to the decision or vote of the bar official acting
in the bar official’s official capacity. This provision does
not apply to bar officials who are subject to the Oregon
Code of Judicial Conduct.

App. 76
(d) No bar official may solicit or receive a promise of
future employment based on an understanding that
any official action will be influenced by the promise.
Subsection 2.602 Disclosure of Conflict
When met with an actual or potential conflict of interest, a bar official must disclose the conflict and take
any other action required by this bylaw.
[18] (a) If appointed by the Chief Executive Officer,
the bar official must notify the Chief Executive Officer
of the nature of the conflict and request the Chief Executive Officer to dispose of the matter giving rise to
the conflict. Upon receipt of the request, the Chief Executive Officer will designate within a reasonable time
an alternate to dispose of the matter, or will direct the
bar official to dispose of the matter in a manner specified by the Chief Executive Officer.
(b) If the bar official is the Chief Executive Officer,
she/he must notify the Board of Governors, through the
President, of the nature of the conflict and request the
Board of Governors to dispose of the matter giving rise
to the conflict. Upon receipt of the request, the President will designate within a reasonable period of time
an alternate to dispose of the matter, or will direct the
Chief Executive Officer to dispose of the matter in a
manner specified by the Board of Governors.
(c) If the bar official is elected to or appointed by the
Board of Governors or other appointing authority to

App. 77
serve on a board, committee, council, commission or
other public body, the bar official must:
(1) When met with a potential conflict of interest,
announce publicly the nature of the potential conflict prior to taking any action thereon in the capacity of a bar official; (2) when met with an
actual conflict of interest, announce publicly the
nature of the actual conflict, and refrain from participating in any discussion or debate on the issue
out of which the actual conflict arises or from voting on the issue, except that if the bar official’s vote
is necessary to meet a requirement of a minimum
number of votes, the bar official may vote, but may
not participate in any discussion or debate on the
issue out of which the actual conflict arises.
(d) When a bar official gives notice of an actual or potential conflict of interest under subsection 2.602(c),
the conflict must be recorded in the minutes or other
official record of the board, committee, council, commission or other public body on which the official serves,
together with an explanation of how the conflict was
resolved. If there are no minutes or other official record, then the bar official, in addition to the disclosure
to the board, committee, council, commission or other
public body, must disclose the conflict in writing to the
Chief Executive Officer.
(e) No decision or action of the any bar official or of
any board, committee, council, commission or other
public body on which the official serves is invalid or

App. 78
voidable solely by reason of the failure to disclose an
actual or potential conflict of interest.
Subsection 2.603 Board Members as Witnesses in
Bar Proceedings
As provided in BR 5.3(c), a current member of the
Board of Governors must not testify as a witness in any
bar admission, discipline or reinstatement proceeding
except pursuant to subpoena. If requested by a party
to be a witness in a bar proceeding, board members
should urge the party to present the anticipated testimony through other witnesses. However, the parties
ultimately decide whether a board member will be subpoenaed to testify as a witness in a bar proceeding.
[19] Section 2.7 Judicial Selection
Subsection 2.700 General
The Bar plays an important role in judicial selection
by interviewing and evaluating candidates for appellate court appointments. Results will be made public
as soon as practicable to the press, the candidates and
the appointing authority.
Subsection 2.701 Statewide Judicial Appointments
(a) For judicial appointments to a statewide court,
the Board will appoint an Appellate Selection Committee to conduct the Board’s appellate recommendation
process. Bar members will be notified of the upcoming

App. 79
appointment and will be invited to participate in the
appellate recommendation process. If an appellate recommendation process has been concluded within three
months preceding the announcement of a new appellate vacancy, the Board may, at its discretion, forego
conducting a separate appellate recommendation
process and instead resubmit the previous list of
highly qualified candidates to the Governor without
notification to members.
(b) Prior to commencement of the appellate recommendation process, the Appellate Selection Committee
shall establish policies and criteria for conducting its
review of candidates for each position, which may include, but is not limited to, review of the written applications; interviews of candidates; reports from judges
or hearings officers; reports from members of the legal
and general community; reports from references supplied by the candidate; and review of writing samples.
(c) The Appellate Selection Committee will recommend to the Board at least three candidates it believes
are highly qualified, based on the statutory requirements of the position, information obtained in its review of candidates, and based on at least the following
criteria: integrity, legal knowledge and ability, professional experience, cultural competency, judicial temperament, diligence, health, financial responsibility,
and public service. The Board will then determine the
final list of highly qualified candidates to submit to
the Governor. A “highly qualified” or “qualified” recommendation is intended to be objective. Failure to

App. 80
recommend a candidate in any particular selection
process is not a finding that the person is unqualified.
(d) In addition to submitting its list of “highly qualified” candidates, the Board will respond to any specific
inquiry from the Governor as to whether certain other
candidates in the pool meet a “qualified” standard.
(e) Meetings of the Appellate Selection Committee
are public meetings except for portions of meetings
during which reference reports are presented and discussed. The term “reference reports,” for purposes of
this section, means information obtained by committee
members and staff from persons listed as references by
the candidates and information obtained by committee
members and staff from other persons knowledgeable
about candidates as part of the candidate review process. Discussion of reference reports by the committee
and the Board will be in executive session pursuant to
ORS 192.660(1)(f ).
[20] Section 2.8 Chief Executive Officer
Subsection 2.800 Duties
The Chief Executive Officer, appointed by and acting
under the supervision of the Board, is the principal administrative officer of the Bar. The Chief Executive Officer is responsible for the day-to-day operations of the
Bar including, without limitation: hiring, managing
and terminating bar personnel; negotiating and executing contracts; collecting debts owed to the bar and
assigning debts for collection as deemed appropriate;

App. 81
and acquiring (through purchase or lease), managing
and disposing of personal property related to the bar’s
operations, within the budget approved by the board.
The Chief Executive Officer will attend all meetings
of the Board and the House of Delegates; will keep
the Board informed of all agenda items with appropriate background information and staff or committee
reports; and will keep a record of the proceedings of all
such meetings. The Chief Executive Officer is responsible for preparing an annual budget for the Board’s
Budget Committee. The Chief Executive Officer performs other duties as imposed by the Bar Act, the Bar
Bylaws or as otherwise directed by the Board.
Subsection 2.801 Evaluation
No later than December 1 of each calendar year, the
Board will evaluate and assess the performance of the
Chief Executive Officer. The evaluation will relate to
the duties and responsibilities of him or her, progress
toward established goals and the working relationships among the Chief Executive Officer, staff and the
membership. The Board will conduct the evaluation in
executive session. The Board or its representative will
meet with the Chief Executive Officer to discuss the
evaluation.
Subsection 2.802 Service of Notice
When a statute or rule requires a petition, notice or
other writing to be filed with or serve on the Bar or the

App. 82
Board, the Chief Executive Officer is the designated
agent for receipt.
Subsection 2.803 Board Member Contact with
Staff
Board members will bring any requests for information, material or assistance to the Chief Executive
Officer or the Chief Executive Officer’s designee. The
Chief Executive Officer will assign appropriate staff to
respond to board member requests. If a board member
is dissatisfied with the Chief Executive Officer action
regarding any request or if the Chief Executive Officer
believes a board member’s request is inappropriate or
unduly burdensome, the board member and Chief Executive Officer, as the case may be, may bring his or
her concerns to the board for resolution. The Chief Executive Officer has the discretion to authorize board
member contact with staff regarding designated matters and concerning particular topics. Board members
are free to contact staff to pass on compliments and information relevant to bar activities, but only the Chief
Executive Officer may be contacted regarding complaints about the conduct of a staff member or concerns
about staff activities.
Section 2.9 Supreme Court Review of Oregon
Rules of Professional Conduct
In recognition of the Oregon Supreme Court’s inherent
authority to regulate the practice of law in Oregon, on
or before January 31 of each year, the Board shall

App. 83
submit any proposals to amend the Oregon Rules of
Professional Conduct that were [21] considered, but
not adopted, in the prior calendar year to the Court for
its review and consideration.
Article 3 House of Delegates
Section 3.1 Duties and Powers
The House of Delegates (“House”) is a forum for the
membership of the Bar and representatives of sections
and local bars to advise the Board and to debate and
decide matters of policy relating to the membership or
the administration of justice as provided in the Bar
Act, these Bylaws and other rules and regulations of
the Bar. (See rules adopted by the House.)
Section 3.2 Delegates
On or before February 1 of each year, the Board must
determine the number of delegates each region should
have and whether there are vacancies. Once elected,
however, a delegate may serve a full term even if the
lawyer population of the region falls below the number
required to entitle the region to the delegate. Elected
delegates are subject to recall as provided in the Bar
Act. Public member delegates are subject to removal
by the Board on the same grounds that a public member of the Board is subject to removal under the Bar
Act and these Bylaws.

App. 84
Section 3.3 Resolutions
House member or bar member resolutions must include the name of the bar member who will present the
resolution and an estimate of the financial impact, if
any, of the resolution. This information must be submitted at least 45 days before the House of Delegates
meeting. The Board must independently evaluate the
financial impact of the resolution. If the Board’s evaluation of the financial impact differs from the sponsor’s,
both positions must be included when the resolution
is presented to the House. Only proposed legislative
measures or resolutions that appear in full in the
printed agenda may be considered, except that unusually long measures or resolutions may be summarized
by bar staff. If this exception applies, then the Bar
must provide delegates with copies of the full text of
the measures at or before the House meeting at which
the proposed measures or resolutions will be discussed
and voted on.
Section 3.4 Meeting Agenda
After receiving all resolutions, the Board must prepare
an agenda for the House. The Board may exclude resolutions from the agenda that are inconsistent with the
Oregon or United States constitutions, are outside the
scope of the Bar’s statutory mission or are determined
by the Board to be outside the scope of a mandatory
bar’s activity under the U.S. Supreme Court decision
in Keller v. the State Bar of California. The House
agenda, including any resolutions that the Board has

App. 85
excluded, must be published by the Board, with notice
thereof, to all bar members, at least 20 days in advance
of the House meeting.
Section 3.5 Parliamentarian
The Board must designate a parliamentarian for each
House meeting. The parliamentarian should be knowledgeable about parliamentary procedure and [22] familiar with the Bar’s Bylaws. The parliamentarian will
serve without compensation; however, the Bar may pay
the expenses for the parliamentarian to attend the
House meeting as allowed in Subsection 7.501 of the
Bar’s Bylaws.
Section 3.6 Initiative Petitions and Referenda
An initiative petition of the membership or a referendum from the Board or House, brought under ORS
9.148, must be submitted to a vote of the active members. The proponent’s question or measure must be
printed or circulated to all members of the Bar, along
with statements for and against the proposal. The
Board determines the manner of circulating the required material. The Board also writes the ballot title
and a factual summary of the proposal. Election procedures outlined in Article 9 of the Bar’s Bylaws apply.

App. 86
Section 3.7 Location
The meetings of the Bar’s House of Delegates must be
held within the geographical boundaries of the State of
Oregon.
Article 4 Awards
Section 4.1 General Policy
The Board will select award recipients from among the
nominations received from local bars, committees, sections, individual members, affiliated groups and bar
groups.
Section 4.2 President’s Membership Service
Award
The criteria for the President’s Membership Service
Award is as follows: The nominee must have volunteered his or her time for the activity in which he
or she was involved; the nominee must be an active
member of the Bar; the nominee must have made a
significant contribution to other lawyers through efforts involving Continuing Legal Education programs
or publications, committees, sections, boards or the
Bar’s legislative/public affairs process or similar activities through local bar associations or other lawrelated groups.

App. 87
Section 4.3 President’s Public Service Award
The criteria for the President’s Public Service Awards
is as follows: The nominee must have volunteered his
or her time for the activity in which she or he was involved; the nominee must be an active member of the
Oregon State Bar; the nominee must have made a significant contribution to the public through efforts involving pro bono services; coordination of local public
service law-related events, such as those associated
with Law Day; service with community boards or organizations or similar activities that benefit the public.
Section 4.4 President’s Diversity & Inclusion
Award
The criteria for the President’s Diversity & Inclusion
Award is as follows: The nominee must be an active
member of the Bar or be an Oregon law firm; the nominee must have made a significant contribution to the
goal of increasing diversity and inclusion in the legal
profession in Oregon through progressive employment
[23] efforts, innovative recruitment and retention programs, advocacy or other significant efforts.
Section 4.5 President’s Special Award of Appreciation
The President’s Special Award of Appreciation is a discretionary award of the President of the Bar, with the
concurrence of the Board, to be presented to a person
who has made recent outstanding contributions to the
bar, the bench and/or the community. The award will

App. 88
be made in conjunction with the OSB Awards Dinner
or House of Delegates events within the following
guidelines. In any given year, there may be no award,
one award or more than one award. The recipient may
be a lawyer or a non-lawyer. The President will present
his or her proposed award recipient to the Board at the
same time the Board considers the Bar’s other awards.
Section 4.6 Award of Merit
The Award of Merit is the highest honor that the Bar
can bestow. The recipient may be (1) an Oregon lawyer who has made outstanding contributions to the
bench, the bar and the community-at-large, and who
exhibits the highest standards of professionalism or
(2) a non-lawyer who has made outstanding contributions to the bar and/or bench, and who exhibits the
highest standards of service to the community-atlarge. The award does not have to be granted every
year and only one award may be bestowed in any year.
Section 4.7 Wallace P. Carson, Jr. Award for Judicial Excellence
The Wallace P. Carson, Jr. Award for Judicial Excellence honors a member of the state’s judiciary. The criteria for the award are as follows: 1) a current or
retired state court judge or federal judge; 2) who has
made significant contributions to the judicial system;
and 3) who is a model of professionalism, integrity, and
judicial independence.

App. 89
Section 4.8 President’s Public Leadership Award
The criteria for the President’s Public Leadership
Award are as follows: The nominee must not be an active or inactive member of the Oregon State Bar and
the nominee must have made significant contributions
in any of the areas described in the President’s Awards
(Section 4.2-4.4 above).
Section 4.9 President’s Sustainability Award
The criteria for the President’s Sustainability Award
are as follows: The nominee must be an active or inactive member of the bar or be an Oregon law firm; the
nominee must have made a significant contribution to
the goal of sustainability in the legal profession in Oregon through education, advocacy, and leadership in
adopting sustainable business practices or other significant efforts.
Section 4.10 President’s Technology & Innovation Award
The criteria for the President’s Technology & Innovation Award are as follows: The nominee may be an individual or entity; the nominee must have made a
significant contribution in Oregon toward promoting
respect for the rule of law, improving the quality of legal services or increasing access to justice through new
technology or other innovations.

App. 90
[24] Article 5 Oregon State Bar Delegates to the
American Bar Association House of Delegates
Section 5.1 Selection
Candidate Statements for the House of Delegates of
the American Bar Association (“ABA”) must be in writing. The Chief Executive Officer will prepare forms for
the candidate statements and supply the forms to applicants. The applicants must file the forms with the
Chief Executive Officer not more than 90 nor less than
30 days before the election held in conjunction with the
Oregon State Bar House of Delegates election. Election
of ABA delegates must be conducted according to Article 9 of the Bar’s Bylaws. The ABA delegates will be
elected from the state at large and the term of office
is two years. ABA delegates must be in-state active
members of the Bar. The Board must fill a vacancy in
the office of ABA delegate due to a delegate’s resignation, death or any other reason in the same manner as
provided in ORS 9.040(2) for board members.
Section 5.2 Voting
Each delegate to the ABA House of Delegates, as a condition of election, must vote substantially consistent
with any position or direction of the Board of Governors, the Oregon State Bar House of Delegates or the
Bar’s membership.

App. 91
Section 5.3 Expenses
The Oregon State Bar will reimburse Oregon State
Bar delegates to the ABA House of Delegates their individual expenses in attending the ABA annual and
mid-year meetings. Expenses subject to reimbursement under this section do not include those reimbursed by the ABA to individual delegates, and are
limited to an amount established each year by the
Board of Governors. Bar reimbursement of delegate expenses must not exceed each delegate’s proportionate
share of the total amount established by the Board of
Governors each year.
Article 6 Membership Classification and Fees
Section 6.1 Classification of Members
Subsection 6.100 General
Members of the Bar are classified as follows:
(a) Active member – Any member of the Bar admitted to practice law in the State of Oregon who is not an
inactive or suspended member. Active members include Active Pro Bono members.
(b) Inactive member – A member of the Bar who does
not practice law may be enrolled as an inactive member. The “practice of law” for purposes of this subsection
consists of providing legal services to public, corporate
or individual clients or the performing of the duties of
a position that federal, state, county or municipal law
requires to be occupied by a person admitted to the

App. 92
practice of law in Oregon. Inactive members include
Retired members.
[25] Subsection 6.101 Active Pro Bono Status
(a)

Purpose

The purposes of the Active Pro Bono category of active
membership in the Bar is to facilitate and encourage
the provision of pro bono legal services to low-income
Oregonians and volunteer service to the Bar by lawyers who otherwise may choose inactive status or even
resign from membership in the Bar, and by lawyers
who move to Oregon.
(b)

Eligibility for Active Pro Bono Status

The Active Pro Bono category of active membership is
available to lawyers in good standing: Who agree to
provide pro bono legal services to indigent clients referred by pro bono programs certified under Section
13.2 of the Bar’s Bylaws; who do not engage in the
practice of law except for providing pro bono services
specified above or in volunteer service on the State
Professional Responsibility Board, the Disciplinary
Board or as bar counsel; who agree to report annually
to the Oregon State Bar the number of hours of pro
bono service they provide; and who obtain professional
liability coverage through the Professional Liability
Fund or the program referring the pro bono cases.

App. 93
(c)

Membership Fees

Active Pro Bono members are assessed a fee that is
equivalent to the inactive membership fee.
(d)

Procedure

The Bar will notify potentially eligible lawyers of the
availability of the Active Pro Bono category of membership and provide interested members with an application form. The Chief Executive Officer or designee is
authorized to determine members’ eligibility for Active
Pro Bono status and this determination is final.
(e) Reporting Requirement for Active Pro Bono Status
Bar Certified pro bono programs will report to the Bar
no later than January 31 of each year the total hours
of pro bono services that Active Pro Bono lawyers provided in the preceding calendar year. Active Pro Bono
lawyer must ensure that the certified program reports
their hours or must individually report their hours no
later than February 15 of each year.
(f )

Transfer from Active Pro Bono Status

Active Pro Bono members may continue in that status
from year-to-year on certification that they remain eligible for such status and payment of the appropriate
membership fees and assessments. Active Pro Bono
members wishing to resume regular active membership status must comply with BR 8.14. Active Pro Bono
members admitted through Admissions Rule 17.05 are
not eligible to transfer their status to any other status.

App. 94
Subsection 6.102 Retired Status
(a)

Purpose.

The purpose of the Retired category of inactive members in the Bar is to recognize the continuing contributions to the legal profession of members who are at
least 65 years of age and are retired from the practice
of law.
[26] (b)

Eligibility for Retired Status.

A member of the Bar who is at least 65 years old and
who is retired from the practice of law (as defined in
paragraph 6.100(b)) may be enrolled as a retired member.
(c)

Membership Fees.

Retired members are assessed a fee that is equivalent
to the inactive membership fee.
(d)

Transfer of Membership.

Retired members wishing to resume regular active
membership status must comply with BR 8.1 or 8.2,
whichever is applicable. Retired members wishing to
transfer to Active Pro Bono status must comply with
BR 8.14.
Subsection 6.103 Reinstatement
Upon receipt of an application for reinstatement submitted under BR 8.1 of the Rules of Procedure, the bar
shall publish notice of and a request for comment on

App. 95
the application on the bar’s web site for a period of 30
days before the application is considered.
Section 6.2 Register of Members
The Chief Executive Officer must keep a register of the
enrollment of members of the Bar, which must contain
such matters of information that the Board determines
to be proper and desirable. The register is subject to
public inspection in accordance with the Public Records Law (ORS 192.410-192.502). The register may be
published in any manner the Chief Executive Officer
determines suitable, including in print or electronically. The published information must include at least
the member’s name, bar number, and current status.
Section 6.3 Rights of Members
Subject to the other provisions of these policies, all active members have equal rights and privileges including the right to hold an office of the Bar, the right to
vote, and the right to serve on bar committees. Inactive
members may be members, but not officers, of sections.
Suspended members may remain members of or join
sections during the term of their suspensions, but may
not hold an office of the Bar, vote or serve on the Board
of Governors, in the House of Delegates or on any bar
committee or section executive committee.

App. 96
Section 6.4 Annual Membership Fees and Assessments
Subsection 6.400 Due Date
The payment date for annual membership fees and assessments is January 31. If the payment date falls on
a Saturday, a legal holiday or a day that the bar office
is closed for any reason, including inclement weather
or natural disaster, the due date of such fees and assessments is the next day that the bar office is open for
business. As used in this section, “legal holiday” means
legal holiday as defined in ORS 187.010 and 187.020,
which includes Sunday as a legal holiday.
[27] Subsection 6.401 Transfer of Member Status
No part of the membership fees will be rebated, refunded or forgiven by reason of death, resignation, suspension, disbarment or change from active to inactive
membership after January 31. However, a bar member
who, by January 31, expresses a clear intent to the Bar
to transfer to inactive status and pays the inactive
membership assessment by that date, but does not
timely submit a signed Request for Enrollment as an
Inactive Member, may be allowed to complete the inactive transfer without payment of the active membership assessment, if extenuating circumstances exist.
The Chief Executive Officer’s decision regarding the
existence of sufficient extenuating circumstances is final.

App. 97
Subsection 6.402 Late Payment Penalty
The Board will set a late payment penalty to be assessed on any member delinquent in payment of member fees.
Subsection 6.403 Effect of Failure to Pay
Any member in default of payment of annual member
fees will be given a reasonable opportunity to cure the
default as determined by the Board. The Chief Executive Officer shall send a notice of delinquency to each
member in default at the member’s electronic mail address on file with the bar on the date of the notice. The
chief executive officer shall send the notice by mail to
any member who is not required to have an electronic
mail address on file with the bar under the rules of procedure. If a member fails to pay the fees or contributions within the time allowed to cure the default as
stated in the notice, the member is automatically suspended.
Subsection 6.404 New Admittees
The Board may establish a uniform procedure for proration of membership fees based on admission to practice during the course of the year. New admittees will
have ninety (90) days from the date of admission to pay
their membership fees. If a new admittee fails to pay
the fees within the time allowed, the new admittee is
automatically suspended.

App. 98
Section 6.5 Waiver of Fees and Assessments
Subsection 6.500 Hardship
In case of proven extreme hardship, which must entail
both physical or mental disability and extreme financial hardship, the Chief Executive Officer may exempt
or waive payment of annual membership fees and assessments of an active or inactive member. Hardship
exemptions are for a one-year period only, and requests
must be resubmitted annually on or before January 31
of the year for which the exemption is requested. “Extreme financial hardship” means that the member is
unemployed and has no source of income other than
governmental or private disability payments. Requests
for exemption under this bylaw must be accompanied
by a physician’s statement or other evidence of disability and documentation regarding income.
Subsection 6.501 Military and Peace Corps Service
The Chief Executive Officer, may, each year, waive
or exempt annual membership fees and assessments
for members in active military service, the Peace
Corps, VISTA or other volunteer programs serving the
national interest or the legal profession, and [28] for
which the member receives only a subsistence income,
stipend or expense reimbursement that is the member’s principal source of income. Requests for waivers
must be received on 15 days before the date that membership fees and assessments are due each year. Waivers will not be granted unless the lawyer’s service
encompasses the majority of a year except in the case

App. 99
of military waivers, which may be granted for less than
a year under special circumstances such as a war of
unknown duration.
Subsection 6.502 Emergencies
The Chief Executive Officer may take reasonable and
necessary actions, including extending deadlines and
waiving late fees, if national or statewide events occur
that severely disrupt the normal course of business.
Prior to taking action, the CEO will make reasonable
efforts to consult with the Bar President..
Article 7 Financial Matters
Section 7.1 Management of Funds
Subsection 7.100 General Policy
All funds paid to the Bar will be received by the Chief
Executive Officer or the Chief Financial Officer and deposited to the account of the Bar in a checking account
or accounts with a commercial bank. The Chief Executive Officer or the Chief Financial Officer will make
all disbursements from such accounts. The Board’s
Budget and Finance Committee will adopt the policy
governing the investment, reinvestment, sale, conversion or other disposition of funds of the Bar, subject to
the approval of the Board.

App. 100
Subsection 7.101 Audit of the Books
The books of account of the Bar must be audited at
least biennially, unless otherwise directed by the
Board.
Subsection 7.102 Borrowing
(a) The President and either the Chief Executive Officer or the Chief Financial Officer acting for and on
behalf of the Bar, are authorized and empowered:
(1) To borrow from any bank, or other lending
agency, on the terms agreed on between the officer
and the lender and approved by the Board, a sum
deemed prudent and necessary to effectuate the
mission of the Bar.
(2) To execute and deliver to any lender or other
depository, the promissory note or notes or renewals thereof of the Bar at rates of interest and on
terms as may be agreed on.
(3) To mortgage, pledge or encumber and deliver
to the lender, as security for the payment of loans,
any savings of the Bar, regardless of form, on deposit with the lender.
(4) To execute and deliver to any lender any financing statements, security agreements or other
instruments in writing, of any kind or nature, that
may be necessary to complete a financial transaction.
[29] (5) To draw on or endorse to any lender the
savings on deposit or to dispose of the proceeds
there from as may be deemed advisable.

App. 101
(6) To perform other acts and to execute and deliver to any lender other documents as may be
deemed reasonable, necessary or proper.
(b) The President and either the Chief Executive Officer or the Chief Financial Officer, acting for and on
behalf of the Bar, are also authorized and empowered
to execute and deliver documents to any lender to memorialize or otherwise complete any borrowing or
other financial transaction that has been previously
authorized by the Board of Governors.
Subsection 7.103 Check Signatures
Disbursements of $10,000 or more require two of the
following signatures: (One from each group or group
one alone) Group One: Chief Executive Officer and
Chief Financial Officer. Group Two: General Counsel
or Deputy General Counsel.
Subsection 7.104 Credit Policy
Generally, credit will be extended to all members of the
Bar. However, credit will not be extended further to accounts that are 90 days past due. Credit may be denied
to members who have had delinquent accounts in the
past. The Chief Financial Officer must approve charges
that exceed $5,000. Credit will not be extended for payment of annual membership or regulatory fees. The
Bar may take any reasonable and financially prudent
methods to collect on accounts, including accounts of
members of the Bar, that are 90 days past due.

App. 102
Subsection 7.105 Write-offs
The Chief Executive Officer has the authority to write
off bar receivables that he or she has determined are
uncollectible or for other financial reasons should be
written off. In the calendar quarter after the fiscal year
end, the Chief Financial Officer will prepare a list of
all receivables over $500 that the Chief Executive Officer has written off. The list will be submitted to the
Board at the first meeting of the second calendar quarter. The list should include the reason for the write-off.
Section 7.2 Annual Budget
The Chief Executive Officer will develop a draft annual
budget for review and approval by the Budget and Finance Committee. The Budget and Finance Committee
will submit its recommendation for final approval to
the Board.
Subsection 7.200 Approval by Board of Governors
After the annual budget is adopted, the Board must
approve a substantive programmatic change not anticipated or included in the budget.
Subsection 7.201 Contingency Fund
A contingency fund will be established within the annual operating budget of the Bar, as a line item equal
to one percent of the annual expenditure budget. The
contingency fund is to be used for unanticipated expenditures that were not identified in the normal

App. 103
budget process. All expenditures from the contingency
fund must be approved by the Board.
[30] Subsection 7.202 Approval by Supreme
Court
The Board will establish each year the budget of the
Bar’s admissions, discipline and Minimum Continuing
Legal Education programs in conjunction with the
budgets of the other activities of the Bar. The admissions, discipline and Minimum Continuing Legal Education components of the Board’s preliminary budget
for the following year must be submitted to the Chief
Justice of the Oregon Supreme Court for review and
approval by the court. Any changes made by the court
in the preliminary budgets of the Bar’s admissions, discipline and Minimum Continuing Legal Education
programs must be incorporated into the final budget
approved by the Board. Additional provisions pertaining to the development and approval of the budget for
the admissions component are set out in Article 28.
Subsection 7.203 Grants
The bar does not generally accept proposals for
grants, contributions or sponsorships to non-profit
or charitable organizations, including law-related organizations. The bar may provide financial support to
the Classroom Law Project (CLP) and the Campaign
for Equal Justice (CEJ) or any other organization that
is germane to the Bar’s purposes as set forth in Section
12.1 of these Bylaws. The bar’s annual budget shall

App. 104
include an amount dedicated to providing such financial support, although that amount may change from
year to year based upon the overall financial needs of
the bar. This budgeted amount shall be in addition to
any amounts budgeted to allow bar leadership and
staff attendance at local bar and community dinners
and similar events.
Section 7.3 Reserve Policy
Subsection 7.300 Purpose
The Bar maintains separate funds for the general and
designated operations of the Bar and for its financial
welfare. The separate funds are the General Fund, the
Client Security Fund, the Affirmative Action Program,
Legal Services and all sections funds. A distinct and
separate fund balance will be maintained for each
fund.
Subsection 7.301 General Fund
The General Fund will maintain cash reserves sufficient to assure fulfillment of obligations to the
membership and provide funds for unforeseen future
contingencies. The reserves will be used to sustain an
acceptable level of operation and continue service to
the membership if the standard level of operations is
interrupted by unforeseen events. It is also used to offset the effects of an operational reversal until expenditures can be adjusted and to fund specific future
capital enhancements and improvements in the operation of the Bar.

App. 105
Subsection 7.302 Reserve Funds
Separate reserve funds will be established and maintained for the general operating fund and the Boardauthorized capital reserve fund, defined as follows:
(a) General Operating Reserve Fund: Established and
maintained within the annual budget to assure continued operation of the Bar in the event of a non-dues revenue reversal or a catastrophic event.
[31] (b) Capital Reserve Fund: established by policy
decisions based on predetermined activities to replace, replenish or preserve capital assets or capital
improvements that are purchased or made infrequently, to meet current regulatory requirements or
provide enhanced services to the membership. Capital
reserve items are capital assets that cost more than
$5,000 or items whose implementation or purchase extend into more than one fiscal year or whose purchase
is planned for a future year.
(c) Each fund will maintain a separate and distinct
level of cash reserves, although the reserve funds may
be merged for investment purposes to obtain a higher
return on the total funds invested. The operating reserve of the General Fund will be a minimum of
$500,000. The capital reserve level will be determined
by the Board based on predetermined activities.

App. 106
Section 7.4 Investment Policy
Subsection 7.400 Purpose
This investment policy is established to provide direction and limits for the Bar’s Chief Executive Officer
and Chief Financial Officer and for any fee-for-service
investment manager that have been engaged in investing financial assets held by the Bar. The investment
objectives of the General Fund, Client Security Fund
and Affirmative Action Fund are in order of importance: to ensure the safety of the assets, to ensure
sufficient liquidity, and to obtain the highest possible
rate of return. The investment objectives of the Legal
Services Fund are in order of importance: to ensure the
safety of the assets, to ensure sufficient liquidity, and
to implement a twenty-year total return based spending policy. The policy consists of objectives for the Bar’s
short-term and long-term investments.
The Bar’s short-term investments consist of cash and
cash equivalents anticipated to be needed and used
within the Bar’s current fiscal year, generally one year
or less. The objective shall be to maximize liquidity and
minimize or eliminate risk while achieving a reasonable yield within the range of short-term expectations.
The Bar’s General Fund, Client Security Fund and Affirmative Action Fund long-term investments include
all reserve balances and designated funds. The objective of these investments is to provide for long-term
growth and stability and to achieve reasonable yields
while minimizing exposure to risk. The funds are invested to maximize the return on the investment,

App. 107
consistent with an appropriate level of risk and subject
to the generation of adequate current income. The
long-term investments shall be diversified to provide
reasonable assurance that investment in a single security, a class of securities, or industry will not have an
excessive impact on the preservation of capital or returns on investment to the Bar.
The Bar’s Legal Services Fund long-term investments
are contained in a designated fund, and do not contain
a reserve balance. The objective of these investments
is to fund legal aid services in Oregon pursuant to ORS
9.572. These funds are invested based on a twenty-year
total return based spending policy, to allow for phased
proceeds to legal aid programs. These long-term investments shall be diversified to provide reasonable
assurance that investment in a single security, a class
of securities, or industry will not have an excessive impact on the preservation of capital or returns on investment to the Bar.
[32] Subsection 7.401 Investment Management
The Chief Executive Officer or the Chief Financial Officer is authorized and directed to deposit, sell, convert
or withdraw cash on deposit in excess of that required
for current operations and to invest those funds in accordance with the Bar’s investment policy using expert
advice and assistance as the officers may require. The
Bar may engage one or more fee-for-service investment managers with varying styles and expertise
and delegate individual investment decisions to such

App. 108
investment managers within the guidelines of the
bar’s Investment Policy and the specific direction of the
Investment Committee.
Subsection 7.402 Management and Monitoring
of Performance
Investment Committee. An “Investment Committee”
consisting of members of the Budget & Finance Committee and the Bar’s Chief Financial Officer shall manage and monitor the investment policy and portfolio.
All policy and bylaw changes will be reviewed and approved by the Budget & Finance Committee.
Subsection 7.403 Prudent Investor Rule
The standard of prudence to be used by any fee-for-service investment manager that is engaged by the Bar in
managing the overall portfolio will be the Prudent Investor Rule, which states: “Investments shall be made
with judgment and care, under circumstances then
prevailing, which persons of prudence, discretion and
intelligence exercise in the management of their own
affairs, not for speculation, but for investment, considering the probable safety of their capital as well as the
probable income to be derived.”
Section 7.5 Expense Reimbursements
Subsection 7.500 General Policy
Bar employees and members of the Board of Governors,
State Professional Responsibility Board, Disciplinary

App. 109
Board, New Lawyers Division Board or any other special task force or commission named by the Board of
Governors will be reimbursed for their expenses in accordance with this policy when acting in their official
capacities. Expenses of spouses or guests will not be
reimbursed except as specifically approved by the
Board of Governors. Requests for expense reimbursement must be received in the Accounting Department
not later than 30 days after the expense has been incurred. If an expense reimbursement form is submitted more than 30 days after the expense is incurred, it
must be supported by an explanation for the delay. The
Chief Financial Officer may deny any late-submitted
request for which the justification is deemed insufficient. A person whose request for reimbursement is denied may request that the Chief Executive Officer
review the decision. Supporting documentation in the
form of original receipts or copies of original receipts
must be submitted with all requests for reimbursement of expenses while acting on official bar business.
Subsection 7.501 Eligible Expenses
Eligible reimbursable expenses while on official business include the following:
(a)

Out-of-State Travel:

[33] Out-of-state travel for board members will be reimbursed for those persons and meetings set forth in
the Bar’s annual budget or as otherwise approved by
the Board of Governors. Employees must obtain prior

App. 110
approval of the Chief Executive Officer prior to traveling out-of-state.
(b)

Transportation:

Use of a personal automobile is reimbursed at the allowable IRS rate. Airfare is reimbursed at the actual
cost of coach fare unless the flight is at least three
hours and an upgrade to business class can be obtained
for $100 or less. Actual cost of taxi, bus or other public transportation is reimbursable. Actual cost of car
rental at economy car rate when other transportation
is not readily available.
(c)

Lodging:

Actual cost for a moderately priced, double-occupancy
room, except when the location of the meeting or
conference requires other arrangements. Receipts
for lodging must be attached to the reimbursement
form.
(d)

Meals:

Reimbursement for meals will be made at actual cost
of the meal provided that the expense is supported by
itemized receipts and meets the standard of reasonableness. A request for reimbursement for meals without receipts will be reimbursed according to the rates
published under the Federal Travel Regulations as put
out by the U.S. General Service Administration for
federal government travel. Meals purchased for members of the Bar or other persons in the course of official bar business will be reimbursed at actual cost with
submission of itemized receipts and an explanation

App. 111
provided it meets the standard of reasonableness. Official dinners of the Bar or law-related groups which
staff, BOG members or volunteers and their spouses or
guests are expected to attend will be paid for by the
Bar and, if not, will be eligible for reimbursement.
(e)

Miscellaneous Costs:

Telephone, postage, office expense, registration fees
and other legitimate business expenses will be reimbursed at actual cost with submission of receipts or an
explanation of the business purpose of the expense.
Bar funds must not be used to pay the cost of alcoholic
beverages.
Subsection 7.502 House of Delegates Meetings
(a) Elected delegates and ex officio delegates from
sections and local bars will be reimbursed for their
transportation to and from the annual HOD meetings.
The reimbursement is limited to roundtrip mileage up
to 400 miles at the allowable IRS rate. Requests for
mileage reimbursement must be submitted on a form
approved by the Bar within 30 days after the meeting.
(b) Public member delegates will be reimbursed for
their transportation, meals and lodging as provided in
Subsection 7.500 and 7.501.
Subsection 7.503 Travel Reimbursements
Any person who is entitled to a travel reimbursement
pursuant to this section may retain travel awards,
mileage awards, credit card awards and other awards

App. 112
or benefits accrued while in the conduct of the person’s
official duties, as part of their reimbursement of expenses and official compensation. As to members of the
Board [34] of Governors, this subsection shall only apply to the President and President-Elect in office on
January 1, 2020, and members of the Board of Governors whose terms commence on or after January 1,
2019.
Section 7.6 Location of Office
Unless otherwise ordered by the Board, the bar office
will be maintained in the Portland metropolitan area.
Article 8 Public Records/Meetings
Section 8.1 Public Records
Subsection 8.100 General Policy
The records of the Bar are subject to public inspection
in accordance with the Public Records Law (ORS
192.410-192.502).
Subsection 8.101 Public Record Requests and
Bar Fees for Public Records Searches and Copies
(a) The Chief Executive Officer will assign appropriate staff to respond to requests for public records. The
Chief Executive Officer will advise the board of any
public records disputes that are taken by the requestor
to the attorney general for further consideration.

App. 113
(b) The Chief Executive Officer will propose and the
board will adopt a fee schedule for public records requests. The fee schedule will include a per-page charge
for paper records and a schedule of charges for staff
time in locating records; reviewing records to delete exempt material; supervising the review of original records; summarizing, compiling, and tailoring records to
the request; and any related activity necessary to respond to requests for public records.
(c) The fee schedule shall be reasonably calculated to
reimburse the bar for the actual cost of making the records available. The charges for staff time shall be computed on the basis of the actual salary of the employee
or employees engaged in responding to a particular
public records request.
(d) The bar may estimate charges for delivering the
requested documents and require the requestor to pay
the estimated charges prior to the start of staff work
to respond to the request. If the estimated cost of producing the records is $25 or more, the bar will provide
the estimate in writing and will take no action on the
request until the requestor confirms that the bar
should proceed. Any estimated fees paid in advance
that exceed the actual cost of the search and production of public records will be refunded.
(e) The bar may furnish copies of public records without charge or at a substantially reduced fee if the Chief
Executive Officer or department manager determines
that the waiver or reduction of fees is in the public

App. 114
interest because making the record available primarily
benefits the general public.
(f ) Public records shall be made available in alternative formats to qualified individuals with disabilities
at no additional or at a reduced cost, provided that
compliance with the request will not result in undue
financial or administrative burden.
[35] Subsection 8.102 Public Disclosure of Client
Assistance Office, Discipline Counsel’s Office
and Disciplinary Board Clerk Records
(a) Except as provided otherwise herein, the following records of Client Assistance Office, Disciplinary
Counsel’s Office and the Disciplinary Board Clerk are
open to inspection on request:
(1) Letters inquiring or complaining about the
conduct of any member of the bar and all material
submitted by inquirers, complainants, accused
lawyers and other persons to the bar relating to
such inquiries or complaints.
(2) All correspondence by bar employees with inquirers, complainants, accused lawyers, witnesses
and other persons in the course of a disciplinary or
Client Assistance Office investigation.
(3) Investigative reports and summaries concerning pending Client Assistance Office, disciplinary and reinstatement matters prepared by Client
Assistance Office Counsel, Disciplinary Counsel,
the SPRB or a bar investigator, to the extent they
cover purely factual materials.

App. 115
(4)

The completed minutes of SPRB meetings.

(5) The formal complaint against a member of
the bar, the accused lawyer’s answer and all other
documents in formal proceedings filed with the
Disciplinary Board Clerk pursuant to the Rules of
Procedure or statute.
(6) Letters of admonition issued by the SPRB
when offered to an accused by Disciplinary Counsel.
(b) The following records are exempt from disclosure
and will not be open to public inspection except as
might otherwise be required by law:
(1) Investigative assignments made by Disciplinary Counsel or the SPRB to an investigator, to
the extent they cover other than purely factual
materials.
(2) Investigative reports or summaries concerning pending Client Assistance Office, disciplinary
or reinstatement matters prepared by the Client
Assistance Office, Disciplinary Counsel’s Office, a
bar investigator or the SPRB prior to a finding of
probable cause in the matter, to the extent that
they cover other than purely factual materials.
(3) The work product of bar counsel or Disciplinary Counsel.
(4) Communications between the Client Assistance Office and Disciplinary Counsel’s Office, between bar counsel and Disciplinary Counsel’s
Office and between Disciplinary Counsel and the
SPRB, regarding the merits of a prosecution or

App. 116
relating to matters of strategy to the extent they
are privileged under OEC 503.
(5) Information of a personal nature submitted
to the bar during a Client Assistance Office or disciplinary investigation, a reinstatement proceeding, pursuant to BR 3.2, 3.3 and 3.4 or otherwise,
if the requirements of ORS 192.502(2) have been
met. “Information of a personal nature” includes
but is not limited to physical and mental health
records, tax returns, trust and other bank account
numbers, social security numbers, fingerprint
cards, and credit reports.
(6) Communications between General Counsel’s
Office and the board, individual board members,
the Chief Executive Officer or bar staff that are
protected by the attorney-client privilege.
[36] (7) Other records that the bar deems exempt
from disclosure under the Public Records Law.
(c) The Board of Governors may direct that member
discipline histories be posted on the bar’s web site or
otherwise electronically. The nature of the information
included and the period covered will be as determined
by the Board of Governors from time to time.
Section 8.2 Public Meetings
All regular and special meetings of the Board of Governors, Board of Bar Examiners, committees, sections,
and subcommittees or subsections thereof, are subject
to the Public Meetings Law (ORS 192.610-192.690).

App. 117
Subsection 8.201 Judicial Proceedings
(a) Disciplinary and contested reinstatement hearings and hearings conducted pursuant to Title 3 of
the Rules of Procedure, are open to the public, subject
to the authority of the presiding official to maintain
proper decorum and to exclude witnesses at the request of the Bar, an accused or applicant. Panels of the
Disciplinary Board and any presiding official will comply with UTCR 3.180 when presented with requests to
allow media coverage of proceedings.
(b) Meetings of the SPRB7 and the deliberations of
Disciplinary Board trial panels are closed to the public,
pursuant to the exemption set forth in ORS 192.690(1)
for judicial proceedings.
(c) Meetings of the Board of Governors relating to
disciplinary and reinstatement matters are closed to
the public, pursuant to the exemption set forth in ORS
192.690(1) for judicial proceedings. Meetings of the
Board of Governors may also be closed to the public in
whole or part for consideration of any matter for which
a closed session is authorized under ORS 192.660.
(d) The Board of Bar Examiners’ consideration of individual applicants’ qualifications are judicial proceedings for purposes of the Public Meetings Law, pursuant
to ORS 9.210(4).

App. 118
Article 9 Election Procedures
Section 9.1 Date of Elections
The election for members of the Board of Governors
will be held annually on the third Monday in October.
Bar members who wish to appear on the ballot must
present a candidate statement to the Chief Executive
Officer of the Bar at least 160 days before the election.
In the case of an uncontested election for the Board of
Governors, a candidate will be declared elected thirtyone days after the final day on which candidate statements for the Board are required to be filed, provided
that a challenge has not been filed pursuant to ORS
9.042. If a challenge has been filed, the candidate will
be declared elected at the end of that process unless
the challenge is successful.
The election for members of the OSB House of Delegates will be held annually on the third Monday in
April. Bar members who wish to appear on the ballot
must present [37] candidate statement to the Chief Executive Officer of the Bar at least 30 days before the
election.
The election for representatives to the ABA House of
Delegates will be held annually on the third Monday
in April in conjunction with the election to the OSB
House of Delegates. Bar members who wish to appear
on the ballot must present a candidate statement to
the Chief Executive Officer of the Bar at least 30 days
before the election. Only members with a principle

App. 119
office address in Oregon will be eligible to vote for the
ABA House of Delegates representatives.
The Board of Governors may take reasonable and
necessary actions, including extending the deadline
for candidate statements or the date of the annual
election, if national or statewide events occur that severely disrupt the normal course of business.
Section 9.2 Ballots
The Chief Executive Officer will prepare ballots whenever a contest exists and the ballots will be accompanied by the candidate statement that includes the
candidate’s name, law firm, principal office address,
current full-face photograph, law school from which
graduated, date of admission in Oregon, state and local
bar activities, offices and other pertinent information.
The statement must be submitted on a form prepared
by the Bar, which will also indicate that the information supplied by the candidate has not been edited
or verified by the Bar. A request for a candidate statement or the submission thereof will be considered public information. Ballots will be electronic.
Section 9.3 Voting
Members eligible to vote will be provided a secure link
to the candidate statements and an online ballot. Ballots will be tabulated electronically using a secure voting system to assure no duplicate entries. Voting must
be completed on or before 5:00 p.m. on the day of the

App. 120
election. The Chief Executive Officer will announce the
results of the balloting and will notify each candidate
of the results of the election.
Article 10 Diversity
The Bar respects the diversity of its membership and
its employees. Bar entities, including, but not limited
to standing committees, section executive committees
and Continuing Legal Education programs and publications, should reflect this diversity. “Reflect,” as used
in this article, does not require the application of strict
quotas, but requires a good faith attempt to achieve
representative participation. Reports of such efforts
may be required of bar entities. In addition, no bar entity may discriminate on the basis of race, religion,
color, gender, sexual orientation, geographic location,
age, handicap or disability, marital, parental or military status or other classification protected by law. No
professional, business or social functions of the Bar, or
any of its sections, committees, affiliates or other authorized entities may be held at any private or public
facility, which discriminates, based upon the terms
listed above. Furthermore, advertisements or solicitations for employment must offer equal employment opportunities. The United States Armed Forces are
exempt from this policy as it regards advertisements
in the bar’s communications.

App. 121
[38] Article 11 Communications
Section 11.1 General Policy
Communications of the Bar and its constituent groups
and entities, including printed material and electronic
communications, should be germane to the law, lawyers, the practice of law, the courts and the judicial system, legal education and the Bar in its role as a
mandatory membership organization. Communications,
other than permitted advertisements, should advance
public understanding of the law, legal ethics and the
professionalism and collegiality of the bench and Bar.
Section 11.2 Editorial Policy
Subsection 11.201 Editorial Advisory Committee
Policy
The Board will appoint an Editorial Advisory Committee. The Editorial Advisory Committee will review and
recommend editorial policies for bar communications
to the Board for approval. Periodically, the committee
will meet to review and provide feedback on the
planned content for The Bulletin to the editorial staff.
Subsection 11.202 Editorial Policies
All editorial policies will be approved by the Board. Editorial policies may address such matters as advertising, political communication, profanity and obscenity,
letters to the editor, use of artwork, photographs and
illustrations, story placement, headlines and scheduling, advertising content and rates and similar topics.

App. 122
Editorial policies must be consistent with Article 10
Diversity and Article 12.1 Guidelines.
Subsection 11.203 Review by Chief Executive Officer
The Chief Executive Officer has sole discretion to determine whether material submitted for publication
meets the standards set forth in or adopted pursuant
to this section and to accept or reject material submitted to the Bar for publication based on that determination.
Section 11.3 Media Relations
The Bar will be responsive to the needs of the media
and will identify persons to speak for the Bar. All statements made to the media, whether oral or by news release, must be informational in nature and must avoid
statements of personal opinion or positions not considered or adopted by the Board. The President is the
official chief spokesperson for the Bar. If public appearances or statements by the chairperson or other officer
or member of any bar committee are deemed necessary,
prior authority must be obtained in advance from the
President.
Section 11.4 Campaign Advertisements
Judicial candidates and candidates for Board of Governors, House of Delegates and American Bar Association positions may advertise at standard charges in the

App. 123
Bar Bulletin, but partisan political advertising is not
allowed. Partisan political announcements or endorsements will not be accepted for publication as letters to
the editor or feature articles.
[39] Section 11.5 Membership Surveys and
Questionnaires
(A) Any survey or questionnaire to all members of the
Bar from a section or non-bar person or group must
have the prior approval of the Board regarding purpose and content.
(B) A survey to specific groups of the membership
from bar staff must have the prior approval of the President or President-elect. A survey to all members of the
Bar must have the prior approval of the President or
President-elect.
(C) A section may survey its own membership without prior approval. Article 12 Legislation and Public
Policy
Section 12.1 Guidelines
Bar legislative or policy activities must be reasonably
related to any of the following subjects: Regulating and
disciplining lawyers; improving the functioning of
the courts including issues of judicial independence,
fairness, efficacy and efficiency; making legal services available to society; regulating lawyer trust accounts; the education, ethics, competence, integrity
and regulation of the legal profession; providing law

App. 124
improvement assistance to elected and appointed government officials; issues involving the structure and
organization of federal, state and local courts in or affecting Oregon; issues involving the rules of practice,
procedure and evidence in federal, state or local courts
in or affecting Oregon; or issues involving the duties
and functions of judges and lawyers in federal, state
and local courts in or affecting Oregon.
Section 12.2 Initiation of Legislation
Subsection 12.200 House of Delegates and Membership
The Bar must sponsor legislative proposals approved
by the House of Delegates or through a membership
initiative to the Legislative Assembly directly following the House or membership action. Legislation not
enacted may not be sponsored in the following session
unless resubmitted by one of the methods set forth
above or by action of the Board.
Subsection 12.201 Board of Governors
The Board may sponsor legislative proposals to the
Legislative Assembly on its own initiative. The Board
and its Public Affairs Committee has the authority between meetings of the House of Delegates to act on legislative and public policy matters pursuant to the
guidelines established.

App. 125
Section 12.3 Legislative Process
Because of the nature of the legislative process, the
Board or its Public Affairs Committee retains the right
to set priorities regarding the enactment of legislation,
to propose amendments or consent to amendments
to legislation and to sponsor or take positions on appropriate legislation. In so doing, the Board will make
a reasonable effort to do the following:
Encourage as wide a participation of the membership as possible in formulating positions on legislative issues; inform members, especially sections and
committees, [40] of the Bar’s legislative positions; respect divergent opinions of subgroups within the legal
profession; provide assistance to bar sections and committees; avoid committing bar funds to issues that are
divisive or result in creating factions within the profession; present major issues to the House of Delegates
for approval; ensure that the Public Affairs Committee
encompasses a balance of interest within the Bar and
ensure that the Public Affairs Committee consults frequently with the Board.
Section 12.4 Committees and Sections
Any committee or section wishing to sponsor legislation or take a position on any rule or public policy issue
will inform the Public Affairs Program, and through
that office, the Board, of the exact nature of the legislation proposed. A copy of the bill, proposed rule or policy will be presented for consideration and approval of
the Board. A committee or section of the Bar may not

App. 126
represent to the legislature or any individual, committee or agency thereof, a position or proposal or any bill
or act, as the position of that committee or section of
the Bar without the majority approval of the members
of that committee or, in the case of a section, the executive committee and the prior approval of the Board,
except as follows. During a legislative session or during the interim, a bar committee or the executive committee of any section must contact the Bar’s Public
Affairs Program before taking any position on a bill,
rule or public policy issue within its general subject
area. The chair of the Board’s Public Affairs Committee
will determine, within 72 hours of notice of the issue,
whether it is appropriate for the Bar to take an official
position or to allow the section or committee to take a
position as requested. The full Public Affairs Committee or the full Board may be consulted before a final
decision is made. Bar staff and the Public Affairs Committee of the Board will make every effort to accommodate committees and sections that wish to express
positions on relevant issues. The Public Affairs Program shall be kept informed about the status of such
positions and related activities.
Section 12.5 Professional Liability Fund Legislation
The Professional Liability Fund (“PLF”) may not present to the legislature or any individual, committee or
agency thereof, a position or proposal or any bill or act,
as the position of the PLF without the majority approval of the Board of Directors of the PLF and the

App. 127
prior approval of the Board of Governors, except as is
provided in Section 12.4 of the Bar’s Bylaws.
Section 12.6 Objections to Use of Bar Dues
Subsection 12.600 Submission
A member of the Bar who objects to the use of any portion of the member’s bar dues for activities he or she
considers promotes or opposes political or ideological
causes may request the Board to review the member’s
concerns to determine if the Board agrees with the
member’s objections. Member objections must be in
writing and filed with the Chief Executive Officer of
the Bar. The Board will review each written objection
received by the Chief Executive Officer at its next
scheduled board meeting following receipt of the objection. The Board will respond through the Chief Executive Officer in writing to each objection. The Board’s
response will include an explanation of the Board’s
reasoning in agreeing or disagreeing with each objection.
[41] Subsection 12.601 Refund
If the Board agrees with the member’s objection, it will
immediately refund the portion of the member’s dues
that are attributable to the activity, with interest paid
on that sum of money from the date that the member’s
fees were received to the date of the Bar’s refund. The
statutory rate of interest will be used. If the Board disagrees with the member’s objection, it will immediately offer the member the opportunity to submit the

App. 128
matter to binding arbitration between the Bar and the
objecting member. The Chief Executive Officer and the
member must sign an arbitration agreement approved
as to form by the Board.
Subsection 12.602 Arbitration
If an objecting member agrees to binding arbitration,
the matter will be submitted to the Oregon Senior
Judges Association (“OSJA”) for the designation of
three active-status retired judges who have previously
indicated a willingness to serve as volunteer arbitrators in these matters. The Bar and the objecting member will have one peremptory challenge to the list of
arbitrators. The Bar and the objecting member must
notify one another of a peremptory challenge within
seven days after receiving the list of proposed arbitrators. If there are no challenges or only one challenge,
the OSJA will designate the arbitrator. The arbitrator
will promptly arrange for an informal hearing on the
objection, which may be held at the Oregon State Bar
Center or at another location in Oregon that is acceptable to the parties and the arbitrator. The hearing will
be limited to the presentation of written information
and oral argument by the Bar and the objecting member. The arbitrator will not be bound by rules of evidence. The presentation of witnesses will not be a part
of the hearing process, although the arbitrator may ask
the state bar representative and the objecting member
and his or her lawyer, if any, questions. The hearing
may be reported, but the expense of reporting must
be borne by the party requesting it. The Bar and the

App. 129
objecting member may submit written material and a
legal memorandum to the arbitrator no later than
seven days before the hearing date. The arbitrator may
request additional written material or memoranda
from the parties. The arbitrator will promptly decide
the matter, applying the standard set forth in Keller v.
State Bar of California, 496 U.S. 1, 110 S. Ct. 2228, 110
L. Ed. 2d 1 (1990), to the expenditures to which the
member objected. The scope of the arbitrator’s review
must solely be to determine whether the matters at issue are acceptable activities for which compulsory fees
may be used under applicable constitutional law. In
making his or her decision, the arbitrator must apply
the substantive law of Oregon and of the United States
Federal Courts. The arbitrator must file a written decision with the Chief Executive Officer within 14 days
after the hearing. The arbitrator’s decision is final and
binding on the parties. If the arbitrator agrees with the
member’s objection, the Bar will immediately refund
the portion of the member’s dues that are reasonably
attributable to the activity, with interest at the statutory rate paid on the amount from the date that the
member’s fees were received to the date of the Bar’s
refund. If the arbitrator agrees with the Bar, the member’s objection is denied and the file in the matter
closed. Similar or related objections, by agreement of
the parties, may be consolidated for hearing before one
arbitrator.

App. 130
Article 13 Pro Bono
Section 13.1 Aspirational Standard
Pro bono publico or pro bono service includes all uncompensated services performed by lawyers for the
public good. Such service includes civic, charitable and
public service activities; as well as activities that improve the law, the legal system and the legal profession. The direct provision of legal services to the poor,
without an expectation of compensation, is one type of
pro bono service. Each lawyer in Oregon should endeavor annually to perform 80 hours of pro bono services. Of this total, the lawyer should endeavor to
devote 20 to 40 hours or to handle two cases involving
the direct provision of legal services to the poor, without an expectation of compensation. If a lawyer is unable to provide direct legal services to the poor, the
lawyer should endeavor to make a comparable financial contribution to an organization that provides or coordinates the provision of direct legal services to the
poor.
Section 13.2 Program Certification
Subsection 13.200 Procedure
In order for a pro bono program to obtain bar certification, the program must submit an application and
meet the applicable criteria set forth below. The Bar’s
Chief Executive Officer determines whether a program
is eligible for certification and this determination is final.

App. 131
Subsection 13.201 Criteria
(a)

Purpose:

The pro bono program must be sponsored by a national, state or local bar association, a court with jurisdiction in Oregon or an incorporated, non-profit or
governmental organization, and must provide legal
services without fee, or expectation of fee, or for a substantially reduced fee to one or more of the following:
(1) Persons of limited means.
(2) Underserved populations with special legal
needs.
(3) Charitable, religious, civic, community, governmental and educational organizations in
matters which are designed primarily to address the needs of persons of limited means or
underserved populations with special legal
needs.
(b)

Compensation:

The pro bono program must not provide any compensation to the participating lawyers, except to cover filing fees or other out-of-pocket expenses or to provide
professional liability insurance for the pro bono activity.
(c)

Fees:

The pro bono program must deliver legal services to
clients at no fee or for a substantially reduced fee.
Nominal administrative fees are allowed. Donations
from clients, whether encouraged or not, are not

App. 132
considered fees. The pro bono program should prohibit
or limit the handling of cases that are clearly fee-generating, and provide for the referral of such cases.
(d)

Quality Control:

The program must demonstrate that it has the necessary expertise and quality control to administer a program involving volunteer lawyers. This should include
appropriate matching of pro bono lawyers to cases, an
effective grievance procedure and adequate tracking
and record keeping systems regarding pro bono involvement.
(e)

Diversity:

The program must comply with Article 10 of the Bar’s
Bylaws (Diversity), both in regard to participating lawyers and clients.
(f )

Professional Liability Coverage

The program will provide professional liability coverage for otherwise uncovered attorney volunteers when
those attorneys provide legal services to pro bono clients.
Subsection 13.202 Volunteer Recognition
Recognition under this paragraph is intended to provide encouragement, in tangible form, to those Oregon
Pro Bono programs and their volunteer lawyers, who
help meet the need for legal services by providing direct representation to low-income individuals. As part
of its annual planning process, the Board will consider

App. 133
the ways in which the Bar can acknowledge the volunteer efforts of Oregon lawyers, particularly those
lawyers who provided at least 40 hours of pro bono services through programs certified under this policy. In
so doing, the Board will seek input from bar staff and
appropriate bar committees.
Article 14 Committees
Section 14.1 Standing and Special Committees
Standing or special committees of the Bar or any member or officer of those committees may be appointed or
discharged by the President or the Board.
Section 14.2 Joint Committees
The Board has from time to time agreed to create joint
committees between the Bar and other professional
groups to develop better understanding between the
two groups and to assist in resolving problems of mutual concern. These joint committees comprise a certain number of bar members and a certain number of
members of other professional associations. All Bar Bylaws relating to committees apply to these joint committees. Lawyer members who participate in these
joint committees are prohibited from engaging in any
activity that seeks to restrain other groups of professionals from engaging in lawful professional activities.

App. 134
Section 14.3 Committee Responsibilities
Committees are established so that members can
study issues within the committee’s charge and make
recommendations to the Board. Before January 1 of
each year the Board will forward a committee charge
to the chair of each committee. This charge outlines the
committee’s ongoing general activities as well as specific issues to be considered for the year. The Board will
consult with the previous committee members before
adopting the committee charge. Committees may also
recommend issues to the Board to be included in the
charge at any time.
Section 14.4 Membership
All members of standing committees must be active
members of the Bar. All members of standing committees typically serve on a three-year rotating basis. The
Board may reappoint members to a committee, if the
Board makes a finding of extraordinary circumstances
that warrant a reappointment. Each year the Board
appoints new members constituting one third of each
committee. Terms begin on January 1. The Board will
solicit member preference for serving on committees
throughout the year. The Board appoints members to
fill vacancies that occur throughout the year. These vacancies occur because members resign or are unable to
participate fully in the committee. The board may
appoint advisory members or public members, as it
deems appropriate.

App. 135
Section 14.5 Financial Issues
Committees have no budget; although they may make
recommendations regarding the expenditure of funds
already budgeted in a particular program area. A committee cannot incur any expense without prior authorization from the Chief Executive Officer.
Section 14.6 Legislation
Each committee must designate a member of the
committee as a contact for legislative information
and involvement. This member is to work with and
coordinate all activities with the Director of Public
Affairs and the Public Affairs Committee of the Board.
Section 14.7 Administrative Services
The Bar’s meeting rooms will be available on a firstcome first-served basis. All committees are encouraged
to use the Bar’s meeting rooms whenever possible. The
Bar will assist committees with providing meeting notices in accordance with the requirements of the Public
Meetings Law. If the Bar does not produce the meeting
notice, the committee member who produces the notice
must provide a copy to the Bar. The Bar will assign a
bar liaison to each committee. The bar liaison serves
as a resource of information for the committee. Each
committee will have a contact person who is a member
of the Board. It is not anticipated that the board member will attend the meetings of the committee on a regular basis.

App. 136
Section 14.8 Committee Reports
Each committee must file an annual report of its activities with the Chief Executive Officer for the preceding
year by December 1 of each year. Other reports may be
required from time to time.
Section 14.9 Quorum for Meetings
A quorum, consisting of a majority of the committee
members, is required for the transaction of committee
business. No recommendation of a committee to the
Board of Governors is valid if made without a quorum
present, but the absence of a quorum does not preclude
a committee from studying or discussing any issue
within the committee’s charge. Action of the committee
will be by majority vote of those voting.
Article 15 Sections
Section 15.1 Purpose
Sections are an integral and important part of the Bar.
Sections are intended to provide bar members who
share particular interests an opportunity to develop
and improve skills and to provide a forum for communication and action in matters of common interest.
Section 15.2 Formation
Any 100 members of the Bar who wish to form a section in a particular area of law may submit a petition
to the Board to create a section. The petition must

App. 137
state that the signators are committed to becoming
members of the section, if the Board approves forming
the section. The Board must consider creating a section
when it receives the petition and determines that the
proposed section does not duplicate another section’s
activities or area of legal interest. The Board may
merge, reorganize or abolish sections at the request of
affected sections or as the Board deems appropriate.
Factors that the Board must consider include, but are
not limited to, the requirements outlined in Standard
Section Bylaws, Article XII, Section 2.
Section 15.3 Bylaws
Sections are governed by the Standard Section Bylaws
adopted by the Board. Sections may propose and the
Board may approve, modified bylaws commensurate
with the section’s needs.
Section 15.4 Finances
Subsection 15.400 Dues
(A) The Bar will assess and collect section dues at the
same time that bar membership dues are collected.
Section dues will be assessed and collected together
with bar dues by the Bar. The Board must approve the
dues for each section. Each section should set dues at
an appropriate level to pay for programs and activities.
The Bar charges each section a per capita fee. This fee
is recalculated periodically as determined by the Chief
Executive Officer.

App. 138
(B) A section with a fund balance as of December 31
exceeding two years of section membership fees will be
charged the full per capita fee for the following year.
By October 15 a section may request a waiver from the
BOG to maintain a larger fund balance by submitting
a written request outlining the specific event or program for which the funds are needed. A section with a
fund balance as of December 31 equal to or less than
two years of section membership fees will be charged a
fee equal to 50 percent of the per capita fee.
(C) No section may maintain a separate bank account. Each section’s receipts and expenditures are
handled by the Bar and accounted for in the section’s
monthly financial statement provided by the Bar. Interest on section accounts accrues to the Bar’s General
Fund and is used to offset the calculation of the per
capita fee.
Subsection 15.401 Donations
Sections may make donations to charitable causes or
organizations only with prior approval of the Chief
Executive Officer. The Chief Executive Officer will allow such donations on a showing by the section that
the donation is germane to the Bar’s purposes as set
forth in Section 12.1 of these Bylaws. The Chief Executive Officer will maintain a list of approved recipients.

App. 139
Section 15.5 Administrative Services
Special services of the Bar that are not included in the
calculation of the per capita assessment may be made
available at cost to the sections upon adequate notification to and negotiation with the Bar. Sections must
give the Bar the first opportunity to provide the necessary publications production support services before
contracting with outside organizations or individuals.
Sections seeking to contract for any goods or services
with outside organizations or individuals must contact
the General Counsel’s office of the Bar for preparation
of appropriate contract documents and must obtain the
Chief Executive Officer’s prior approval of all such contracts.
Section 15.6 Continuing Legal Education Activities
Subsection 15.600 CLE Seminars Scheduling
The Bar is the informational clearinghouse for the
CLE activities of each section. To allow the Bar to perform its role, each section must advise the Bar’s CLE
Seminars Department of all proposed section CLE activities at the earliest possible date.
Subsection 15.601 CLE Event Co-sponsorship
with Bar
Sections that provide CLE programs of four MCLE
credit hours or more must cosponsor such a program
with the Bar’s CLE Seminars Department at least once

App. 140
out of every three years. The CLE Seminars Department will establish policies sections must adhere to
when co-sponsoring CLE events. These policies will address issues such as the division of event revenues and
expenses between the section and the CLE Seminars
Department, as well as the CLE topic, speakers, date
and location.
Subsection 15.602 CLE Event Registration
The Bar’s CLE Seminars Department will provide
registration services for all section CLE programs
not co-sponsored by the CLE Seminars Department.
The CLE Seminars Department will determine the
cost to provide registration services and establish policies sections must follow. A section that plans a
seminar without the CLE Seminars Department’s cosponsorship is responsible for applying for Minimum
Continuing Legal Education credit for the seminar and
paying any associated fees.
Subsection 15.603 Oregon State Bar Logo
A section that plans a seminar or a publication without
the co-sponsorship by a bar department must indicate
clearly on all publicity, printed seminar materials and
publications that the seminar or publication is a section endeavor and list the name of the sponsoring section. The section must not use the Oregon State Bar
logo or the phrase Oregon State Bar CLE.

App. 141
Section 15.7 Grants
Sections may apply for grants only with prior approval
of the Board of Governors. The board will allow grant
applications only upon a showing that the grant activity is consistent with the section’s purposes and the
mission of the bar. The board may disallow any application that the board does not believe is in the best
interests of the bar. The grant application must be reviewed and approved by OSB General Counsel before
submission to the grant-making organization. Any
grant funds received by a section shall be deposited
with the bar and will be distributed only upon request
of the section treasurer and in accordance with the
grant specifications. The section must periodically report to OSB General Counsel regarding the status of
the grant project and any reports to the granting organization must be reviewed and approved by OSB
General Counsel in advance of submission.
Article 16 Continuing Legal Education
Section 16.1 Purpose
The mission of the Bar’s CLE Seminars and Legal Publications programs is to produce high quality, practical
CLE Seminars, books, and resources on Oregon law in
a timely manner, with a goal of ensuring a competent
bar by enhancing the knowledge and skills of Oregon
lawyers.
Except as otherwise provided herein, participating
members of the Bar will not receive compensation
for services on behalf of CLE Seminars or Legal

App. 142
Publications, beyond a modest memento or other recognition and payment of expenses within board guidelines.
Section 16.2 OSB Continuing Legal Education
Seminars Program
Subsection 16.200 Reduced and Complimentary
Registrations; Product Discounts
(a) Complimentary registration for CLE seminars
and scheduled video replays where the CLE Seminars
Department is the content provider is available to the
following OSB lawyer members: Active Pro Bono members, lawyer-legislators, 50-year members, judges, and
judicial clerks.
(b) Complimentary registration does not include the
cost of lunch, materials in hard copy for which a separate fee is charged, any fee-based activities held in conjunction with a CLE seminar, or any other item not
included in the registration fee.
(c) Reduced registration for webcasts where the CLE
Seminars Department is the content provider is available for the following lawyer members: Active Bro
Bono members, lawyer-legislators, 50-year members,
judges, and judicial clerks.
(d) For purposes this policy, “judges” means full or
part-time paid judges and referees of the Circuit
Courts, the Court of Appeals, the Tax Court, the Supreme Court, and of tribal and federal courts within
Oregon. Complimentary registration at any event for

App. 143
judicial clerks will be limited to one clerk for each trial
court judge and two clerks for each appellate court
judge.
(e) Complimentary registration for Active Pro Bono
members is limited to eight (8) hours of programming
in any one calendar year, which may be used in increments.
(f ) Reduced registration, tuition assistance and complimentary copies of programs may be available to certain other attendees, at the sole discretion of the CLE
Seminars Director.
(g) Discounts for and complimentary copies of archived CLE Seminars products in any format where
the CLE Seminars Department is the content provider
may be available at the sole discretion of the CLE Seminars Director.
(h) Seminars and seminar products in any format
where the CLE Seminars Department is not the content provider are not subject to any discounts, complimentary registration or complimentary copies except
at the sole discretion of the CLE Seminars Director.
Subsection 16.201 Expenses of Speakers and
Planners
CLE seminar speakers and planners will be admitted
free to the seminar and receive seminar materials
without charge. CLE seminar speakers and planners
are eligible for reimbursement for necessary travel

App. 144
expenses subject to the Bar’s travel reimbursement
policies.
Section 16.3 OSB Legal Publications Program
Subsection 16.300 Benefit of Membership
The BarBooks™ online library comprises all Legal
Publications products as well as other materials as the
Bar deems appropriate to include from time to time.
BarBooks™ is a benefit of active membership in the
Oregon State Bar and is available for purchase by inactive members, non-members, and libraries.
Subsection 16.301 Discounts on Print Books
Discounts on the purchase of OSB print legal publications, when available, will be allowed to the following:
Law school bookstores, law professors when teaching a
course using the particular publication, libraries, and
members of the Bar within one year following their admission.
Subsection 16.302 Volunteer Copyright Agreement
Each volunteer author of a legal publication will sign
a Volunteer Copyright Agreement under which the
author retains the copyright in his or her chapter, and
grants to the Oregon State Bar a nonexclusive right to
include the chapter within the Publication as a collective work; to use, distribute, or sell the collective work
in any manner the OSB deems appropriate; to revise
the collective work, including his or her chapter, for

App. 145
use, distribution or sale as a subsequent edition of the
collective work, a revision of the collective work, or as
an entirely new publication; with the Oregon State Bar
and its licensees having similar rights to use, distribute, or sell the collective work in any manner they
deem appropriate.
Article 17 Member Services
Section 17.1 Administrative Services
Administrative services, such as mailing services,
mailing lists and labels and photocopying will be provided to member and nonmember groups at the cost of
providing the service or product. Priority is given to official bar business.
Section 17.2 Bar-sponsored Tours
The Bar may not enter into any agreement concerning,
nor may it sponsor or cosponsor, any travel or tour arrangement, by charter or otherwise, without the prior
approval of the Board.
Article 18 Discipline
Section 18.1 State Professional Responsibility
Board
Subsection 18.100 Duties
The State Professional Responsibility Board (“SPRB”)
is authorized to exercise its powers and authority pursuant to statute, the rules of procedure and the Bar’s

App. 146
bylaws. The SPRB will meet regularly pursuant to the
call of the chairperson to consider complaints and
other matters within its jurisdiction. The SPRB will
receive the counsel and advice of the Office of Disciplinary Counsel of the Bar. Disciplinary Counsel will
regularly report to the Board of Governors regarding
actions taken by the SPRB. The SPRB may proceed
with business if a quorum of six members is present at
any meeting and act by a vote of a majority of those
present.
Subsection 18.101 Composition
The SPRB will consist of eight resident active members of the Bar and two at large public members nominated by the Board of Governors and appointed by the
Supreme Court. The Board of Governors annually will
nominate and request the Supreme Court to appoint
one attorney member of the SPRB to act as its chairperson. All lawyer members of the SPRB are appointed
for terms of not more than four years from the following regions: two members from region five and one
member from each of the other Board of Governors regions located within the state of Oregon. The two public members are appointed for terms of not more than
four years. No member may serve more than four years
consecutively. Members are eligible for reappointment
to a nonconsecutive term not to exceed four years. The
Board of Governors may nominate and request the Supreme Court to appoint replacement members of the
SPRB as the need arises.

App. 147
Subsection 18.102 Expenses
All members of the SPRB will receive the same reimbursement of expenses as is accorded the members of
the Board of Governors.
Subsection 18.103 Notice to the Respondent
Disciplinary Counsel will notify the respondent as
soon as possible after the SPRB has directed the institution of a formal disciplinary proceeding against the
respondent. The notice will contain a statement that
all communications on the merits of the matter must
be restricted to the lawyers in Disciplinary Counsel’s
office and with appointed counsel for the Bar and that
an accused must not contact a member of the Board of
Governors, the SPRB, or any other employee, agent or
representative of the Bar regarding the matter.
Subsection 18.104 Disclosure of Contacts
If a complainant, respondent or their representatives
contact a SPRB member concerning the merits of a disciplinary complaint, the SPRB member contacted must
make a full disclosure of the nature of the contact before the SPRB takes action on the complaint.
Section 18.2 Letters of Admonition
(A) A disciplinary investigation, whether in response
to a complaint filed with the Bar or otherwise instituted as authorized by law, may be terminated after

App. 148
investigation by the SPRB’s issuing a letter of admonition.
(B) An admonition does not constitute the imposition
of formal discipline. An admonition is, however, a public statement that the lawyer’s conduct, in the opinion
of the SPRB, violated the Rules of Professional Conduct of the Bar.
(C) An admonition may be issued, at the discretion of
the SPRB, only when a Rule of Professional Conduct
has been violated and if in light of all circumstances,
the violation was not aggravated, but was of sufficient
concern that dismissal would be inappropriate.
(D) The procedure for issuing letters of admonition is
provided in the Rules of Procedure. If accepted, a letter
of admonition will be placed in the lawyer’s personal
file maintained by the Bar.
Section 18.3 Recovery of Costs/Collection of
Judgments
The bar will pursue, as feasible, collection of those
costs and disbursements for which a judgment was
awarded to the Bar in a disciplinary or reinstatement
proceeding.
Section 18.4 Disciplinary Correspondence
Members of the Board of Governors or other bar officials may receive occasional correspondence related to disciplinary matters. All such correspondence,

App. 149
including letters from complainants or accused lawyers, must be forwarded to Disciplinary Counsel for
response. Disciplinary Counsel need not send a copy
of any response to the board member or bar official to
whom the initial correspondence was addressed. Any
correspondence alleging an ethics complaint about
Disciplinary Counsel or General Counsel must be sent
directly to the chairperson of the SPRB pursuant to BR
2.6(gf ), with a copy to the staff member named in the
complaint.
Section 18.5 Removing Lawyers from the Lawyer
Referral Service Panel of Lawyers
Members of the Bar against whom charges of misconduct have been approved for filing will be removed
from the Lawyer Referral Service panel of lawyers until those charges have been resolved. If a member is
suspended as a result thereof, the member may not be
reinstated to the panel until the member is authorized
to practice law again. Charges of misconduct include
those authorized to be filed pursuant to BR 3.4.
Section 18.6 Suspension of Service
Subsection 18.600 Applicability to SPRB
The service of members of the State Professional Responsibility Board against whom charges of misconduct have been approved for filing by the State
Professional Responsibility Board is suspended until
the charges filed against them have been resolved. If a
member is suspended as a result thereof, the member

App. 150
may not resume service on the board until the member
is once again authorized to practice law. Charges of
misconduct include those authorized to be filed pursuant to BR 3.4.
Section 18.601 SPRB Replacements
The Board of Governors may nominate and request the
Supreme Court to appoint a temporary replacement to
serve until the member suspended under this bylaw is
again able to serve. The temporary replacement will
have the same rights and responsibilities as any other
member of the entity.
Section 18.7 Adjudicator
The Adjudicator is the Disciplinary Board statewide
adjudicator, who is authorized to exercise his or her
powers and authority pursuant to statute, the rules of
procedure and the Bar’s bylaws. The Adjudicator is appointed by and serves at the pleasure of the Oregon
Supreme Court, and is an employee of the Oregon
State Bar.
Article 19 Legal Ethics Questions and Opinions
Section 19.1 General Counsel’s Office
Subsection 19.100 Submission and Questions
All legal ethics questions regarding the propriety of a
proposed course or act of professional conduct or the
intent or interpretation of a rule or statute regulating

App. 151
the professional conduct of members of the Bar must
be submitted or referred to General Counsel’s office.
Legal ethics questions may be submitted in writing or
by telephone.
Subsection 19.101 Determination by General
Counsel
General Counsel’s office will determine whether the
matter appears to present or involve a question of ethics or professional conduct and whether the inquirer
has provided facts sufficient to permit the formulation
of an opinion. General Counsel’s office may ask the
inquirer to submit necessary additional facts or may
advise the inquirer that no question of ethics or professional conduct is presented or involved.
Subsection 19.102 Ethics Advice to Bar Members
General Counsel’s office will endeavor to assist bar
members in analyzing the ethics of the inquirer’s prospective conduct and may provide reactions to the
questions presented. General Counsel will not offer an
ethics opinion on past conduct by other members, except to assist a member to determine whether conduct
described implicates the inquiring member’s duty to
report another lawyer’s misconduct under Oregon RPC
8.3. Ethics questions and responses are not confidential and communications with General Counsel’s office
are not privileged. No attorney-client relationship is
intended or created by such communications with the
Bar. Members should submit ethics questions in a

App. 152
hypothetical form that does not disclose client confidences, or obtain their client’s informed consent prior
to disclosure. Materials submitted to General Counsel
in connection with ethics inquiries are public records,
and may be disclosed by General Counsel to the public,
the Client Assistance Office or Disciplinary Counsel’s
Office.
Subsection 19.103 Application of Oregon RPC 8.6
For Oregon RPC 8.6 to apply to a request for ethics assistance, a member must put his or her ethics question
in writing. General Counsel’s office will respond in
writing as time allows. The Bar will retain all written
ethics assistance requests and General Counsel’s office
responses for at least five years and those requests are
public records. General Counsel’s office has the discretion to decline to provide a written response, if it determines that the question should be considered by the
Legal Ethics Committee due to the difficulty, complexity or novelty that the question raises or the difficulty
or complexity of an appropriate response. Members
must provide General Counsel’s office and the Legal
Ethics Committee with accurate, and as complete as
possible, explanations of the facts underlying their ethics questions.
Section 19.2 Limitation of Advice
Responses and opinions provided by General Counsel’s
office, the Legal Ethics Committee and the Board of

App. 153
Governors are limited to and deemed to address only
the facts as submitted in writing by the inquirer.
Section 19.3 Legal Ethics Committee
Subsection 19.300 Response to Inquiries
A bar member may request that a question be submitted to the Legal Ethics Committee. The chair of the
Committee will assign those requests and questions
submitted directly to the Committee to one or more
committee members to prepare a response. Inquiries
submitted to the Committee should be anonymous, insofar as possible. To preserve anonymity, if the facts
are inadequate to permit the formulation of an opinion
or a direct answer, General Counsel’s office may ask
for submission of necessary additional facts. On receipt
of those additional facts, General Counsel’s office will
promptly submit them to the assigned member of the
Committee. The Committee may, in its discretion,
write opinions on subjects that the Committee believes
would be helpful to the membership, whether or not
the Committee receives a specific inquiry on the subject. Such opinions will be handled in the same fashion
as opinions based on specific questions.
Subsection 19.301 Formal Opinion Process
The Committee will review and discuss all responses
prepared by individual members and will, by majority
vote, determine whether the response should be referred to the Board of Governors to be issued as a formal opinion or whether it should be issued by the

App. 154
Committee as a letter of direct advice to the inquirer.
The Committee will establish and will periodically review guidelines for determining the appropriate form
of response. Members may use formal opinions and letters of direct advice issued by the Committee in the
same manner and to the same effect under Oregon
RPC 8.6 as written responses from General Counsel’s
office. When the Committee approves an opinion and
recommends formal publication, General Counsel’s office will place a copy of the opinion on the Board’s next
meeting agenda. All dissents, comments of substance
or minority opinions will also be placed on the Board’s
agenda. The Board will review the proposed opinion
and either approve it for formal publication, refer it
back to the Committee for further study or revision or
direct that no opinion be issued in the matter. The
Board may also distribute the opinion to the membership for comment before making a final decision. All
opinions that the Board designates to be issued as
formal opinions will be published in Oregon Formal
Ethics Opinions (OSB 2005) and on the Bar’s website.
Article 20 Unlawful Practice of Law
Section 20.1 Definitions
For the purpose of this Article, the following definitions
apply:
(A) “Administrator” means the Bar employee assigned to provide administrative support to the Committee and Bar Counsel.

App. 155
(B) “Committee” means the Unlawful Practice of Law
Committee of the Oregon State Bar.
(C) “Unlawful practice of law” means (1) the practice
of law, as defined by the Oregon Supreme Court, in Oregon, by a person who is not an active member of the
Oregon State Bar and is not otherwise authorized by
law to practice law in Oregon; or (2) holding oneself
out, in any manner, as authorized to practice law in
Oregon when not authorized to practice law in Oregon.
(D) “Investigator” means a member of the Unlawful
Practice of Law Committee assigned to investigate a
complaint of unlawful practice of law.
(E) “Agency” means any federal, state or local agency
having an interest in or responsibility for the investigation of conduct related to the unlawful practice of
law.
(F) “Accused” means the person or persons who are
the subject of a complaint to the committee.
(G) “Complaint” means the matter or occurrence that
causes the Committee to open a file for the investigation of the accused’s alleged unlawful practice of law.
Section 20.2 Unlawful Practice of Law Committee
The Board may nominate and request the Supreme
Court to appoint as many members as it deems necessary to carry out the Committee’s functions, pursuant
to BR 12.1. At least two members of the Committee
must be members of the general public and no more

App. 156
than one-quarter of Committee members may be lawyers engaged in the private practice of law.
Section 20.3 Investigative Authority
Pursuant to ORS 9.164 and BR 12.2, the Committee
shall investigate complaints of the unlawful practice of
law. The Committee may decline to investigate allegations of unlawful practice of law when: the allegations
are not made to the Committee in writing; the administrator determines the allegations do not involve the
unlawful practice of law, or; the allegations consist only
of printed or electronic materials, advertisements or
other solicitations describing services that cannot reasonably be construed as legal services.
Section 20.5 Processing Unlawful Practice of Law
Complaints
Subsection 20.500 Investigation
On receiving a complaint of unlawful practice of law,
the Administrator will give the complaint a case
number and assign it to a committee member for investigation. The committee member may only employ
methods in his or her investigation that comply with
the Rules of Professional Conduct. Upon completion of
the investigation, the investigator will submit a written report to the Committee with an analysis of the
relevant facts and law and a recommendation for disposition.

App. 157
Subsection 20.501 Dispositions
Upon receipt and review of the investigator’s report,
the Committee may either continue the matter for further investigation and revisions to the report or make
one of the following dispositions:
(a)

Closure.

This disposition is appropriate when the Committee
has insufficient evidence to prove that the accused engaged in the unlawful practice of law. The Committee
may reopen a closed matter if it receives additional information or evidence of the unlawful practice of law
by the accused.
(b)

Informational Letter.

This disposition is appropriate when the Committee
has insufficient facts evidence to prove that the accused has engaged in the unlawful practice of law, and
believes that that the accused would benefit from receiving additional information about what the Court
has determined constitutes the unlawful practice of
law. The letter will notify the accused that the investigation is concluded, and state that the accused may
wish to seek legal advice about whether any specific
practice constitutes the unlawful practice of law.
(c) Referral to Board of Governors for initiation of
proceedings under ORS 9.166.
(1) Filing suit for injunctive relief is appropriate
when (i) the Committee has clear and convincing
evidence to establish that the accused engaged in
the unlawful practice of law, (ii) the practice is

App. 158
ongoing or likely to recur, and (c) a member of the
public has been harmed or is likely to be harmed
as a result of the accused’s unlawful practice of
law.
(2) Filing suit for contempt relief is appropriate
when a) a court has entered an injunction against
the accused b) the Committee has clear and convincing evidence to establish that the accused continues to engage in the unlawful practice of law
and c) a member of the public has been harmed or
is likely to be harmed as a result of the accused’s
unlawful practice of law.
(3) The Committee may decline to request authorization from the Board to initiate proceedings
allowed under to ORS 9.166 in favor of other resolutions provided in these rules.
(d) Referral to or Cooperation with Other Agency or
Bar Department.
This disposition is appropriate when the Committee
determines that another agency or department is better positioned to investigate or address the complaint,
including but not limited to when:
(1) The allegations involve activity prohibited by
law, ordinance or statute within the jurisdiction of
a federal, state or local agency;
(2) The accused is or has been the subject of an
investigation, action, injunction or review by a federal, state or local agency;

App. 159
(3) An agency, on review of the allegations before
the Committee as to an accused, indicates a desire
to pursue further investigation;
(4) The agency has or is likely to have, information regarding the complaint, the accused or
parties acting with the accused, or;
(5) The complaint concerns conduct by a lawyer
or bar applicant, or implicates the rules of professional conduct.
Section 20.6 Bar Counsel
Subsection 20.600 Role of Bar Counsel
After authorization by the Board to pursue an action
under ORS 9.166, the Administrator may retain counsel to represent the Bar in the action and will report
periodically to the Committee and Board on the status
of the litigation. To the extent necessary, the Committee and Administrator will assist bar counsel with
preparing and continuing investigation of matters approved for action under ORS 9.166.
Subsection 20.601 Settlement Authority
After authorization by the Board to pursue an action
under ORS 9.166, the Administrator may negotiate a
settlement of the unlawful practice litigation before or
after the filing of a circuit court complaint by way of
agreement with the accused to discontinue the unlawful practice of law. The agreement is subject to and does
not become effective until approved by the Committee.

App. 160
Subsection 20.602 Referral to Bar Counsel
When a new complaint of unlawful practice of law involves an accused against whom the Board has already
authorized suit, the administrator refer the matter
directly to bar counsel without obtaining prior authorization from the Committee or the Board. The administrator and Bar counsel may ask the Committee
to conduct an investigation into the new complaint and
have discretion to determine whether to include the
facts alleged in the new complaint in the prosecution
against the accused.
Section 20.7 Public Outreach and Education
Subsection 20.700 Public Outreach
The Committee may engage in public outreach to educate the public about the potential harm caused by the
unlawful practice of law, pursuant to BR 12.3(a). The
Committee may cooperate in its education efforts with
federal, state and local agencies tasked with preventing consumer fraud
Subsection 7.701 Informal Advisory Opinions
The Committee may write informal advisory opinions
on questions relating to what activities may constitute
the practice of law, pursuant to BR 12.3(b). Opinions
must be approved by the Board before publication. The
published opinions are not binding, but are intended
only to provide general guidance to lawyers and
members of the public about activities that Oregon

App. 161
Supreme Court precedent and Oregon law indicate
may constitute the unlawful practice of law.
Section 20.8 Records
When the investigation of a complaint is concluded, the
investigator must deliver all records and documents
created or obtained in the investigation to the Bar.
Records will be kept in accordance with the Bar’s records retention policy.
Article 21 Client Security Fund
The Chief Executive Officer or General Counsel of the
Bar will continue, as feasible, collection efforts in each
instance in which Client Security Fund (“CSF”) money
is paid out. In each of these cases, the Bar will obtain
an assignment of judgment in the amount paid out.
The status of any such outstanding judgments shall be
reviewed at least annually by the CSF Committee and
the Board.
Article 22 Fee Arbitration
(A) The Bar may provide for a fee arbitration procedure whereby fee disputes between attorneys maintaining offices in Oregon and their clients or other
attorneys are submitted to arbitration panels for resolution. Such a procedure shall be administered
through General Counsel, pursuant to rules approved
by the Board.

App. 162
(B) The Bar’s fee arbitration procedure is a private,
contract dispute resolution mechanism and not the
transaction of public business.
(C) Except as provided in (E) below, or unless all parties to an arbitration agree otherwise: all records, documents, papers, correspondence and other material
submitted by the parties to General Counsel or to an
arbitration panel during the course of an arbitration
proceeding and any award rendered by an arbitration
panel is not subject to public disclosure.
(D) Arbitration hearings conducted pursuant to the
Bar’s fee arbitration procedure will be closed to the
public unless all parties to an arbitration agree otherwise. Witnesses who will offer testimony on behalf of a
party may, however, attend the arbitration hearing.
(E) Notwithstanding subsection (B), (C) and (D), arbitrators must disclose to Disciplinary Counsel any
knowledge obtained during the course of an arbitration
proceeding of an apparent violation of the Rules of Professional Conduct or ORS Chapter 9 committed by an
attorney and all records, documents, papers, correspondence and other material submitted to General
Counsel or to the arbitration panel during the course
of the proceeding and any award rendered by the panel
must be made available to Disciplinary Counsel for the
purpose of investigating alleged ethical violations.

App. 163
Article 23 Professional Liability Fund
Section 23.1 Board of Directors
The Professional Liability Fund (“PLF”) will conduct
its business through a Board of Directors appointed by
the Board of Governors. The PLF Board consists of
nine members, seven of which must be active, resident
members of the Bar and two of which must be non-lawyers. The terms of office of PLF Board members is five
years, as staggered by the Board of Governors, with the
term of office of each board member beginning on January 1 of each year. The Board of Governors may remove any member of the PLF Board without cause and
must fill the positions that become vacant as expeditiously as possible to ensure continuity in the governance of the PLF. Persons appointed to fill vacancies on
the Board of Directors serve the unexpired term of the
member who is replaced. If a replacement appointment
to an unexpired term is for two (2) years or less, the
Board of Governors may thereafter reappoint that person to a term of up to five years. In considering the
length of the reappointment, the Board will take into
account the experience level of the PLF Board of Directors and the effect on the rotation cycle of the Board of
Governors. At the request of two-thirds of the members
of the Board of Directors, the Board of Governors may
appoint the immediate past PLF Chief Executive Officer to the Board of Directors for a period not to exceed
one year following their resignation or retirement from
the PLF CEO position. The former PLF CEO will be a
non-voting, tenth member of the Board of Directors.

App. 164
Section 23.2 Authority
The Board of Governors vests in the Board of Directors
of the PLF the authority that is necessary and convenient to carry out the provisions of ORS 9.080 relative
to the requirement that all active members of the Oregon State Bar in the private practice of law in Oregon
carry professional liability coverage, the establishment
of the terms of that coverage and the defense and payment of claims under that coverage. The Board of Directors of the PLF must recommend to the Board of
Governors appropriate requirements for PLF coverage
and amounts of money that active members in the private practice of law will be assessed for participation
in the PLF.
Section 23.3 Operation
Subject to the authority of the Board of Governors to
take the action that is authorized by ORS 9.080 and its
authority to amend these policies to provide otherwise,
the Board of Directors of the PLF has sole and exclusive authority and responsibility to operate and manage all aspects of the PLF. The Board of Directors of
the PLF has authority to adopt its own bylaws and
policies to assist it in conducting the business of the
PLF. No PLF bylaw, coverage plan, or assessment, or
amendment thereto, can take effect until approved by
the Board of Governors. The policies of the PLF must
be consistent with the Bar’s Bylaws regarding the PLF
and will be effective on approval by the PLF Board of
Directors, subject to review and ratification by the

App. 165
Board of Governors within 60 days after notice of the
policies has been given to the Board of Governors.
Section 23.4 Reports
The PLF must present an annual report to the bar
membership.
Section 23.5 Relationship with the Board of
Governors
Subsection 23.500 Liaisons
(a) It is the goal of the Board of Governors that there
be free, open, and informal communication between
the Board of Governors and PLF Board of Directors.
Constructive communication among Board of Governors members, bar management, PLF Board of Directors members and PLF management is encouraged;
however, in such communication it is recognized that
the authority to manage the PLF is vested in the PLF
Board of Directors.
(b) Each year the President of the Bar appoints two
lawyer members of the Board, and one public member
of the Board to serve as liaisons with the PLF Board of
Directors.
(c) At least one of the Board’s PLF liaisons must be
present at each meeting of the PLF Board of Directors
and each attending Board of Governors PLF liaison
must make every effort to attend those meetings in
person rather than by telephone.

App. 166
(d) The PLF CEO or the CEO’s designee must make
a report at each meeting of the Board of Governors
regarding the significant activities of the PLF and any
matters regarding the PLF requiring action by or the
attention of the Board of Governors.
(e) The Board of Governors’ PLF liaisons are responsible for keeping the Board advised of the activities of
the PLF to ensure good communications between the
Board of Governors and the PLF Board of Directors
and to ensure that the Board is fully informed of the
background and rationale for all PLF bylaw, policy, coverage plan, and assessment recommendations to it.
The Board’s PLF liaisons must not participate in the
consideration of any specific PLF claim or other confidential PLF matter except as provided in PLF Policy
4.250(D) (Bar and/or Board of Governors is/are named
parties in an action).
Subsection 23.501 Reports
The PLF must regularly provide to the BOG the following:
(a)

All financial statements when completed;

(b) All minutes of meetings of the Board of Directors
of the PLF or committees of the Board of Directors, excepting the parts that are made confidential by Oregon
Revised Statues;
(c) All reports of investment performance and changes
in investments;

App. 167
(d) All proposed changes in the primary and excess
coverage plans with an explanation of the reasons for
and effects of the changes;
(e) On or before October 1 of each year, the proposed
assessment for primary coverage along with the actuarial reports and the information described in Subsection 23.600 of the Bar’s Bylaws to enable the Board of
Governors to understand and evaluate the proposed
assessments;
(f ) A report generally describing the previous year’s
excess enrollment, including total firms enrolled, total
lawyers and gross premiums from the excess program;
(g) All projections, forecasts, prospective financial
statements and the like prepared by or for the PLF;
(h) Any other information that the Board of Governors may request to assist it in discharging its responsibility to the membership of the Bar.
Subsection 23.502 Release of Information
All requests by the Board for confidential claim file information from the Professional Liability Fund must
be directed by the President of the Board of Governors
to the Chair of the PLF Board of Directors. No such
material or information will be released by the Board
of Governors without first receiving the approval for
release from the Chair of the PLF Board of Directors.
The Board of Governors must coordinate and consult
with the Chair of the PLF Board of Directors before

App. 168
releasing public statements regarding the PLF and its
operations.
Subsection 23.503 BOG Members Participating
in PLF Claims
A member of the Board of Governors who is representing either the plaintiff or the PLF in a PLF-covered
claim shall not participate in any discussion of a PLFrelated matter that comes before the Board of Governors. During the course of the representation, at any
time that a PLF-related matter comes before the Board
of Governors, the Board of Governors members shall
announce the fact of the representation and recuse
himself or herself from discussing or otherwise participating in the matter. The minutes of Board of Governors meetings shall reflect the announcement and the
recusal.
Subsection 23.504 Annual Meeting
The Board of Governors will invite the PLF Board of
Directors and the PLF management to meet annually
with the Board of Governors to: Discuss the results of
the business of the PLF for the preceding calendar
year; discuss the PLF’s long-range plans and goals;
generally inform the Board of Governors of the condition of the PLF and discuss matters of common interest to the Board of Governors and the PLF. This
meeting must occur as soon as practicable after completion of the year-end financial reports of the PLF, or
by May 1st of each year, whichever is earlier.

App. 169
Subsection 23.505 Audit
The Board of Governors may cause a special audit of
the performance and financial statement of the PLF in
addition to the statutory audit. Special audits are at
the expense of the general membership of the Bar.
Subsection 23.506 Location of Office
The physical location of the PLF will be determined by
the Board of Governors on recommendation of the PLF
Board of Directors.
Subsection 23.507 Staff Responsibility
The Chief Executive Officer of the Bar and the bar staff
have no responsibility or authority with respect to the
management of the PLF. However, because the PLF is
a function of the Bar, the Chief Executive Officer and
bar staff will cooperate with the Board of Directors of
the PLF, its Chief Executive Officer, and staff in all areas of the PLF’s business and activities. Likewise, it
is expected that the PLF Chief Executive Officer and
staff will cooperate with the Bar, its Chief Executive
Officer and staff in all areas of the Bar’s business and
activities. The Chief Executive Officer of the Bar will
make the PLF aware of all personnel and other policies
of the Bar so that there may be uniformity for all bar
functions recognizing, however, that the nature of the
PLF may justify deviations from such policies in certain circumstances.

App. 170
Section 23.6 Assessment
Subsection 23.600 Principles
The Board of Governors recognizes that the assessment for coverage is derived by the prudent application of actuarial principles, responsible evaluation of
past and present operations and investments of the
PLF and judgments about future revenue and losses.
Assessments vitally affect the members of the Bar and
the public, which must rely on the general availability
of a wide range of legal services. The PLF has the responsibility to submit to the Board of Governors its
recommended assessment for the subsequent year (or
any mid-year special assessment) supported by a report evidencing: The actuarial principles and assumptions used in the proposed assessment, the evaluations
of the past and current operations and investments of
the PLF with respect to their effect on the proposed
assessment, the judgments and assumptions employed
about future revenue and losses, and all other factors
that the PLF believes will or may affect the adequacy
and appropriateness of the proposed assessment. The
Board of Governors must review the proposed assessment, the PLF’s reports, and such other information as
may be appropriate. On completion of the review, the
Board of Governors must adopt an assessment that it
reasonably believes to be actuarially prudent and reasonably believes will provide assurance of continued financial stability of the PLF.

App. 171
Article 24 Attorney Assistance
Section 24.1 Creation and Purpose
There is hereby created, pursuant to ORS 9.568, the
State Lawyers Assistance Committee (“SLAC”) and
the Professional Liability Fund Personal and Practice
Management Assistance Committee (“PLF-PPMAC”).
The purpose of the SLAC is to supervise and assist
lawyers whose performance or conduct may impair
their ability to practice law or their professional competence. The purpose of the PLF-PPMAC is to provide
voluntary personal and practice management assistance to lawyers.
Section 24.2 Authority
Subsection 24.200 State Lawyers Assistance
Committee
The SLAC has authority:
(a) To receive, review, investigate, process and resolve
all complaints and referrals to SLAC regarding lawyers whose performance or conduct may impair their
ability to practice law or their professional competence.
(b) To require lawyers within SLAC’s jurisdiction to
submit to a professional assessment and diagnosis
and to comply with any remedial program that SLAC
has established. A remedial program may include
conditions on the law practice and other law-related
activities of any lawyer found to be within SLAC’s jurisdiction. Conditions may include, but are not limited

App. 172
to, requiring a lawyer to obtain medical or psychological treatment at his or her expense and to discontinue
the practice of law and/or law-related activities pending completion of such treatment.
(c) To monitor a lawyer’s compliance with the recommended measures of a remedial program.
(d) To maintain records regarding a lawyer’s assistance referrals.
(e) To prepare an annual report to the Board of Governors.
(f ) To recommend, for approval by the Board of Governors, such rules as may be necessary to properly operate SLAC.
(g) To appoint local bar members as it may deem appropriate for carrying out the work and purpose of
SLAC.
Subsection 24.201 Professional Liability Fund
Personal and Practice Management Assistance
Committee
The Professional Liability Fund Personal and Practice
Management Assistance Committee (“PLF-PPMAC”)
has the authority to provide assistance to lawyers and
judges who are suffering from impairment or other circumstances that may adversely affect professional
competence or conduct and may also provide advice
and training in law practice management. The PLFPPMAC may provide this assistance through the PLF’s

App. 173
Oregon Attorney Assistance Program and the Practice
Management Advisor Program and by the use of the
PLF staff and volunteers.
Section 24.3 Composition
Subsection 24.300 State Lawyers Assistance
Committee
The board may appoint members and public members
as it deems appropriate.
Subsection 24.301 Professional Liability Fund
Personal and Practice Management Assistance
Committee
The PLF-PPMAC consists of the members of the PLF’s
Board of Directors. The PLF will have authority to
promulgate rules concerning the provision of assistance by the PLF-PPMAC which, on approval by the
Board of Governors, will govern its activities.
Section 24.4 State Lawyers Assistance Committee Review and Intake
Subsection 24.400 Complaints and Referrals
(a) Any person may submit directly to SLAC, either
orally or in writing, the name of any lawyer whose performance or conduct appears to be impairing the lawyer’s professional competence or ability to practice law.
A referral of a lawyer to SLAC should include a description of the circumstances and copies of any relevant documents. SLAC members who are contacted

App. 174
regarding a complaint or referral will obtain preliminary information and refer the matter to the chairperson. The chairperson will confirm receipt of a referral
in a letter to the person making the referral. The letter
must contain a disclosure substantially as follows:
“We appreciate your interest in bringing this
matter to our attention. Our Committee will
respond by contacting the lawyer to discuss
the problem. It is important for you to understand, however, that the purpose of this Committee is to provide confidential assistance to
lawyers who are impaired in the practice of
law for reasons such as drug or alcohol problems, emotional problems or lack of competence.
For that reason, we focus our work on determining the specific assistance that the lawyer
needs and making sure that the lawyer follows a treatment or assistance program. This
Committee does not deal with lawyer discipline issues. All information we receive from
you will be kept confidential and will not be
reported to the bar disciplinary authorities. If
you believe that this lawyer has acted improperly and you wish to make a complaint to the
bar, you should write to Client Assistance
Office, Oregon State Bar, P.O. Box 231935,
Tigard, OR 97281.” ”
(b) If a referral is received from a member of the Bar,
the letter required in paragraph (A) must also contain
the following statement:

App. 175
“If you are a member of the Bar, please review
Oregon RPC 8.3(a) to determine whether you
may have an independent obligation to contact the Bar.”
(c) The OSB Client Assistance Office and the OSB
Disciplinary Counsel may refer to SLAC the name of
any lawyer whose performance or conduct appears to
be impairing the lawyer’s ability to practice law or
professional competence. The referral will include a
description of the circumstances and copies of any relevant documents. The State Professional Responsibility Board may refer to SLAC any lawyer whose
performance or conduct may be impairing the lawyer’s
ability to practice or professional competence whether
or not the SPRB authorizes prosecution for misconduct. The chairperson will confirm in writing referrals
from the Client Assistance Office, Disciplinary Counsel’s Office, or the SPRB.
Subsection 24.401 Designees
SLAC members, lawyers and other persons assisting
SLAC and employees thereof working on a matter related to the Lawyers Assistance Program authorized
by ORS 9.568 are designees of SLAC. Designees are
subject to SLAC rules, including the confidentiality requirements set forth in Section 24.701. Appointment of
a designee who is not a SLAC member will be at the
discretion of the chairperson. Considerations for appointment of such a designee include, but are not limited to, the designee’s qualifications, the designee’s
previous experience with the referred person or with a

App. 176
situation similar to that of the referred person and the
location of the referred person and designee. The chairperson will confirm the appointment of a designee. The
chairperson will advise the designee of his or her authority and obligations and will include a copy of the
SLAC’s rules and other pertinent SLAC information.
The designee will be notified of SLAC meetings while
the referral is pending and must give regular progress
reports to SLAC. Those reports may be given in person,
in writing, by telephone or through the chairperson.
The appointment of a designee will remain in effect until the case is concluded or SLAC otherwise provides.
Subsection 24.402 Preliminary Assessment and
Intake
Upon receipt of a referral, the chairperson will assign
the matter to one or more designees to conduct a preliminary assessment and make a recommendation to
the committee. The Intake designee will gather relevant information regarding the referral including, but
not limited to, interviewing the referred lawyers and
the person who made the referral, and any other person who may have knowledge about the lawyer’s ability to practice law or professional competence.
Prior to making initial contact with the referred lawyer, the SLAC designee will notify the Oregon Attorney
Assistance Program (OAAP) of the referred lawyer’s
name. If the OAAP informs the SLAC designee that
the referred lawyer poses a substantial and imminent
risk of harm to the referred lawyer or others, the SLAC

App. 177
designee will wait a reasonable amount of time before
contacting the referred lawyer and will coordinate and
communicate with OAAP about how to make contact
with the referred lawyer.
If, based on the preliminary assessment, the committee determines that the lawyer’s professional competence or ability to practice law may be impaired, SLAC
will have jurisdiction over the matter. Otherwise, the
matter will be dismissed without further action.
Subsection 24.403 Notice to Referred Lawyer
Prior to assuming jurisdiction, SLAC will notify the referred lawyer and provide an opportunity to respond.
If jurisdiction is assumed, the chairperson will assign
the matter to a designee for case development, notify
the referred lawyer of the matter and direct the lawyer
to meet with the designee. Notices to the referred lawyer will include a reminder that failure to respond to
or cooperate with SLAC is grounds for discipline under
Oregon RPC 8.1(c) and may be reported to the proper
authority. If a case is not opened, the chairperson will
notify the source of the referral that the matter is being dismissed without further SLAC action.
Section 24.5 State Lawyers Assistance Committee
Investigations
Subsection 24.500 Meeting with Referred Lawyer
Within 30 days after notice has been given as provided
in Subsection 24.403 of the Bar’s Bylaws, the designee,

App. 178
either individually or with another designee, will meet
with the referred lawyer to discuss the nature of the
referral, SLAC’s function, the general steps that will
be taken, any questions that the referred lawyer may
have about the process and the lawyer’s explanation,
opinion or questions about the referral.
Subsection 24.501 Release of Information
The designee may require the referred lawyer to authorize the release of relevant medical or other background information regarding the referred lawyer to
SLAC or to a professional selected to evaluate the referred lawyer. Medical or background information is
relevant, if it relates to the referred lawyer’s professional competence or ability to practice law. The
referred lawyer may voluntarily provide additional information.
Subsection 24.502 Professional Evaluation
The designee may require the referred lawyer to obtain
a medical or other diagnostic evaluation from a professional or a panel of professionals selected by SLAC.
The scope of the medical or other diagnostic evaluation
will be limited to issues related to the referred lawyer’s
professional competence or ability to practice law. The
designee may inform the medical or other professional
of the general nature of SLAC’s concerns but will not
disclose to the professional the identity of the referral
source or any other confidential information. The lawyer must bear the expenses of the medical or other

App. 179
diagnostic evaluation, except that SLAC may advance
the costs in cases of demonstrated financial hardship.
Subsection 24.503 Remedial Action Plan
(a) Based on all the information gathered by the designee, SLAC will consider and determine whether the
referred lawyer’s performance or conduct may be impairing the lawyer’s professional competence or ability
to practice law. If SLAC finds that the lawyer’s performance or conduct may not impair the lawyer’s professional competence or ability to practice law, the matter
will be dismissed and the lawyer notified of the disposition of the matter. If SLAC finds that the lawyer’s
professional competence or ability to practice law is
impaired, SLAC will so advise the referred lawyer in
writing and require the lawyer to participate in a remedial program of monitoring, treatment, counseling
or training.
(b) The referred lawyer will have the opportunity to
participate in determining the nature and extent of the
remedial program to be undertaken, but SLAC’s decision regarding the program is final.
(c) SLAC will set forth the remedial measures to be
undertaken in a written agreement to be signed by the
lawyer. The agreement will contain the referred lawyer’s acknowledgement that failure or refusal to cooperate in the remedial program is grounds for discipline
under Oregon RPC 8.1(c) and may be reported to the
proper authority.

App. 180
(d) SLAC may require the lawyer to submit periodic
reports from persons responsible for implementing the
remedial program or who have information about the
lawyer’s compliance.
(e) The referred lawyer must pay the costs of the remedial program that SLAC requires.
(f ) The designee will monitor the referred lawyer’s
participation in the remedial program and will report
regularly to SLAC.
(g) The remedial program may be revised from time
to time, as SLAC deems appropriate, and may include
an extended period of monitoring.
(h) When SLAC determines that the referred lawyer
has successfully completed the remedial program and
that the lawyer’s ability to practice law and professional competence is no longer impaired, the case will
be closed.
Section 24.6 State Lawyers Assistance Committee
Records
The chairperson will maintain an intake log as a permanent record of SLAC. In it will be noted each referral to SLAC, the date of the referral, the name of the
person making the referral, the name of the referred
lawyer, action taken on the referral and the ultimate
disposition of the referral. Written materials regarding
a referral which does not result in a case being opened,
will be kept with the intake log. The designee to whom
a case is assigned will create a file and will maintain

App. 181
all reports, correspondence, records and other documents pertaining to the case. The designee is responsible for maintaining the confidentiality of the file and
the information it contains while the file is in the designee’s possession. The file on a case will be closed
when the referral is dismissed, on notice to Disciplinary Counsel of noncooperation or as provided in Subsection 24.503(H) of the Bar’s Bylaws. Closed files will
be maintained for ten years in locked storage at the
Bar’s offices. SLAC will notify the referring person of
the general disposition of the referral, but not of its detailed findings or the remedial measures taken.
Section 24.7 Other State Lawyers Assistance
Committee Policies
Subsection 24.700 Non-cooperation
The failure or refusal of the referred lawyer to respond
to SLAC’s initial inquiry; to participate in interviews
with designees during the course of SLAC’s investigation; to respond to SLAC requests for information or
for a professional evaluation; or to participate in and
comply with a remedial program, may result in the
lawyer being referred to Disciplinary Counsel for possible action under Oregon RPC 8.1(c).
Subsection 24.701 Confidentiality
SLAC records and any information provided to or
obtained by it or its designees including, without
limitation, medical information, is confidential. Those
records and information are not subject to public

App. 182
disclosure and are inadmissible as evidence in any disciplinary or civil proceeding. Pursuant to ORS 9.568(4),
the confidentiality does not apply to information relating to a lawyer’s non-cooperation with SLAC or its designees or to information obtained by the Bar from any
other source not connected with the referral to SLAC.
Pursuant to Subsection 24.402 of the Bar’s Bylaws, the
SLAC chairperson or designee may release the name
of the referred lawyer to the OAAP. SLAC may also release statistical data, pursuant to Subsection 24.703 of
the Bar’s Bylaws.
Subsection 24.702 Duty to Report Unethical
Conduct
SLAC and its designee are exempt from the reporting
requirements of Oregon RPC 8.3(a) pursuant to Oregon RPC 8.3(c)(1).
Subsection 24.703 Statistical Data
SLAC will prepare a written annual report of its activities. The report will include statistical data such as:
the total number of referrals received by SLAC, the
number of direct referrals, the number of referrals
received from the State Professional Responsibility
Board, the number of referrals to the Client Assistance
Office as a result of non-cooperation with SLAC, the
number and types of cases in which assistance was
provided through SLAC, the number of cases completed during the reporting period and other information that will assist the Bar in evaluating the

App. 183
workload and effectiveness of the SLAC program. The
report will not include any information that could jeopardize the confidentiality of persons participating in
SLAC’s programs. The report will be delivered to the
Bar annually as an attachment to SLAC’s annual report.
Subsection 24.704 Public Meetings
SLAC meetings are exempt from the provisions of ORS
192.610 to 192.690, pursuant to ORS 9.568(3)(b).
OAAP staff may be invited to attend SLAC meetings,
including case review of referred lawyers, if appropriate releases have been signed by the referred lawyers.
Article 25 Law Student Associates
Any student currently enrolled in an Oregon law
school may become a Law Student Associate of the Bar.
Law Student Associates are not members of the Bar
and, except as provided in this article, do not have any
of the rights and responsibilities of members. Law Student Associates must pay an annual fee established by
the Chief Executive Officer in an amount sufficient to
cover the cost of providing information and services to
Law Student Associates. Services and information provided to Law Student Associates will be determined by
the Chief Executive Officer.

App. 184
Article 26 Sustainability
The Bar supports the goal of sustainability, generally
defined as meeting present needs without compromising the ability of future generations to meet their own
needs. Because Bar operations and the practice of law
impact the environment and society generally, the Bar
will be cognizant of sustainability in its internal operating practices as well as in its service to members. Internally, the Chief Executive Officer will designate a
sustainability coordinator for Bar operations, will encourage continuous sustainability improvement in Bar
operations, and will report to the Board of Governors
at least annually on progress and impediments. In the
practice of law, principles of sustainability may be important in addressing competing economic, social and
environmental priorities that impact future generations. The Bar will encourage education and dialogue
on how law impacts the needs and interests of future
generations relative to the advancement of the science
of jurisprudence and improvement of the administration of justice.
Article 27 Unclaimed Lawyer Trust Account Funds
Section 27.100 Purpose
This policy is established to provide direction and limits for the administration, disbursement, and claims
adjudication of unclaimed lawyer trust account funds
appropriated to the Bar. For the purposes of this
section, “unclaimed lawyer trust account funds” are

App. 185
defined to mean all funds allocated to the bar pursuant
to ORS 98.386(2).
Section 27.101 Administration
(a) All unclaimed lawyer trust account funds appropriated to the Bar shall be received and held in a separate fund in the manner authorized by Section 7.1.
(b) All unclaimed lawyer trust account funds shall be
invested in the manner described at Section 7.4. The
Legal Services Committee may provide recommendations on the investment of unclaimed lawyer trust account funds to the Investment Committee.
Subsection 27.102 Disbursement
(a) The Chief Executive Officer and the Chief Financial Officer are authorized and empowered to make
disbursements of unclaimed lawyer trust account
funds appropriated to the Bar to:
(1) Claimants for the payment of claims allowed
under ORS 98.392(2), pursuant to Subsection
27.103; and
(2) The Bar, for expenses incurred by the Bar in
the administration of the Legal Services Program,
only if the Chief Executive Officer determines
such disbursements will not impair the Bar’s ability to make payments for claims allowed pursuant
to Subsection 27.103 from unclaimed lawyer trust
account funds.

App. 186
(b) The Budget & Finance Committee, after seeking
the advice of the Legal Services Committee, may recommend that the Board make disbursements of unclaimed lawyer trust account funds appropriated to the
Bar to the Legal Services Program established under
ORS 9.572 for the funding of legal services. The Board
may authorize such disbursements only if the Board
determines the disbursements will not impair the
Bar’s ability to make payments for claims allowed pursuant to Subsection 27.103 from unclaimed lawyer
trust account funds.
Subsection 27.103 Claim Adjudication
(a) When the Oregon Department of State Lands forwards a claim for unclaimed lawyer trust account
funds to the Bar for review, the Bar shall review the
claim and approve or deny the claim within 120 days
after the completed claim form and all necessary information to process the claim is received. If a claimant is
requested to provide additional information and fails
to do so within 90 days after the request is made, the
Bar may close the file without further action. A claim
shall be approved if a preponderance of the evidence
proves the claimant is legally entitled to the unclaimed
lawyer trust account funds. A claim shall be denied if
the preponderance of the evidence does not prove the
claimant is legally entitled to the property.
(b) The Chief Executive Officer or the Chief Executive Officer’s designee shall decide whether to approve
or deny all claims for amounts under $5000. Claims for

App. 187
amounts of $5000 or more must be reviewed and approved or denied by the Board.
(c) The Bar shall utilize claim forms published by
the Oregon Department of State Lands. To evaluate
whether to approve or deny a claim under Subsection
27.103(a), the Bar adopts the claim adjudication rules
promulgated by the Oregon Department of State
Lands at OAR 141-040-020; and OAR 141-040-0211
through OAR 141-0400213. Where the rules reference
the “Department” they shall be deemed to refer to the
Bar.
(d) If a claim is approved pursuant to this Subsection,
the Chief Executive Officer or designee shall notify the
claimant.
(e) If a claim is denied, the Chief Executive Officer or
the Chief Executive Officer’s designee shall notify the
claimant. The notice of denial shall include the specific
reason for denial and shall include a notice of an opportunity to appeal the denial to the Board.
(f ) A claimant may appeal the denial of a claim by
making a request in writing to the Chief Executive
Officer within 60 days after the date of written notice
of denial of the claim. A request for appeal shall be in
writing and shall identify issues of law or fact raised
by the denial and include a summary of the evidence
of ownership on which the claim was originally submitted. The Board will review each request for appeal at
its next scheduled board meeting following receipt of
the request.

App. 188
(g) Additional evidence shall not be admissible on appeal to the Board, except by mutual consent of the
Board, the claimant, and any other parties to the proceeding.
If such additional evidence is not admitted, the Board
shall allow the claimant to resubmit the claim to the
Chief Executive Officer with the new evidence.
(h) The Chief Executive Officer or designee shall notify the claimant of the Board’s decision on appeal.
(i) A holder of property who has delivered unclaimed
lawyer trust account funds to the Bar pursuant to ORS
98.386(2) may make payment to or delivery of property
to an owner and file a claim with the Bar for reimbursement. The Bar shall reimburse the holder within
60 days of receiving proof that the owner was paid. The
Bar may not assess any fee or other service charge to
the holder. As a condition of receiving the funds from
the Bar, the holder shall agree to assume liability for
the claimed asset and hold the Bar harmless from all
future claims to the property.
(j) On a quarterly basis, the Chief Executive Officer
or designee shall provide a listing of the claims resolved to the Department of State Lands. The Chief Executive Officer shall also provide an annual report of
the claims resolved to the Board.

App. 189
Article 28 Admissions
Section 28.1 Board of Bar Examiners
Pursuant to ORS 9.210, the Supreme Court appoints a
Board of Bar Examiners (BBX) to carry out the admissions function of the Oregon State Bar. The BBX
recommends to the Supreme Court for admission to
practice those who fulfill the requirements prescribed
by law and the rules of the Court. The BBX’s responsibilities include: investigating applicants’ character
and fitness, developing a bar examination, determining the manner of examination, determining appropriate accommodations for applicants, grading the bar
examinations and setting standards for bar examination passage. The BBX may appoint co-graders to assist with the grading of examinations. The BBX may
also recommend to the Court rules governing the qualifications, requirements and procedures for admission
to the bar, by examination or otherwise, for law student
appearance, and other subjects relevant to the responsibilities of the BBX.
Section 28.2 Nominations
The bar and the BBX will recruit candidates for appointment to the BBX and for appointment as co-graders. The
BBX will solicit input from the Board of Governors before selecting co-graders and nominating candidates
for appointment to the BBX.

App. 190
Section 28.3 Liaisons
The Board of Governors shall appoint one of its members as a liaison to the BBX. The BBX may appoint one
of its members as a liaison to the Board of Governors.
The liaisons shall be entitled to attend all portions of
the BBX and Board of Governor meetings, including
executive and judicial sessions.
Section 28.4 Admissions Director
The Admissions Director shall report to and be supervised by the Director of Regulatory Services, under the
overall authority of the Chief Executive Officer. The
Chief Executive Officer and Director of Regulatory Services will make the hiring, discipline and termination
decisions regarding the Admissions Director. The Chief
Executive Officer and Director of Regulatory Services
will solicit BBX’s input into these decisions and give
due consideration to the recommendations and input
of the BBX. If the BBX objects to the final hiring decision for the Admission Director, recruitment will be reopened.
Section 28.5 Budget
With the approval of the Oregon Supreme Court, the
BBX may fix and collect fees to be paid by applicants
for admission. A preliminary annual budget for admissions will be prepared by the Admissions Director and
Director of Regulatory Services in consultation with
the BBX. Upon approval by the BBX, the budget will
be submitted to the Board of Governors. The final

App. 191
budget presented to the Board of Governors will be
provided to the BBX. Upon adoption by the Board of
Governors, the budget will be submitted to the Supreme Court in accordance with Bylaw 7.202, and the
BBX may make a recommendation to the Supreme
Court regarding adoption of the budget. The budget
will align with bar policy generally after consideration
of the policy goals and objectives of the BBX.
Section 28.6 Amendments
Any proposed amendment to Article 28 shall be submitted to the BBX and Supreme Court for consideration and the BBX shall make its recommendation to
the Supreme Court regarding adoption of the proposed
amendment. Upon Supreme Court approval, the Board
of Governors may adopt such amendments in accordance with Article 29.
Article 29 Amendment of Bylaws
Any amendment of the Bar’s Bylaws requires notice at
a prior Board meeting unless two-thirds of the entire
Board waives the notice requirement. The Bar’s Bylaws may be amended by affirmative vote of a majority
of the entire Board at any regular meeting or at any
special meeting of the Board called for that purpose.

App. 192
Subject Index
ABA HOUSE OF DELEGATES
Campaign advertisements, 11.4
Expense reimbursements, 5.3
Selection of delegates for, 5.1, 9.1
Voting by, 5.2
ACTIVE PRO BONO MEMBERSHIP
Application form, 6.101(d)
Eligibility for, 6.101(b), 6.101(d)
Fees, 6.101(c)
Purpose of, 6.101(a)
Reporting duties, 6.101(e)
Transfer of status, 6.101(f )
ADJUDICATOR, 18.7
ADMISSION TO PRACTICE
Admissions Director, 28.4
Budget, 28.5
Generally, Article 28
Amicus curiae briefs, 2.105
Witnesses, Board members as, 2.603
ADMONITION
Letters of, 18.2
ADVERTISEMENTS
Bar-sponsored insurance, 17.2
Election campaigns, 11.4
AFFIRMATIVE ACTION PROGRAM
State Bar funds, 7.300
AMENDMENT OF BYLAWS
Overview of, Article 29

App. 193
AMICUS CURIAE BRIEFS
Committees, 2.105
Sections, 2.105
ANNUAL BUDGET
See BUDGET
ARBITRATION OF DISPUTES
Bar dues, use of, 12.602
Fee arbitration, Article 22
ATTORNEY ASSISTANCE
See PROFESSIONAL LIABILITY FUND
PERSONAL AND PRACTICE MANAGEMENT
ASSISTANCE COMMITTEE (PLF-PPMAC);
STATE LAWYERS ASSISTANCE COMMITTEE
(SLAC)
ATTORNEY FEES
Arbitration of disputes, Article 22
Defense of Bar’s agents, employees, officers in
disciplinary proceedings, 2.107(f )
Pro bono services, 13.201(b)
AUDITS
Professional Liability Fund, 23.506
State Bar funds, 7.101
AWARD OF MERIT
Overview of, 4.6
AWARDS
Award of Merit, 4.6
President’s Affirmative Action Award, 4.4
President’s Membership Service Award, 4.2
President’s Public Leadership Award, 4.8
President’s Public Service Award, 4.3
President’s Special Award of Appreciation, 4.5
President’s Sustainability Award, 4.9

App. 194
Selection of recipients, 4.1
Wallace P. Carson, Jr. Award for
Judicial Excellence, 4.7
BALLOTS
Election ballots, 9.2
BAR
See STATE BAR
BAR ACT
Definition of, 1.1
BARBOOKS™ ONLINE LIBRARY
Continuing legal education, 16.300
BAR COUNSEL PANELS
Conflicts of interest. See CONFLICTS OF INTEREST
(BAR OFFICIALS)
BAR DUES
Annual, 6.4
Hardship exemptions, 6.5
Ideological/political causes, use for, 12.601-12.603
Waiver of, 6.6
BOARD OF BAR EXAMINERS
Composition and duties, 28.1
Indemnification, 2.106
Liaisons, 28.3
Meetings as judicial proceedings, 8.201(d)
Nominations, 38.3
BOARD OF GOVERNORS
Annual Bar membership fees, 6.4
Annual budget, approval of, 7.200
Appointments/nominations
Executive departments, for, 2.104
Legislative departments, for, 2.104

App. 195
Awards. See AWARDS
Candidate statements, 2.101(b)
Committees. See COMMITTEES
Conflicts of interest. See CONFLICTS OF INTEREST
(BAR OFFICIALS)
Definition of, 1.1
Disciplinary correspondence, 18.4
Duties of, 2.100
Election of members. See also ELECTIONS
Campaign advertisements, 11.4
Date for, 9.1
Overview of, 2.101, 9.1
Emergency meetings, 2.403
Expense reimbursements. See also EXPENSE
REIMBURSEMENTS
Disciplinary proceedings against agents,
employees, officers, 2.107
Generally, 2.500, 7.500
Gifts to retiring members, 2.502
Out-of-state conferences, 2.501
Functions of, 2.100
Initiative petitions, 3.6
Legislation/public policy
Initiation of legislation, 12.201
Priority setting, 12.3
Meetings of
Attendance, 2.100(f )
Emergency meetings, 2.403
Minutes, 2.404
Public Meetings Law, 8.2, 8.202(c)
Regular meetings, 2.401
Robert’s Rules of Order, 2.400
Special meetings, 2.402
Telephone participation, 2.100(f )

App. 196
Members
Challenging candidacies, 2.104
Committee-assignment preferences, 2.102
Duties and responsibilities, 2.100(c)-2.100(e)
Election of members, above Indemnification of,
2.106
Judicial appointments/campaigns, involvement
in, 2.103
Public members, below Replacement of, 18.602
Minutes of meetings, 2.404
Officers. See also PRESIDENT; PRESIDENT-ELECT;
VICE PRESIDENT(S)
Disciplinary complaints against, defense of, 2.107
Duties of, 2.200
Indemnification of, 2.106
Oregon New Lawyers Division liaison, 2.405
Professional Liability Fund
Annual meeting of board, 23.504
Appointment of PLF directors, 23.1
Assessments for charges, 23.600, 23.601(b)
Audits, 23.506
Mediation of disputes, 23.503
PLF liaisons, 23.500
Prosecution of claims, 23.503
Release of information to board, 23.502
Removal of PLF directors, 23.1
Reports to board, 23.501
Public members
Appointment of, 2.300
Duties of, 2.301
Generally, 2.3
Powers of, 2.301
Removal of, 2.302
Vacancies, filling of, 2.303

App. 197
Referenda, 3.6
Replacement of members, 18.602
Responsibilities of, 2.100
Sections. See SECTIONS
Separation of powers, 2.104
Special meetings, 2.402
Suspension from service, 18.600
Sustainability of Bar operations, reports, Article 26
Tour agreements, 17.3
Unlawful practice of law
Prosecution of actions by, 20.703
Referral to board, 20.701(e), 20.702
BORROWING
State Bar funds, against, 7.102
BUDGET
Annual budget
Board of Governors’ approval, 7.200
Budget and Financial Committee’s
recommendation, 7.2
Contingency fund, 7.201
Development of, 7.2
Supreme Court’s approval, 7.202
Approval by Board, 2.100
BUDGET AND FINANCIAL COMMITTEE
Annual budget recommendation, 7.2
Bar funds policy, 7.100
Investment of Bar funds, 7.401
Unclaimed lawyer trust accounts, disbursements
from, 27.102(b)
BYLAWS AMENDMENTS
Overview of, Article 28
CAMPAIGN FOR EQUAL JUSTICE (CD)
Financial support for, 7.203

App. 198
CAPITAL RESERVE FUND
Overview of, 7.302(b)
CHIEF EXECUTIVE OFFICER
Active Pro Bono eligibility determinations, 6.101(d)
Bar funds
Borrowing against funds, 7.102
Deposit of funds, 7.100
Disbursement of funds, 7.100
Receipt of funds, 7.100
Bar funds, against, 7.102
Bar membership fees, 6.4-6.6
Board member requests, 2.803
Candidate statements for Governor, 2.101(b)
Check signatures, 7.103
Committees
Assignments, development of, 2.102
Expenses, approval of, 14.6
Conference expenses, reimbursement of, 2.501
Conflicts of interest (Bar officials)
Conflicts of director, 2.602(b)
Notice to director, 2.602(a)
Definition of, 1.1
Duties and responsibilities, 2.100, 2.800
Editorial policy, 11.2
Election duties, 9.2
Evaluation by Board, 2.801
Investment of Bar funds, 7.401
Lawyer-groups, plan to visit, 2.100(e)
Local associations, plan to visit, 2.100(e)
Notice(s)
Agent for receipt of, 2.802
Regular Board meetings, 2.401
Special Board meetings, 2.402
Professional Liability Fund
responsibilities, 23.507

App. 199
Public records requests, 8.101(a), 8.101(b)
Register of Bar members, 6.2
Sustainability coordinator of Bar operations,
designation of, Article 26
Unclaimed lawyer trust accounts
Claims against, approval or denial of, 27.103
Disbursements from, 27.102(a)
Write-offs, 7.105
CHIEF FINANCIAL OFFICER
Borrowing against funds, 7.102
Check signatures, 7.103
Deposit of funds, 7.100
Disbursement of funds, 7.100
Investment of funds, 7.401
Receipt of funds, 7.100
Unclaimed lawyer trust accounts, disbursements
from, 27.102(a)
CIRCUIT COURT JUDGES
Appointments, 2.700, 2.702
Elections, 2.701
CLASSROOM LAW PROJECT (CLP)
Financial support for, 7.203
CLIENT ASSISTANCE OFFICE
Records, disclosure of, 8.102
SLAC referrals, 24.400(c)
CLIENT SECURITY FUND
Overview of, 7.300; Article 21
COMMISSION OF JUDICIAL FITNESS AND
DISABILITY
Separation of powers, 2.104

App. 200
COMMITTEES
Administrative services, 14.7
Amicus curiae appearances by, 2.105
Assignments
Development of, 2.102
Preferences for, 2.102
Contact persons, 14.7
Financial issues, 14.5
Joint committees, 14.2
Lawyer assistance. See PROFESSIONAL LIABILITY
FUND PERSONAL AND PRACTICE
MANAGEMENT ASSISTANCE COMMITTEE
(PLF-PPMAC); STATE LAWYERS ASSISTANCE
COMMITTEE (SLAC)
Legal Ethics Committee. See LEGAL ETHICS
COMMITTEE
Legislative information/involvement, 12.4, 14.6
Meetings of
Generally, 8.202
Notices, 14.7
Quorum, 14.9
Quorum for meetings, 14.9
Reports of, 14.8
Responsibilities of, 14.3
Special committees, 14.1
Standing committees Conflicts of interest. See
CONFLICTS OF INTEREST (BAR OFFICIALS)
Generally, 14.1
Membership on, 14.4
Unlawful Practice of Law Committee, 20.702.
See also UNLAWFUL PRACTICE OF LAW
COMMUNICATIONS OF THE BAR
Campaign advertisements, 11.4
Editorial policy, 11.2
General policy, 11.1

App. 201
Media relations, 11.3
Member surveys/questionnaires, 11.5
CONFERENCES
Expense reimbursements, 2.501
CONFIDENTIALITY OF INFORMATION
State Lawyers Assistance Committee, 24.6, 24.701
CONFLICTS OF INTEREST (BAR OFFICIALS)
Actual conflicts
Definition of, 2.600
Disclosure of, 2.602(c)
Definitions, 2.600
Disclosure of, 2.602
Chief Executive Officer Conflicts of Interest,
2.602(b)
Notice to Chief Executive Officer, 2.602(a)
Financial detriment, avoidance of, 2.601(a)
Financial gain, 2.601(a)
Future employment, 2.601(d)
Gifts
Board retiring members, gifts to, 2.502
Receipt or solicitation of gift, 2.601(c)
Government Standards and Practices Act,
application of, 2.6
Personal gain, 2.601(b)
Potential conflicts
Definition of, 2.600
Disclosure of, 2.602(c)
Prohibited actions, 2.601
Witnesses in bar proceedings, 2.603
CONTINGENCY FUND
Annual budget, 7.201

App. 202
CONTINUING LEGAL EDUCATION (CLE)
BarBooks™ online library, 16.300
Bar sections
Co-sponsorships with State Bar, 15.601
Publications, 15.600
Seminars, 15.600
State Bar logo, use of, 15.602
Compensation for services, 16.1
Minimum Continuing Legal Education Board, 2.104
Minimum Continuing Legal Education budget, 7.202
Publications program
BarBooks™ online library, 16.300
Bar sections, 15.600, 15.602
Print publications discounts, 16.301
Voluntary Copyright Agreement, 16.302
Purpose of, 16.1
Seminar programs
Bar sections, 15.600, 15.602
Complimentary registration, 16.200
Expense reimbursements, 16.201
Planners’ expenses, 16.201
Product discounts, 16.200
Reduced registration, 16.200
Speakers’ expenses, 16.201
COPYRIGHT AGREEMENT
Publications program, 16.302
CREDIT POLICY
State Bar funds, 7.104
CRIMINAL PROSECUTIONS
Unlawful practice of law, 20.4, 20.50
DEPUTY GENERAL COUNSEL
Check signatures, 7.103

App. 203
DISCIPLINARY BOARD
Clerk’s records, disclosure of, 8.102
Deliberations of trial panels, 8.202(b)
Media coverage of, 8.202(a)
Meetings of, 8.202(b)
Separation of powers, 2.104
DISCIPLINARY COUNSEL’S OFFICE
Disciplinary correspondence, 18.4
Notice to accused, 18.103
Records, disclosure of, 8.102
SLAC referrals, 24.400(c)
State Professional Responsibility Board
Reporting activities of, 18.100
Representation of, 18.100
DISCIPLINE OF MEMBERS
Amicus curiae briefs, 2.105
Annual budget for, 7.202
Bar’s agents, employees, officers, defense of, 2.107
Collection of judgments, 18.3
Correspondence related to, 18.4
Costs, recovery of, 18.3
Disclosure of contacts with SPRB, 18.104
Judicial proceedings, 8.202
Lawyer Referral Service panel, removal from, 18.5
Letters of admonition, 18.2
Notice to accused, 18.103
Reinstatement proceedings. See REINSTATEMENT
PROCEEDINGS
Witnesses, Board members as, 2.603
DISCRIMINATION
Members of the Bar, Article 10
DONATIONS
Sections, 15.401

App. 204
DUES
Bar dues. See BAR DUES
Section dues, 15.400
EDITORIAL POLICY
Communications of the Bar, 11.2
ELECTIONS
Ballots, 9.2
Board members. See BOARD OF GOVERNORS
Campaign advertisements, 11.4
Date of, 9.1
Judicial. See JUDICIAL SELECTIONS
President, for, 2.201(a), 2.201(c)
President-elect, for, 2.201(a)-2.201(c)
Vice-President(s), for, 2.201(a), 2.201(c)
Voting
Overview of, 9.3
President, for, 2.201(c)
President-elect, for, 2.201(c)
Vice-President(s), for, 2.201(c)
ETHICAL ISSUES
Bar officials. See CONFLICTS OF INTEREST
(BAR OFFICIALS)
General Counsel’s Office
Ethical advice to Bar members, 19.2, 19.102
Ethical determinations, 19.101
Ethics assistance requests, 19.103
Legal Ethics Committee, 19.300, 19.301
Limitation on ethical advice, 19.2
Submission of ethical questions to, 19.100
Legal Ethics Committee. See LEGAL ETHICS
COMMITTEE
SLAC’s reporting of unethical conduct, 24.702

App. 205
EXECUTIVE COMMITTEE CONFLICTS OF
INTEREST
See CONFLICTS OF INTEREST (BAR OFFICIALS)
EXPENSE REIMBURSEMENTS
ABA House of Delegates, State Bar delegates of, 5.3
Board of Governors
Disciplinary proceedings against agents,
employees, officers, 2.107
Generally, 2.500
Gifts to retiring members, 2.502
Out-of-state conferences, 2.501
Documentation supporting, 7.500
Eligible expenses, 7.501
Gifts to retiring members, 2.502
Guests, for, 7.500
House of Delegates, 7.502
Late requests for, 7.500
Lodging, 7.501(c)
Meals, 7.501(d)
Overview of, 7.500
Requests for, 7.500
Seminar programs, 16.201
Spouses, for, 2.501, 7.500
State Professional Responsibility Board, 7.500, 18.102
Transportation/travel costs, 7.501(a), 7.501(b)
FOOD COSTS
Expense reimbursements, 7.501(d)
FORMAL ETHICS OPINIONS
Overview of, 19.301
FUNDS (STATE BAR)
Affirmative Action Program, 7.300
Audits, 7.101
Borrowing against, 7.102

App. 206
Budget. See BUDGET
Budget and Financial Committee policy, 7.100
Check signatures, 7.103
Chief Financial Officer
Borrowing against funds, 7.102
Check signatures, 7.103
Disbursement of funds, 7.100
Investment of funds, 7.401
Receipt of funds, 7.100
Client Security Fund, 7.300; Article 21
Credit policy, 7.104
Deposit of, 7.100
Disbursement of, 7.100, 7.103
Chief Executive Officer Borrowing against funds,
7.102
Deposit of funds, 7.100
Disbursement of funds, 7.100
Receipt of funds, 7.100
Investment of
Approved investments, 7.402
Federal agency obligations, in, 7.403
Guidelines/policies, annual review of, 7.401
Investment Committee, 7.401
Limitations, 7.403
Local Government Investment Pool, in, 7.403
Long-Term Investment policy, 7.400
Management of investments, 7.401
Performance standards, 7.401
Policy behind, 7.400
Prudent person standard, 7.404
Short-Term Investment policy, 7.400
U.S. Treasury obligations, in, 7.403
Management of, 7.1
Receipt of, 7.100
Reserve funds

App. 207
Capital Reserve Fund, 7.302(b)
General Fund, 7.300, 7.301
General Operating Reserve Fund, 7.302(a)
Separate funds, 7.300, 7.302
Write-offs, 7.105
GENERAL COUNSEL’S OFFICE
Check signatures, 7.103
Disciplinary proceedings Correspondence relating
to, 18.4
Defense of Bar’s agents, employees, officers,
2.107(c)
Ethical issues
Advice to Bar members, 19.2, 19.102
Assistance requests, 19.103
Determination of, 19.101
Legal Ethics Committee, 19.300, 19.301
Limitation on advice, 19.2
Submission of questions to counsel, 19.100
Legal Ethics Committee, relationship to, 19.300,
19.301
GENERAL FUND
Overview of, 7.300, 7.301
GENERAL OPERATING RESERVE FUND
Overview of, 7.302(a)
GIFTS
Board retiring members, 2.502
Conflicts of interest (Bar officials)
Board retiring members, gifts to, 2.502
Receipt or solicitation of gift, 2.601(c)
GOVERNOR
See also BOARD OF GOVERNORS
Candidate statements, 2.101(b)
Definition of, 1.1

App. 208
GRANTS
Charitable organizations, for, 7.203
Non-profit organizations, for, 7.203
Sections, 15.7
HOTEL COSTS
Expense reimbursements, 7.501(c)
HOUSE OF DELEGATES
ABA House of Delegates
Campaign advertisements, 11.4
Expense reimbursements, 5.3
Selection of delegates for, 5.1, 9.1 Voting by, 5.2
Definition of, 1.1
Duties of, 3.1
Election of members
Campaign advertisements, 11.4
Generally, 9.1
Expense reimbursements, 7.502
Functions of, 3.1
Initiative petitions, 3.6
Meetings of
Agendas, 3.4
Expense reimbursements, 7.502
Parliamentarian(s) for, 3.5
Number of delegates, 3.2
Powers of, 3.1
Recall of delegates, 3.2
Referenda, 3.6
Removal of public member delegates, 3.2
Resolutions, 3.3, 3.4
Terms of office, 3.2
Vacancies, 3.2
IMMEDIATE PAST PRESIDENT,
2.200(c)

App. 209
INDEMNIFICATION
Bar members, officers, etc., 2.106
INITIATIVE PETITIONS
Board of Governors, 3.6
House of Delegates, 3.6
INSURANCE
Bar-sponsored, 17.2
INVESTMENT OF BAR FUNDS
Approved investments, 7.402
Federal agency obligations, in, 7.403
Guidelines/policies, annual review of, 7.401
Investment Committee, 7.401
Limitations on, 7.403
Local Government Investment Pool, in, 7.403
Long-Term Investment policy, 7.400
Management of investments, 7.401
Performance standards, 7.401
Policy behind, 7.400
Prudent person standard, 7.404
Short-Term Investment policy, 7.400
U.S. Treasury obligations, in, 7.403
JUDICIAL SELECTIONS
Appointments
Board members’ involvement in, 2.103
Statewide appointments, 2.703
Campaigns
Advertisements, 11.4
Board members’ involvement in, 2.103
Overview of, 2.700
Preference polls
Circuit court appointments, 2.700, 2.702
Circuit court elections, 2.701
Contested elections, 2.700

App. 210
Statewide appointments, 2.703
Statewide elections, 2.701
Statewide appointments, 2.703
LAW STUDENT ASSOCIATES
State Bar, Article 25
LAWYER ASSISTANCE
See PROFESSIONAL LIABILITY FUND
PERSONAL AND PRACTICE MANAGEMENT
ASSISTANCE COMMITTEE (PLF-PPMAC);
STATE LAWYERS ASSISTANCE COMMITTEE
(SLAC)
LAWYER REFERRAL SERVICE PANEL
Removal from, 18.5
LEGAL ETHICAL ISSUES
See ETHICAL ISSUES
LEGAL ETHICS COMMITTEE
Formal opinion process, 19.301
Response to inquiries, 19.300
Submission of questions to, 19.300
LEGAL PUBLICATIONS PROGRAM
See PUBLICATIONS PROGRAM
LEGAL SERVICES PROGRAM
State Bar funds, 7.300
Unclaimed lawyer trust account funds, 27.102(b)
LEGISLATION/PUBLIC POLICY
Bar dues, use of
Arbitration of disputes, 12.602
Objections, 12.600, 12.602
Refund of dues, 12.601
Board of Governors
Initiation of legislation, 12.201
Priority setting, 12.3

App. 211
Eligible subjects of, 12.1
Guidelines, 12.1
Initiation of legislation
Bar committees/sections, by, 12.4, 14.6
Board of Governors, by, 12.201
House of Delegates, by, 12.200
Legislative Assembly initiatives, by, 12.200
Legislative process, 12.3
Professional Liability Fund, 12.5
LETTERS OF ADMONITION
Discipline of members, 18.2
LOCAL GOVERNMENT INVESTMENT POOL
Bar funds, 7.403
LODGING
Expense reimbursements, 7.501(c)
LOGO OF STATE BAR
Bar-sponsored insurance, 17.2
CLE programs, 15.602
MEALS
Expense reimbursements, 7.501(d)
MEDIA COVERAGE
Disciplinary Board proceedings, 8.202(a)
MEDIA RELATIONS
State Bar, 11.3
MEDIATION OF DISPUTES
Professional Liability Fund, 23.503
MEMBERS OF THE BAR
Active members
Definition of, 6.100
Pro bono. See PRO BONO SERVICES

App. 212
Rights of, 6.3
Transfer to inactive status, 6.102
Administrative services for, 17.1
Anti-discrimination policy, Article 10
Assessments. Fees and assessments, below
Classification of, 6.100
Definition of, 1.1
Discipline of. See DISCIPLINE OF MEMBERS
Diversity of, Article 10
Ethical issues. See ETHICAL ISSUES
Fees and assessments
Annual, 6.4
Hardship exemptions, 6.5
Ideological/political causes, use of dues for,
12.601-12.603
Waiver of, 6.6
Inactive members
Definition of, 6.100
Fees and assessments, 6.4
Transfer to active status, 6.102
Practice of law
Amicus curiae briefs, 2.105
Unlawful practice. See UNLAWFUL PRACTICE
OF LAW
Pro bono services. See PRO BONO SERVICES
Register of, 6.2
Reinstatement of. See REINSTATEMENT
PROCEEDINGS
Rights of, 6.3
State bar services, 17.1
Surveys/questionnaires, 11.5
Suspended members’ rights, 6.3
MILITARY PERSONNEL
Bar dues. waiver of, 6.6

App. 213
MINIMUM CONTINUING LEGAL EDUCATION
BOARD
Separation of powers, 2.104
MISSION OF STATE BAR
Overview of, 1.2
MOTEL COSTS
Expense reimbursements, 7.501(c)
OFFICERS
See also specific officer
Election of, 2.201
Removal of, 2.202
OREGON ATTORNEY ASSISTANCE PROGRAM
(OAAP)
Notice of SLAC referrals, 24.402
OREGON NEW LAWYERS DIVISION (ONLD)
Board expenses, reimbursement of, 7.500. See also
EXPENSE REIMBURSEMENTS
Board of Governors liaison, 2.405
OREGON STATE BAR
See STATE BAR
OREGON SUPREME COURT
Annual budget, approval of, 7.202
PEACE CORPS VOLUNTEERS
Bar dues. waiver of, 6.6
PRACTICE OF LAW
Amicus curiae briefs, 2.105
Unlawful practice. See UNLAWFUL PRACTICE OF
LAW
PRESIDENT
Awards. See specific award
Bar funds, borrowing against, 7.102

App. 214
Defense of Bar’s agents’, employees’, officers’
misconduct, 2.107(c)
Definition of, 1.1
Duties of, 2.200(a)
Election of, 2.201(a), 2.201(c)
Lawyer-groups, plan to visit, 2.100(e)
Local associations, plan to visit, 2.100(e)
Out-of-state conference expenses, reimbursement of,
2.501
PRESIDENT-ELECT
Committee-assignments, development of, 2.103
Definition of, 1.1
Duties of, 2.200(b)
Election of
Candidates, 2.201(b)
Overview, 2.201(a)
Voting, 2.201(c)
Out-of-state conference expenses, reimbursement of,
2.501
Voting for, 2.201(c)
PRESIDENT’S AFFIRMATIVE ACTION AWARD
Criteria for, 4.4
PRESIDENT’S MEMBERSHIP SERVICE
AWARD
Criteria for, 4.2
PRESIDENT’S PUBLIC LEADERSHIP AWARD
Criteria for, 4.8
PRESIDENT’S PUBLIC SERVICE AWARD
Criteria for, 4.3
PRESIDENT’S SPECIAL AWARD OF
APPRECIATION
Overview of, 4.5

App. 215
PRESIDENT’S SUSTAINABILITY AWARD
Criteria for, 4.9
PRO BONO SERVICES
Active Pro Bono members
Application form, 6.101(d)
Eligibility for, 6.101(b), 6.101(d)
Fees, 6.101(c)
Purpose of, 6.101(a)
Reporting duties, 6.101(e)
Transfer of status, 6.101(f )
Aspirational standard for, 13.1
Attorney fees, 13.201(b)
Definition of, 13.1
Program
Certification of, 13.2
Compensation of lawyers, 13.201(b)
Diversity, 13.201(e)
Fees, 13.201(c)
Professional liability coverage, 13.201(f )
Purpose of, 13.201(a)
Quality control, 13.201(d)
Recognition of volunteers, 13.202
Recognition of volunteers, 13.202
PROFESSIONAL LIABILITY FUND PERSONAL
AND PRACTICE MANAGEMENT
ASSISTANCE COMMITTEE (PLF-PPMAC)
Authority of, 24.201
Composition of, 24.301
Creation of, 24.1
Purpose of, 24.1
PROFESSIONAL LIABILITY FUND (PLF)
Assessments for charges
Board of Directors, 23.601(a)
Board of Governors, 23.600, 23.601(b)

App. 216
Audits, 23.506
Board of Directors
Assessments for charges, 23.601(a)
Authority of, 23.2
Members of, 23.1
Operation of, 23.3
Overview of, 23.1
Reappointments, 23.1
Terms of office, 23.1
Board of Governors
Annual meeting of, 23.504
Appointment of PLF directors, 23.1
Assessments for charges, 23.600, 23.601(b)
Audits, 23.506
Mediation of disputes, 23.503
PLF liaisons, 23.500
Prosecution of claims, 23.503
Release of information to board, 23.502
Removal of PLF directors, 23.1
Reports to board, 23.501
Chief Executive Officer’s and Bar staff ’s
responsibilities, 23.507
Legislation/public policy, 12.5
Mediation of disputes, 23.503
Office location, 23.506
Reports
Annual report, 23.4
Board of Governors, to, 23.501
PUBLICATIONS PROGRAM
BarBooks™ online library, 16.300
Bar sections, 15.600, 15.602
Print publications discounts, 16.301
Voluntary Copyright Agreement, 16.302

App. 217
PUBLIC POLICY
See LEGISLATION/PUBLIC POLICY
PUBLIC RECORDS
Alternative formats for, 8.101(f )
Copies of, 8.101(e)
Disclosure of
Client Assistance Office’s records, 8.102
Disciplinary Board Clerk’s records, 8.102
Disciplinary Counsel Office’s records, 8.102
Disputes, 8.101(a)
Fees for, 8.101(b)-8.101(e)
Inspection policy, 8.100
Requests for, 8.101
PURPOSES OF STATE BAR
Overview of, 1.2
RECOGNITION AWARDS
See AWARDS
REFERENDA
Board of Governors, 3.6
House of Delegates, 3.6
REINSTATEMENT PROCEEDINGS
Collection of judgments, 18.3
Costs, recovery of, 18.3
Judicial proceedings, 8.202
Overview of, 6.103
Witnesses, Board members as, 2.603
RESERVE FUNDS
Capital Reserve Fund, 7.302(b)
General Fund, 7.300, 7.301
General Operating Reserve Fund, 7.302(a)
Separate funds, 7.300, 7.302

App. 218
RESOLUTIONS
House of Delegates, 3.3, 3.4
SECTIONS
Administrative services, 15.5
Amicus curiae briefs, 2.105
Bylaws, 15.3
CLE activities, 15.6. See also CONTINUING LEGAL
EDUCATION (CLE)
Donations, 15.401
Dues, 15.400
Formation of, 15.2
Grants, 15.7
Legislation, initiation of, 12.4
Meetings of, 8.202
Officers’ conflicts of interest. See CONFLICTS OF
INTEREST (BAR OFFICIALS)
Procurements by, 15.5
Publications production support services, 15.5
Purpose of, 15.1
State Bar funds, 7.300
SEMINAR PROGRAMS
Bar sections, 15.600, 15.602
Complimentary registration, 16.200
Expense reimbursements, 16.201
Planners’ expenses, 16.201
Product discounts, 16.200
Reduced registration, 16.200
Speakers’ expenses, 16.201
SPECIAL COMMISSIONS/TASK FORCES
Expense reimbursements, 7.500. See also EXPENSE
REIMBURSEMENTS
SPECIAL COMMITTEES
Generally, 14.1

App. 219
STATE BAR
Amendment of Bylaws, Article 28
Board of Governors. See BOARD OF GOVERNORS
Communications of. See COMMUNICATIONS OF
THE BAR
Defense of agents, employees, officers in disciplinary
proceedings, 2.107
Definition of, 1.1
Dues used for ideological/political causes,
12.601-12.603
Funds. See FUNDS (STATE BAR)
Indemnification of members, officers, etc., 2.106
Law Student Associates, Article 25
Legislation/public policy. See LEGISLATION/PUBLIC
POLICY
Logo
Bar-sponsored insurance, 17.2
CLE programs, 15.602
Media relations, 11.3
Members. See MEMBERS OF THE BAR
Mission of, 1.2
Office location, 7.6
Officials’ conflicts of interest. See CONFLICTS OF
INTEREST (BAR OFFICIALS)
Records of. See PUBLIC RECORDS
Staff
Conflicts of interest. See CONFLICTS OF
INTEREST (BAR OFFICIALS)
Professional Liability Fund responsibilities,
23.507
Sustainability of operations, Article 26
Tour agreements, 17.3
STATE BAR ACT
Definition of, 1.1

App. 220
STATE LAWYERS ASSISTANCE COMMITTEE
(SLAC)
Annual report of activities, 24.703
Authority of, 24.200
Complaints, 24.400
Composition of, 24.300
Confidentiality of information, 24.6, 24.701
Creation of, 24.1
Designees of
Confidentiality of information, 24.6, 24.701
Duty to report unethical conduct, 24.702
Intake designees, 24.402
Overview, 24.401
Intake designees, 24.402
Intake log, 24.6
Investigations, 24.5
Public meetings, 24.704
Purpose of, 24.1
Records of, 24.6
Referrals to, 24.400
Referred lawyer(s)
Meeting with, 24.404
Non-cooperation of, 24.700
Notice to, 24.403
Preliminary assessment of, 24.402
Professional evaluation of, 24.502
Release of information by, 24.501
Remedial action plan for, 24.503
STATE PROFESSIONAL RESPONSIBILITY
BOARD (SPRB)
Composition of, 18.101
Contacts with board, disclosure of, 18.104
Disciplinary Counsel Office
Reporting board activities, 18.100
Representation of board, 18.100

App. 221
Discipline of Bar members. See DISCIPLINE OF
MEMBERS
Duties of, 18.100
Expense reimbursements, 7.500, 18.102. See also
EXPENSE REIMBURSEMENTS
Meetings of, 8.202(b)
Replacement of members, 18.601
Separation of powers, 2.104
Suspension from service on, 18.600
SUPREME COURT
Annual budget, approval of, 7.202
SURVEYS/QUESTIONNAIRES
Members of the Bar, 11.5
SUSTAINABILITY AWARD
President’s Sustainability Award, 4.9
SUSTAINABILITY OF OPERATIONS
State Bar, Article 26
TOUR AGREEMENTS
Board of Governors, 17.3
TRANSPORTATION/TRAVEL COSTS
Expense reimbursements, 7.501(a), 7.501(b)
TREASURY OBLIGATIONS (U.S.)
Bar funds, investment of, 7.403
UNCLAIMED LAWYER TRUST ACCOUNTS
Adjudication of claims, 27.103
Administration of, 27.101
Disbursements from, 27.102
Purpose of, 27.100

App. 222
UNLAWFUL PRACTICE OF LAW
Board of Governors
Prosecution of actions by, 20.701(c)(1)
Referral to board, 20.701(c)
Complaints
Board of Governors’ actions, 20.701
Committee actions, 20.701
Disposition of, 20.701
Investigation of, 20.500
Processing of, 20.5
Records of, 20.8
Referral to other agencies, 20.701(d)
Resolution by agreement, 20.601
Definitions, 20.1
Education of public, 20.700
Informal Advisory Opinions, 20.701
Information letters, 20.501(b)
Investigations, 20.3
U.S. TREASURY OBLIGATIONS
Bar funds, investment of, 7.403
VICE PRESIDENT(S)
Definition of, 1.1
Duties of, 2.200(a)
Election of, 2.201(a), 2.201(c)
VISTA VOLUNTEERS
Bar dues. waiver of, 6.6
VOLUNTARY COPYRIGHT AGREEMENT
Publications program, 16.302
VOTING
Overview of, 9.3
President, for, 2.201(c)
President-elect, for, 2.201(c)
Vice-President(s), for, 2.201(c)

App. 223
WALLACE P. CARSON, JR. AWARD FOR
JUDICIAL EXCELLENCE
Overview of, 4.7
WRITE-OFFS
State Bar funds, 7.105

App. 224
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF OREGON
DANIEL Z. CROWE,
Case No. 3:18-cv-2139-JR
LAWRENCE K. PETERSON, JUDGMENT
and OREGON CIVIL
LIBERTIES ATTORNEYS, (Filed May 24, 2019)
Plaintiffs,
v.
OREGON STATE BAR,
OREGON STATE BAR
BOARD OF GOVERNORS,
VANESSA A. NORDYKE,
CHRISTINE CONSTANTINO,
HELEN HIERSCHBIEL,
KEITH PALEVSKY, and
AMBER HOLLISTER,
Defendants.
Michael H. Simon, District Judge.
Based on the Court’s Order,
IT IS ADJUDGED that this case is DISMISSED.
DATED this 24th day of May, 2019.
/s/ Michael H. Simon
Michael H. Simon
United States District Judge

App. 225
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF OREGON
DANIEL L. GRUBER,
et al.,

Case No. 3:18-cv-1591-JR

Plaintiffs,
v.
OREGON STATE BAR,
et al.,
Defendants.
DANIEL Z. CROWE, et al.,

Case No. 3:18-cv-2139-JR

Plaintiffs,
v.
OREGON STATE BAR,
et al.,
Defendants.
ORDER
(Filed May 24, 2019)
Michael H. Simon, District Judge.
On April 1, 2019, United States Magistrate Judge
Jolie A. Russo issued a single Findings and Recommendation in these two related cases. Judge Russo recommended that the Court grant Defendants’ motions to
dismiss in each case.
Under the Federal Magistrates Act (“Act”), the
Court may “accept, reject, or modify, in whole or in part,

App. 226
the findings or recommendations made by the magistrate.” 28 U.S.C. § 636(b)(1). If a party files objections
to a magistrate judge’s findings and recommendations,
“the court shall make a de novo determination of those
portions of the report or specified proposed findings or
recommendations to which objection is made.” Id.; Fed.
R. Civ. P. 72(b)(3).
For those portions of a magistrate judge’s findings
and recommendations to which neither party has objected, the Act does not prescribe any standard of
review. See Thomas v. Arn, 474 U.S. 140, 152 (1985)
(“There is no indication that Congress, in enacting [the
Act], intended to require a district judge to review a
magistrate’s report to which no objections are filed.”);
United States. v. Reyna-Tapia, 328 F.3d 1114, 1121 (9th
Cir. 2003) (en banc) (holding that the court must review de novo magistrate judge’s findings and recommendations if objection is made, “but not otherwise”).
Although in the absence of objections no review is required, the Magistrates Act “does not preclude further review by the district judge[] sua sponte . . .
under a de novo or any other standard.” Thomas, 474
U.S. at 154. Indeed, the Advisory Committee Notes to
Fed. R. Civ. P. 72(b) recommend that “[w]hen no
timely objection is filed,” the Court review the magistrate judge’s recommendations for “clear error on the
face of the record.”
Neither party objected in Case No. 3:18-cv-01591JR. In Case No. 3:18-cv-02139-JR, however, Plaintiffs
timely filed an objection. In that objection, Plaintiffs
argue that the Oregon State Bar is not entitled to

App. 227
Eleventh Amendment immunity and that Plaintiffs
have stated cognizable claims for violations of their
rights under the First and Fourteenth Amendments.
The Court has reviewed de novo those portions of
Judge Russo’s Findings and Recommendation to which
Plaintiffs have objected, as well as Defendants’ response. The Court agrees with Judge Russo that under
the factors set forth in Mitchell v. Los Angeles Cmty.
Coll. Dist., 861 F.2d 198 (9th Cir. 1998), the Oregon
State Bar is immune from suit under the Eleventh
Amendment. The Court also agrees with Judge Russo
that Plaintiffs have failed to raise any plausible constitutional violations. The Court therefore ADOPTS
those portions of the Findings and Recommendation.
Further, for those portions of Judge Russo’s Findings
and Recommendation to which neither party has objected, this Court follows the recommendation of the
Advisory Committee and reviews those matters for
clear error on the face of the record. No such error is
apparent.
The Court adopts Judge Russo’s Findings and Recommendation in Case No. 3:18-cv-1591-JR (ECF 44)
and Case No. 3:18-cv-2139-JR (ECF 29) and grants Defendants’ motions to dismiss in each case. The Court
denies Plaintiffs’ motion for partial summary judgment (ECF 18) in Case No. 3:18-cv-1591-JR.
IT IS SO ORDERED.

App. 228
DATED this 24th day of May, 2019.
/s/ Michael H. Simon
Michael H. Simon
United States District Judge

App. 229
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF OREGON
DIANE L. GRUBER
and MARK RUNNELS,
Plaintiffs,
v.

3:18-cv-1591-JR
FINDINGS &
RECOMMENDATION
(Filed Apr. 1, 2019)

OREGON STATE BAR,
a public corporation;
CHRISTINE COSTANTINO,
President of the Oregon State
Bar; HELEN HIERSCHBIEL,
Chief Executive Officer
of the Oregon State Bar,
Defendants.
3:18-cv-2139-JR
DANIEL Z CROWE;
LAWRENCE K PETERSON; FINDINGS &
OREGON CIVIL LIBERTIES RECOMMENDATION
ATTORNEYS, an Oregon
Nonprofit Corporation,
Plaintiffs,
v.
OREGON STATE BAR, a
public corporation; OREGON
STATE BAR BOARD OF
GOVERNORS; VANESSA
NORDYKE, President of the
Oregon State Bar Board of
Governors; CHRISTINE
COSTANTINO, President-elect

App. 230
of the Oregon State Bar
Board of Governors; HELEN
HIERSCHBIEL, Chief Executive
Officer of the Oregon State
Bar, KEITH PALEVSKY,
Director of Finance and
Operations of the Oregon
State Bar; AMBER HOLLISTER,
General Counsel for the
Oregon State Bar,
Defendants.
RUSSO, Magistrate Judge:
In these two related cases, members of the Oregon
State Bar (Bar) challenge the mandatory nature of the
Bar’s membership and compulsory fee structure. Both
cases name the Bar as well as the Bar’s president and
chief executive officer as defendants. Case number 182139-JR, also names the Oregon State Bar Board of
Governors, the Bar’s director of finance and operations,
and the Bar’s general counsel as defendants.
In case number 18-1591-JR, plaintiffs Bar members Diane Gruber and Mark Runnels seek a declaration that compulsory Bar membership dues violate
the First and Fourteenth Amendments of the United
States Constitution. Alternatively, these plaintiffs seek
damages to the extent the Bar failed to reduce the dues
which plaintiffs are compelled to pay for the Bar’s political or ideological activities in violation of the First
and Fourteenth Amendments.

App. 231
In case number 18-2139-JR, plaintiffs Bar members Daniel Crowe, Lawrence Peterson, and Oregon
Civil Liberties Attorneys similarly assert claims that
the Bar violates their constitutional rights by requiring membership in the Bar to practice law, using their
membership fees for political speech without consent,
and failing to implement safeguards to prevent the Bar
from engaging in political advocacy.
Defendants move to dismiss the respective actions. Plaintiffs Gruber and Runnels move for partial
summary judgment in case number 18-1591-JR. The
Oregon Attorney General submitted an amicus curiae
memorandum in support of the Bar’s position that the
cases should be dismissed. The court heard argument
on March 13, 2019. The motions to dismiss should be
granted and the motion for partial summary judgment
should be denied.
ALLEGATIONS
A. Gruber v. Oregon State Bar (18-1591-JR)
Plaintiffs allege they are compelled to pay various
fees, assessments, and dues as a condition of engaging
in the State regulated legal profession. First Amended
Complaint (doc. R) at ¶ 5. Plaintiffs further allege the
Bar engages in political and ideological activities with
which they do not agree such as issuing the following
statement in the April 2018 Oregon State Bar Bulletin:

App. 232
Statement on White Nationalism
and Normalization of Violence
As the United States continues to grapple
with a resurgence of white nationalism and
the normalization of violence and racism, the
Oregon State Bar remains steadfastly committed to the vision of a justice system that
operates without discrimination and is fully
accessible to all Oregonians. As we pursue
that vision during trines of upheaval, it is particularly important to understand current
events through the lens of our complex and often troubled history. The leery of that history
was seen last year in the streets of Charlottesville, and in the attacks on Portland’s
MAX train. We unequivocally condemn these
acts of violence,
We equally condemn the proliferation of
speech that incites such violence. Even as we
celebrate the great beneficial power of our
First Amendment, as lawyers we also know it
is not limitless. A systemic failure to address
speech that incites violence emboldens those
who seek to do harm, and continues to hold
historically oppressed communities in fear
and marginalization.
As a unified bar, we are mindful of the breadth
of perspectives encompassed in our membership. As such, our work will continue to focus
specifically on those issues that are directly
within our mission, including the promotion
of access to justice, the rule of law, and a
healthy and functional judicial system that

App. 233
equitably serves everyone. The current climate of violence., extremism and exclusion.
gravely threatens all of the above. As lawyers,
we administer the keys to the courtroom, and
assist our clients in opening doors to justice.
As stewards of the justice system, it is up to
us to safeguard the rule of law and to ensure
its fair and equitable administration. We
simply cannot lay claim to a healthy justice
system if whole segments of our society are
fearful of the very laws and institutions that
exist to protect them.
In today’s troubling climate, the Oregon State
Bar remains committed to equity and justice
for all, and to vigorously promoting the law as
the foundation of a just democracy. The courageous work done by specialty bars throughout
the state is vital to our efforts and we continue
to be both inspired and strengthened by those
partnerships. We not only refuse to become accustomed to this climate, we are intent on
standing in support and solidarity with those
historically marginalized, underrepresented
and vulnerable communities who feel voiceless within the Oregon legal system.
Id at ¶ 6 and p. 8.
The Bar also published in the same issue the following statement by the Oregon Specialty Bar Associations:

App. 234
Joint Statement of the Oregon
Specialty Bar Associations Supporting
the Oregon State Bars Statement
on White Nationalism and
Normalization of Violence
The Oregon Asian Pacific American Bar Association, the Oregon Women Lawyers, the Oregon Filipino American Lawyers Association,
OGALLA-The LGBT Bar Association of Oregon, the Oregon Chapter of the National Bar
Association, the Oregon Minority Lawyers
Association, and the Oregon Hispanic Bar
Association support the Oregon State Bar’s
Statement on White Nationalism and Normalization of Violence and its commitment to
the vision of a justice system that operates
without discrimination and is fully accessible
to all Oregonians.
Through the recent events from the Portland
MAX train attacks to Charlottesville, we have
seen an emboldened white nationalist movement gain momentum in the United States
and violence based on racism has become
normalized. President Donald Trump, as the
leader of our nation, has himself catered to
this white nationalist movement, allowing it
to make up the base of his support and providing it a false sense of legitimacy. He has allowed this dangerous movement of racism to
gain momentum, and we believe this is allowing these extremist ideas to be held up as part
of the mainstream, when they are not. For example, President Trump has espoused racist
comments, referring to Haiti and African

App. 235
countries as “shithole countries” and claiming that the United States should have more
immigrants from countries like Norway. He
signed an executive order that halted all refugee admissions and barred people from
seven Muslim-majority countries, called Puerto
Ricans who criticized his administration’s
response to Hurricane Maria “politically motivated ingrates,” said that the white supremacists marching in Charlottesville, North
Carolina in August of 2017 were “very fine
people,” and called into question a federal
judge, referring to the Indiana-born judge as
Mexican,” when the race of his parents had
nothing to do with the judge’s decision. We are
now seeing the white nationalist movement
grow in our state and our country under this
form of leadership.
As attorneys who lead diverse bar associations throughout Oregon, we condemn the violence that has occurred as a result of white
nationalism and white supremacy. Although
we recognize the importance of the First
Amendment of the United States Constitution and the protections it provides, we condemn speech that incites violence, such as
the violence that occurred in Charlottesville.
President Trump needs to unequivocally condemn racist and white nationalist groups.
With his continued failure to do so, we must
step in and speak up.
As attorneys licensed to practice law in Oregon, we took an oath to “support the Constitution and the laws of the United States and of

App. 236
the State of Oregon.” To that end, we have a
duty as attorneys to speak up against injustice, violence, and when state and federal laws
are violated in the name of white supremacy
or white nationalism, we must use all our resources, including legal resources, to protect
the rights and safety of everyone. We applaud
the Oregon State Bar’s commitment to equity
and justice by taking a strong stand against
white nationalism. Our bar associations pledge
to work with the Oregon State Bar and to
speak out against white nationalism and the
normalization of racism and violence.
Plaintiffs assert collection of compulsory fees, although authorized by Oregon statute, violates their
rights under the First and Fourteenth Amendments to
free speech, petition, and association. Id. at ¶¶ 16-18.
In the alternative, plaintiffs assert defendants violated
their First and Fourteenth Amendment rights by failing to reduce their dues for political or ideological activities of the Bar.
B. Crowe v. Oregon State Bar (18-2139-JR)
Plaintiffs Crowe, Peterson, and the Oregon Civil
Liberties Attorneys allege the State of Oregon requires
attorneys to join and pay fees to the Bar association in
order to practice law in the State. Complaint (doc. 1) at
¶2. Plaintiffs further allege a mandatory bar association such as Oregon’s must implement safeguards to
ensure members’ dues are used only for the narrow purpose of improving the quality of legal services through
the regulation of attorneys and not for political advocacy.

App. 237
Id. at ¶ 3. Plaintiffs further assert mandatory bars
must fund their political advocacy with money paid by
individuals who affirmatively consent to having their
money used for that purpose. Id. at ¶ 4
Plaintiffs allege the Bar uses mandatory member
fees to fund political speech without first obtaining
members’ consent. Id. at ¶ 5. Plaintiffs assert the Bar
does not publish information regarding the method for
determining whether a given allocation of funds was
used for purposes germane to “improving the quality of
legal services and regulating attorneys.” Id. at ¶34.
Moreover, plaintiffs assert the Bar uses mandatory
member fees to engage in legislative and policy advocacy which are not germane to the Bar’s purpose. Id. at
¶¶ 35-40.
Plaintiffs specifically object to the Bar’s April 2018
statement as noted above. Plaintiffs assert that statement constitutes political speech and they do not agree
with the “explicit and implicit criticism of . . . President
Trump” resulting from the inclusion of the Specialty
Bars’ subsequent statement. Id. at ¶¶ 41-44, 47. Plaintiffs assert they had no opportunity in advance to prevent their mandatory dues from being used to publish
the April 2018 Bar Bulletin and if asked they would
have declined to pay for publication of the statement.
Id. at ¶ 45, 48. Plaintiffs Crowe and Peterson contacted
the Bar’s chief executive and objected to the use of
their fees for that publication and received refunds in
the amount of $1.15 each. Id. at ¶¶ 49-51. Plaintiffs assert other Bar members similarly received refunds but

App. 238
the Bar has not informed plaintiffs how it calculated
the amounts of these partial refunds. Id. at ¶¶ 52-53.
Plaintiffs also allege the mandatory nature of the
Oregon State Bar violates their freedom of association
and asserts mandatory membership is not necessary
to ensure quality legal services or to regulate attorneys. Id. at ¶ 7 Plaintiffs also allege the Bar’s mandatory fees impinge on their right to free speech because
the Bar fails to provide:
(a) notice to members, including an adequate
explanation of the basis for the dues and calculations of all non-chargeable activities,
verified by an independent auditor; (b) a reasonably prompt decision by an impartial decision maker if a member objects to the way his
or her mandatory dues are being spent; and
(c) an escrow for the amounts reasonably in
dispute while such objections are pending.
Id. at ¶ 62, 64. Plaintiffs further allege that refunding
fees after an objection is made is insufficient. Id. at
¶ 65.
Finally, plaintiffs allege violation of their First and
Fourteenth Amendment rights to free speech because
the Bar has not implemented an “opt-in” system for
members to pay for non-germane speech. Id. at ¶¶ 7378. In addition, plaintiffs allege violation of their First
and Fourteenth Amendment rights to associate due to
compelled membership in the Bar. Id. at ¶¶ 80-88.

App. 239
DISCUSSION
Plaintiffs Gruber and Runnels filed their complaint
in the 18-1591-JR case on August 29, 2018. Defendants
moved to dismiss on October 22, 2018. Plaintiffs responded to the motion and filed their own motion for
summary judgment on November 5, 2018. Before the
parties completed briefing on the motions, on December 13, 2018, plaintiffs Crowe, Peterson, and the Oregon Civil Liberties Attorneys filed their complaint in
the 18-2139-JR case Plaintiffs Gruber and Runnels
then filed an amended complaint in the 18-1591-JR
case and on January 9, 2018, defendants moved to dismiss in both actions. Accordingly, defendants first motion to dismiss (doc. 14) in 18-1591-JR case should be
denied as moot.1 The motions to dismiss in both cases
involve the same issues and resolution of one motion
necessarily resolves the other.
A. The Oregon State Bar
In 1935, the Oregon Legislature enacted the State
Bar Act, Or. Rev. Stat. §§ 9.005-9.757. The Bar is a public corporation and an instrumentality of the Judicial Department of the State of Oregon. Or. Rev. Stat.
1

Plaintiffs in the 18-1591-JR case did not respond to the second motion to dismiss. However, their First Amended Complaint
only adds two defendants: the president and the chief executive
officer of the Bar, but otherwise remains the same. The second
motion to dismiss is made on the same grounds as the first. While
the motion is technically unopposed, because the analysis is the
same with respect to the motion to dismiss in the related 18-2139JR case, the court applies that analysis in both cases for purposes
of judicial economy.

App. 240
§9.010(2). To practice law in the State of Oregon, a lawyer must join the Bar and pay an annual membership
fee. Or. Rev. Stat. §§ 9.160(1); 9.191; 9.200. The State of
Oregon is not responsible for the debts of the Bar and
the financial needs of the Bar are met through the collection of membership fees. Or. Rev. Stat. §§ 9.010(6);
9.191(3).
The Bar’s Board of Governors is required to advance the science of jurisprudence and the improvement of the administration of justice. Or. Rev. Stat.
§ 9.080(1).2 To accomplish this mission, the Bar administers exams for admission to practice, examines a
member’s character and fitness, formulates and enforces rules of conduct, and requires continuing education and training of its members. Or. Rev. Stat.
§§ 9.210; 9.490; 9.114. In addition, the Bar provides the
public with general legal information and seeks to increase pro bono legal services. See, e.g., https://www.osbar.
org/public/; https://www.osbar.org/lsp; https://www.osbar.
org/probono/.
2

In addition, the Bar’s mission is “to serve justice by promoting respect for the rule of law, by improving the quality of legal
services, and by increasing access to justice. https://www.osbar.
org/docs/resources/OSBMissionStatement.pdf. The court takes
judicial notice of the Bar’s bylaws, Mission Statement, and other
official statements and documents for purposes of the motions to
dismiss. See Rhodes v. Sutter Health, 2012 WL 662462, at *3
(E.D. Cal. Feb. 28, 2012) (The court took judicial notice of a foundations bylaws because judicial notice of facts not subject to reasonable dispute is appropriate where they are either generally
known within the territorial jurisdiction of the trial court, or are
capable of accurate and ready determination by resort to sources
whose accuracy cannot reasonably be questioned.).

App. 241
As part of its mission, the Bar publishes a monthly
Bar Bulletin. The Bar’s communications within the
Bulletin:
should be germane to the law, lawyers, the
practice of law, the courts and the judicial system, legal education and the Bar in its role as
a mandatory membership organization. Communications, other than permitted advertisements, should advance public understanding
of the law, legal ethics and the professionalism
and collegiality of the bench and Bar.
Oregon State Bar Bylaws, Art. 11, Sec. 1 (http://www.
osbar.org/docs/rulesregs/bylaws.pdf ) (Bylaws). In addition:
Bar legislative or policy activities must be
reasonably related to any of the following subjects: Regulating and disciplining lawyers;
improving the functioning of the courts including issues of judicial independence, fairness, efficacy and efficiency; making legal
services available to society; regulating lawyer trust accounts; the education, ethics, competence, integrity and regulation of the legal
profession; providing law improvement assistance to elected and appointed government officials; issues involving the structure and
organization of federal, state and local courts
in or affecting Oregon; issues involving the
rules of practice, procedure and evidence in
federal, state or local courts in or affecting
Oregon; or issues involving the duties and

App. 242
functions of judges and lawyers in federal,
state and local courts in or affecting Oregon.
Id. at 12.1.
Defendants assert the complaints should be dismissed for the following reasons: the Bar is immune
from suit under the Eleventh Amendment to the
United States Constitution; integrated bars are constitutional and may use mandatory fees for political
speech germane to regulating attorneys and improving
legal services; affirmative consent is not necessary before a bar engages in speech germane to legal services;
the individual defendants are entitled to qualified immunity from claims for damages; and the Oregon State
Bar Board of Governors is not a legal entity capable of
being sued.
B. Eleventh Amendment Immunity
The Eleventh Amendment provides:
“The Judicial power of the United States shall
not be construed to extend to any suit in law
or equity, commenced or prosecuted against
one of the United States by Citizens of another State, or by Citizens or Subjects of any
Foreign State.”
The Amendment affirms the fundamental principle of
sovereign immunity which limits the grant of judicial
authority in Article III of the Constitution. Pennhurst
State School and Hospital v. Halderman, 465 U.S. 89,
98 (1984). A State’s Eleventh Amendment protection

App. 243
from suit has been extended to suits brought by a
State’s own citizens, Hans v. Louisiana, 134 U.S. 1, 10
(1890), and suits invoking the federal question jurisdiction of Article III. Seminole Tribe of Fla. v. Florida,
517 U.S. 44, 72-73 (1996).
A suit against a State agency is considered to be a
suit against the State, and is also barred by the Eleventh Amendment. Shaw v. California Dept. of Alcoholic
Beverage Control, 788 F.2d 600, 603 (9th Cir. 1986). In
addition, “[w]hen suit is commenced against state officials, even if they are named and served as individuals,
the State itself will have a continuing interest in the
litigation whenever State policies or procedures are at
stake.” Idaho v. Coeur d’Alene Tribe of Idaho, 521 U.S.
261, 269 (1997).
Defendants assert the Bar is an arm of the State
and thus is immune from suit.
To determine whether a governmental agency
is an arm of the state, the following factors
must be examined: whether a money judgment would be satisfied out of state funds,
whether the entity performs central governmental functions, whether the entity may sue
or be sued, whether the entity has the power
to take property in its own name or only the
name of the state, and the corporate status of
the entity. . . . To determine these factors, the
court looks to the way state law treats the entity.
Mitchell v. Los Angeles Cmty. Coll. Dist., 861 F.2d 198,
201 (9th Cir. 1988).

App. 244
The judges of this court have repeatedly and consistently held that the Bar is immune from suit under
the Eleventh Amendment. See, e.g., Hartfield v. Or.
State Bar, 2016 WL 9225978, at *1 (D.Or. Jan. 15,
2016), report and recommendation adopted, 2016 WL
9226386 (D.Or. Feb. 16, 2016), aff’d, 671 F.App’x 456
(9th Cir. 2016); Coultas v. Payne, 2012 WL 6725845, at
*3 (D.Or. Nov. 27, 2012), report and recommendation
adopted, 2012 WL 6726247, at *1 (D Or. Dec. 27, 2012);
Weidner v. Albertazzi, 2006 WL 2987704, at *1 (D.Or.
Oct. 13, 2006); Erwin v. Oregon ex rel. Kitzhaber, 231
F.Supp.2d 1003, 1007 (D.Or. 2001), aff’d, 43 F.App’x 122
(9th Cir. 2002)); see also Eardley v. Garst, 232 F.3d 894
(9th Cir. 2000) (claims against Oregon State Bar appropriately dismissed under Eleventh Amendment
immunity). An analysis of the Mitchell factors again
demonstrates the Bar is immune from suit in this case.
1. The Mitchell Factors
a. State Funds at Risk
As noted above, the Bar is a public corporation and
an instrumentality of the Judicial Department of the
State of Oregon. Or. Rev. Stat. §9.010(2). However, under the first Mitchell factor, a money judgment against
the Bar would not be satisfied out of State funds. Or.
Rev. Stat. § 9.010(6). Nonetheless, this factor is not necessarily critical in determining whether immunity applies in the cases at bar.3 The “Eleventh Amendment
3

Despite the Ninth Circuit has referring to this factor as
“most important,” cases so finding primarily involve claims for

App. 245
does not exist solely to ‘prevent federal court judgments that must be paid out of a State’s treasury.’ ”
Seminole Tribe of Fla, 517 U.S. at 58. As noted above,
the Eleventh Amendment not only bars suits at law,
but suits at equity as well and thus “the relief sought
by a plaintiff suing a State is irrelevant to the question
whether the suit is barred by the Eleventh Amendment.” Id. Here, plaintiffs primarily seek injunctive relief. Despite the fact the Bar alone is responsible for
any money damages it may incur, the Bar performs essential governmental functions including the collection of fees to perform those functions. Any money
judgment would come from the Bar’s collection of fees
that is made possible because the State authorized the

money damages whereas the cases at bar primarily involve requests for equitable relief. See e.g., Durning v. Citibank, N.A., 950
F.2d 1419, 1426 (9th Cir. 1991); see also Savage v. Glendale Union High Sch., Dist. No. 205, Maricopa Cty., 343 F.3d 1036, 1039
(9th Cir. 2003) (seeking compensatory and punitive relief); Hess
v. Port Auth. Trans-Hudson Corp., 513 U.S. 30, 48-49 (1994) (in
action seeking recovery under Federal Employers’ Liability Act,
recognizing majority of circuit courts find the vulnerability of the
State’s purse as the most salient factor in Eleventh Amendment
determinations). The Seventh Circuit in a suit involving the Wisconsin State Bar stated, “even without any impact on the state’s
treasury, the district court must consider whether the Bar occupies the position of a public agency or official, necessarily forbidding any suit in federal court.” Crosetto v. State Bar of Wisconsin,
12 F.3d 1396, 1402 (7th Cir. 1993). The Seventh Circuit later determined that the effect on the state treasury was the least important factor. Thiel v. State Bar of Wisconsin, 94 F.3d 399, 401
(7th Cir. 1996), overruled on other grounds by Kingstad v. State
Bar of Wis., 622 F.3d 708 (7th Cir. 2010).

App. 246
Bar to collect those fees.4 Accordingly, the money judgment sought by the plaintiffs, which is, the return of
fees already paid, is not a dispositive element militating against a finding of immunity under the Mitchell
factors.
b. Central Government Functions
The Oregon Legislature, through the State Bar
Act, has delegated traditional functions of the judiciary
to the Bar. See, e.g., Ramstead v. Morgan, 219 Or. 383,
399, 347 P.2d 594, 601 (1959) (noting the delegation of
traditional function of the judiciary in disciplining the
members of the bar serving under it through the former Or. Rev. Stat. § 9.550). As noted above, the State
Bar Act broadly provides for the regulation of the practice of law in the State of Oregon.
The Bar regulates admission to the practice of law
as well as the conduct of practicing attorneys in Oregon. See, e.g. Or. Rev. Stat. §§ 9.080; 9.114; 9.210;
9.490. The Oregon Supreme Court oversees the Bar’s
4

If the Bar were unable to collect mandatory fees, its ability
to regulate attorneys would be impacted. As discussed in the next
section, the Oregon Supreme Court would be left to carry out the
regulatory function which would certainly impact the State’s
funding. Thus, as a practical matter, plaintiffs’ success in these
actions will impact the State treasury. See Alaska Cargo Transp.,
Inc. v. Alaska R R Corp., 5 F.3d 378, 381, 382 (9th Cir. 1993) (even
though sued entity and not the State is liable for a judgment
against it, the entity’s finances are “in substantial respects . . .
dependent upon and controlled by the will of the governor and the
legislature,” and the State has a “strong interest in keeping [the
entity operational] and fiscally sound.”).

App. 247
regulatory activities, retaining original jurisdiction to
review decisions concerning admissions, reinstatement, and attorney discipline. Or. Rev. Stat. § 9.536.
The Supreme Court appoints the Bar’s presiding disciplinary adjudicator, as well as members of the Bar’s
Disciplinary Board, State Professional Responsibility
Board, Unlawful Practice of Law Committee, and the
Board of Bar Examiners. See Or. Rev. Stat. §§ 9.210,
9.532; B.R. 1.1, 2.3, 2.4, 12.1 (https://www.osbar. org/
docs/rulesregs/rulesofprocedure.pdf); Bylaws §§ 18.100,
28.1 (http://www.osbar.org/docs/rulesregs/bylaws.pdf ).
The Supreme Court approves any changes to the Bylaws that apply to admission to practice law in Oregon.
See Or. Rev. Stat. § 9.542; Bylaws § 28.6. The Supreme
Court also reviews all rules of procedure relating to the
admission to practice law, discipline, resignation, and
reinstatement of Bar members, and reviews the eligibility of candidates for the Board of Governors. Or. Rev.
Stat. §§ 9.005(7); 9.042. The Chief Justice reviews annual statements of the Bar’s financial position. Or. Rev.
Stat. § 9.100. The Supreme Court also approves the
Bar’s budget for admissions, discipline, and continuing legal education programs in conjunction with the
budgets of other Bar activities. Bylaws § 7.202.
The statutory structure of the State Bar Act and
various implementing regulations demonstrate that
the function of the Bar is to assume responsibilities
otherwise within the domain of the Oregon Supreme
Court. That statute further demonstrates that the Bar

App. 248
serves quintessential government functions.5 See, e.g.,
O’Connor v. State of Nev., 686 F.2d 749, 750 (9th Cir.
1982) (Nevada State bar is the investigative arm of the
Supreme Court of Nevada, charged with investigating
and disciplining the legal profession of the state, and
as such an agency, it too is immune from suit in federal
court under the Eleventh Amendment).
c. Sue or Be Sued
The third Mitchell factor, whether the purported
arm of the state may sue or be sued, militates somewhat against immunity. The Bar may sue or be sued.
Or. Rev. Stat. § 9.010(5). However, the State Bar Act
limits the ability to sue the Bar in certain respects. See
Or. Rev. Stat. § 9.537 (providing absolute immunity to
the Bar, Bar officers, and other Bar entities from civil
liability in the performance of their duties relative to
proposed or pending admission, professional licensing
requirements, reinstatement, or disciplinary proceedings); Or. Rev. Stat. § 9.657 (providing immunity from
5

Plaintiffs assert the “advisory nature of the Bar’s relationship with the State Supreme Court undercuts a finding that the
Bar performs central government functions” citing Keller v. State
Bar of California, 496 U.S. 1, 11 (1990) (noting the functions of
the California State Bar are actually reserved by California law
to the State Supreme Court). The fact that decisions of the Bar
are reviewed by the Oregon Supreme Court does not make those
functions any less governmental in form. State administrative
agencies’ decisions are often subject to review without stripping
the agency of their governmental duties. Moreover, such argument neglects to consider the State Legislature’s choice to relieve
the Supreme Court of these functions which may otherwise impinge on its ability to perform its other duties.

App. 249
civil liability for the performance of duties relative to
proposed or pending client security fund claims). Thus,
this factor does not argue against immunity from suit
in federal court.
d. Power to Take Property in its Own Name
Pursuant to the fourth Mitchell factor, the court
considers whether the Bar has the power to take property in its own name or in the name of the State. The
Bar “may, in its own name, for the purpose of carrying
into effect and promoting its objectives, enter into contracts and lease, acquire, hold, own, encumber, insure,
sell, replace, deal in and with and dispose of real and
personal property.” Or. Rev. Stat. § 9.010. As such, this
factor somewhat weighs against immunity See Beentijes v. Placer Cty. Air Pollution Control Dist., 397 F.3d
775, 784 (9th Cir. 2005) (California law authorizes
County Pollution Control District to “take by grant,
purchase, gift, devise, or lease, to hold, use, and enjoy,
and to lease or dispose of any real or personal property
within or without the district necessary to the full exercise of its powers” weighed in favor finding district
not an arm of the state). Nonetheless, the Bar’s power
to take property in its own name is in furtherance of
its objectives which are classified as governmental
functions to aid the Supreme Court in regulating attorneys. See Belanger v. Madera Unified Sch. Dist., 963
F.2d 248, 254 (9th Cir. 1992) (because beneficial ownership of public schools’ property held in a district’s
own name enures to the State, this factor is entitled
to little weight in the overall balance). Moreover, the

App. 250
Bar’s ability to hold property in its own name is limited
in some respects. For instance, while the Bar may take
possession of abandoned client funds held in trust accounts, those funds belong to the State. Or. Rev. Stat.
§§ 98.386(2); 98.304. Accordingly, this factor also fails
to demonstrate lack of immunity.
e. Corporate Status
As to the fifth Mitchell factor, “the Oregon State
Bar is a public corporation and an instrumentality of
the Judicial Department of the government of the
State of Oregon.” Or. Rev. Stat. 9.010. This again demonstrates the central governmental role the Bar plays in
concert with the Oregon Supreme Court. Indeed, the
Oregon Supreme Court has determined that this language establishes the Bar is itself a State agency. State
ex rel. Frohnmayer v. Oregon State Bar, 307 Or. 304,
309, 767 P.2d 893, 895 (1989).
Despite the independent financial status vested in
the Bar through the State Bar Act, the legislature intended it to perform central government functions in
concert with the Oregon Supreme Court and as such it
is an arm of the state entitled to Eleventh Amendment
Immunity.
However, the individual defendants, to the extent
plaintiffs seek prospective injunctive relief, do not enjoy similar immunity. See Coeur d’Alene Tribe of Idaho,
521 U.S. at 276-77 (“where prospective relief is sought
against individual state officers in a federal forum
based on a federal right, the Eleventh Amendment, in

App. 251
most cases, is not a bar.”). Nonetheless, as the law currently stands with respect to integrated bars, compulsory fees and mandatory membership do not violate
the First and Fourteenth Amendments. This is true
even if the Bar engages in political speech so long as
the speech is germane to regulating the legal profession and improving the quality of legal services. In addition, to the extent the Bar has proper procedural
safeguards in place to ensure members are not required to fund non-germane speech, the First Amendment is not violated.
C. Compulsory Bar Membership and Mandatory
Fees
1. Integrated Bar Specific Case Law
In 1961, a plurality of the Supreme Court determined:
that the Supreme Court of Wisconsin, in order
to further the State’s legitimate interests in
raising the quality of professional services,
may constitutionally require that the costs
of improving the profession in this fashion
should be shared by the subjects and beneficiaries of the regulatory program, the lawyers,
even though the organization created to attain the objective also engages in some legislative activity. Given the character of the
integrated bar shown on this record, in the
light of the limitation of the membership requirement to the compulsory payment of reasonable annual dues, we are unable to find

App. 252
any impingement upon protected rights of association.
Lathrop v. Donohue, 367 U.S. 820, 843 (1961). However,
the Court provided no opinion as to the correctness of
the Wisconsin Supreme Court’s conclusion that the appellant may be constitutionally compelled to contribute financial support to political activities which he
opposes. Id. at 847-48.
In 1990, the Supreme Court affirmed the requirement that lawyers admitted to practice in a State may
be required to join and pay dues to the State Bar. Keller v. State Bar of California, 496 U.S. 1, 4 (1990). However, the specific issue before Keller was the scope of
permissible dues-financed activities in which the State
Bar may engage. The Court noted that in Abood v. Detroit Board of Education, 431 U.S. 209, 235-36 (1977),
a public union could not use a dissenting union member’s dues for ideological activities not “germane” to the
purpose for which compelled association was justified:
collective bargaining. Keller, 496 U.S. at 9, 13. Accordingly, Keller determined that a State Bar
may therefore constitutionally fund activities
germane to those goals out of the mandatory
dues of all members. It may not, however, in
such manner fund activities of an ideological
nature which fall outside of those areas of activity.
Id. at 14.
In 1994, the Ninth Circuit recognized that Lathrop
and Keller upheld the constitutionality of integrated

App. 253
bars and that an integrated bar may constitutionally
fund activities germane to regulating the legal profession and improving the quality of legal services. O’Connor v. State of Nev., 27 F.3d 357, 361 (9th Cir. 1994).
In 2014, the Supreme Court determined non-union home health care workers (who were not fullfledged public employees) represented by a public union in collective bargaining could not be compelled to
pay dues unless the fee provision passes exacting First
Amendment scrutiny. Harris v. Quinn, 573 U.S. 616,
648 (2014). The Court then addressed whether:
a refusal to extend Abood to cover the situation presented in this case will call into question our decisions in Keller v. State Bar of
Cal., 496 U.S. 1, . . . (1990). . . . [It does not].
In Keller, we considered the constitutionality
of a rule applicable to all members of an “integrated” bar, i.e., “an association of attorneys in
which membership and dues are required as
a condition of practicing law.” 496 U.S., at
5. . . . We held that members of this bar could
not be required to pay the portion of bar dues
used for political or ideological purposes but
that they could be required to pay the portion
of the dues used for activities connected with
proposing ethical codes and disciplining bar
members. Id.. at 14. . . .
This decision fits comfortably within the
framework applied in the present case. Licensed attorneys are subject to detailed ethics
rules, and the bar rule requiring the payment
of dues was part of this regulatory scheme.

App. 254
The portion of the rule that we upheld served
the “State’s interest in regulating the legal
profession and improving the quality of legal
services.” Ibid. States also have a strong interest in allocating to the members of the bar, rather than the general public, the expense of
ensuring that attorneys adhere to ethical
practices. Thus, our decision in this case is
wholly consistent with our holding in Keller.
Harris at 655-56.
To date, neither the Ninth Circuit nor the Supreme Court has recognized that Lathrop or Keller
have been abrogated and in fact, the Ninth Circuit has
affirmed the continuing application of these cases as
recently as March 13, 2018. See Caruso v. Washington
State Bar Ass’n 1933, 716 F. App’x 650, 651 (9th Cir.
2018) (district court properly dismissed the action citing Keller and Lathrop). Nonetheless, plaintiffs assert
the Supreme Court’s recent decision in Janus v. Am.
Fed’n of State, Cty., & Mun. Employees, Council 31, 138
S. Ct. 2448 (2018) now controls the analysis of First
Amendment issues as applied to integrated bars.
2. The Janus Decision
On June 27, 2018, the Court issued its decision in
Janus overruling Abood, 431 U.S. 209. Specifically, the
Court held:
Neither an agency fee nor any other payment
to the union may be deducted from a nonmember’s wages, nor may any other attempt be

App. 255
made to collect such a payment, unless the
employee affirmatively consents to pay. By
agreeing to pay, nonmembers are waiving
their First Amendment rights, and such a
waiver cannot be presumed. . . . Rather, to be
effective, the waiver must be freely given and
shown by “clear and compelling” evidence. . . .
Unless employees clearly and affirmatively
consent before any money is taken from them,
this standard cannot be met.
Id. at 2486. The Court found the State’s interest in
“labor peace,” while compelling, could be achieved
through less restrictive means. Id. at 2465-66.
Accordingly, plaintiffs assert not only does mandatory bar membership and compulsory fees fail the exacting scrutiny standard described in Janus,6 but
because the Bar does not obtain members’ affirmative
consent before using their fees for political or ideological speech, the compulsory nature of the Bar’s
membership and fees further violates their First
Amendment rights. However, because Keller has not
been abrogated, this court is bound to follow its dictates as it is directly applicable to the cases at bar.
The Supreme Court has determined that exacting
scrutiny is wholly consistent with the holding in Keller.
Harris at 655-56. With respect to affirmative consent
before using compulsory Bar dues for political speech,
6

Under exacting scrutiny, a compelled subsidy must “serve
a compelling state interest that cannot be achieved through
means significantly less restrictive of associational freedoms. Janus, 138 S.Ct. at 2465.

App. 256
the Supreme Court has made no such proclamation
and therefore this court is prohibited from assuming
that Janus impliedly overruled Keller:
We do not acknowledge, and we do not hold,
that other courts should conclude our more recent cases have, by implication, overruled an
earlier precedent. We reaffirm that “[i]f a precedent of this Court has direct application in a
case, yet appears to rest on reasons rejected in
some other line of decisions, the Court of Appeals should follow the case which directly
controls, leaving to this Court the prerogative
of overruling its own decisions.”
Agostini v. Felton, 521 U.S. 203, 237, 117 S. Ct. 1997,
2017, 138 L. Ed. 2d 391 (1997).
The district court properly dismissed Eugster’s
claims relating to his compulsory membership
in the WSBA because an attorney’s mandatory membership with a state bar association is constitutional. See Keller v. State Bar
of Cal., 496 U.S. 1, 13, 110 S.Ct. 2228, 110
L.Ed.2d 1 (1990) (“[T]he compelled association and integrated bar are justified by the
State’s interest in regulating the legal profession and improving the quality of legal services.”); Lathrop v. Donohue, 367 U.S. 820, 843,
81 S.Ct. 1826, 6 L.Ed.2d 1191 (1961) (Brennan, J, plurality opinion) (state bar association may constitutionally require compulsory
membership and payment of dues without impinging on protected rights of association).
Contrary to Eugster’s contentions, this court
cannot overrule binding authority because

App. 257
“[a] decision of the Supreme Court will control
that corner of the law unless and until the Supreme Court itself overrules or modifies it.”
Hart v. Massanari, 266 F.3d 1155, 1171 (9th
Cir. 2001).
Eugster v. Washington State Bar Ass’n, 684 F. App’x
618, 619 (9th Cir.), cert. denied, 137 S. Ct. 2315 (2017).
Accordingly, this court should decline to apply Janus and must apply Keller to the cases at bar.7 Applying Keller demonstrates that plaintiffs’ claims fail as a
matter of law and should be dismissed.
3. Keller Application
As noted above, Keller permits the use of compulsory membership dues to fund speech germane to regulating the legal profession and improving the quality
of legal services. Arguably, the statement attributed to
the Bar in the April 2018 Bar Bulletin is germane to
that purpose. Plaintiffs assert the statement is nongermane political speech that condemns the proliferation of speech that incites violence and advocates taking action to stop such speech. But to the extent such
an interpretation is reasonable, it was made within the
7

The fact that the Supreme Court recently remanded to the
Eighth Circuit a case involving mandatory bar membership for
further consideration in light of Janus does not alter the requirement that this court follow direct Supreme Court precedent. See
Fleck v. Wetch, 139 S. Ct. 590 (2018) (remanded to the United
States Court of Appeals for the Eighth Circuit for further consideration in light of Janus,138 S.Ct. 2448). The remand does not
indicate the Supreme Court will ultimately overrule Keller.

App. 258
specific context of promotion of access to justice, the
rule of law, and a healthy and functional judicial system that equitably serves everyone (“the [Bar] remains
committed to equity and justice for all, and to vigorously promoting the law as the foundation of a just democracy”). This is germane to improving the quality of
legal services. See Gardner v. State Bar of Nevada, 284
F.3d 1040, 1043 (9th Cir. 2002) (statements “to advance
understanding of the law, the system of justice, and the
role of lawyers, as opposed to nonlawyers, to make the
law work for everyone” are germane to improving of
the legal profession).
The Specialty Bars’ Statement appearing along
side the Bar’s statement in the April 2018 Bar publication is not a statement by the Bar, but instead a statement authored by seven affinity bars announcing their
support of the Bar’s statement, among other statements. Although the Specialty Bars’ Statement included rhetoric critical of the President, the Bar
Bulletin routinely publishes statements from a variety
of authors with differing political viewpoints and creates a forum for the exchange of ideas pertaining to the
practice of law. This service also is germane to improving the quality of legal services. However, even assuming the Specialty Bars’ Statement includes political
speech that is not germane to a permissible topic, and
it is a statement made on behalf of the Bar and consequently compelled speech of its members, it still would
not violate the First Amendment because the Bar has
adequate safeguards in place to protect members’ use
of dues in this manner.

App. 259
As noted above, communications within the Bulletin:
should be germane to the law, lawyers, the
practice of law, the courts and the judicial system, legal education and the Bar in its role as
a mandatory membership organization. Communications, other than permitted advertisements, should advance public understanding
of the law, legal ethics and the professionalism
and collegiality of the bench and Bar.
Bylaws, 11.1 (http://www.osbar.org/docs/rulesregs/bylaws.
pdf ).8
To the extent such communications fail to adhere
to this policy, the Bylaws provide a framework for addressing those communications:
Section 12.6 Objections to Use of Bar Dues
Subsection 12.600 Submission
A member of the Bar who objects to the use
of any portion of the member’s bar dues for
activities he or she considers promotes or
opposes political or ideological causes may request the Board to review the member’s concerns to determine if the Board agrees with
the member’s objections. Member objections
must be in writing and filed with the Chief
Executive Officer of the Bar. The Board will
8

Plaintiffs also challenge the Bar’s general legislative policy.
However, the Bylaws also provide that the Bar’s legislative or policy activities must be reasonably related to topics related to the
legal profession. See Bylaws 12.1. Accordingly, this claim fails as
a matter of law.

App. 260
review each written objection received by the
Chief Executive Officer at its next scheduled
board meeting following receipt of the objection. The Board will respond through the
Chief Executive Officer in writing to each objection. The Board’s response will include an
explanation of the Board’s reasoning in agreeing or disagreeing with each objection.
Subsection 12.601 Refund
If the Board agrees with the member’s objection, it will immediately refund the portion of
the member’s dues that are attributable to the
activity, with interest paid on that sum of
money from the date that the member’s fees
were received to the date of the Bar’s refund.
The statutory rate of interest will be used. If
the Board disagrees with the member’s objection, it will immediately offer the member the
opportunity to submit the matter to binding
arbitration between the Bar and the objecting
member. The Chief Executive Officer and the
member must sign an arbitration agreement
approved as to form by the Board.
Subsection 12.602 Arbitration
If an objecting member agrees to binding arbitration, the matter will be submitted to the
Oregon Senior Judges Association (“OSJA”)
for the designation of three active-status retired judges who have previously indicated a
willingness to serve as volunteer arbitrators
in these matters. The Bar and the objecting
member will have one peremptory challenge
to the list of arbitrators. The Bar and the

App. 261
objecting member must notify one another of
a peremptory challenge within seven days after receiving the list of proposed arbitrators.
If there are no challenges or only one challenge, the OSJA will designate the arbitrator.
The arbitrator will promptly arrange for an
informal hearing on the objection, which may
be held at the Oregon State Bar Center or at
another location in Oregon that is acceptable
to the parties and the arbitrator. The hearing
will be limited to the presentation of written
information and oral argument by the Bar
and the objecting member. The arbitrator will
not be bound by rules of evidence. The presentation of witnesses will not be a part of the
hearing process, although the arbitrator may
ask the state bar representative and the objecting member and his or her lawyer, if any,
questions. The hearing may be reported, but
the expense of reporting must be borne by the
party requesting it. The Bar and the objecting
member may submit written material and a
legal memorandum to the arbitrator no later
than seven days before the hearing date. The
arbitrator may request additional written material or memoranda from the parties. The arbitrator will promptly decide the matter,
applying the standard set forth in Keller v.
State Bar of California, 496 U.S. 1, 110 S. Ct.
2228, 110 L. Ed. 2d 1 (1990), to the expenditures to which the member objected. The
scope of the arbitrator’s review must solely be
to determine whether the matters at issue are
acceptable activities for which compulsory fees
may be used under applicable constitutional

App. 262
law. In making his or her decision, the arbitrator must apply the substantive law of Oregon
and of the United States Federal Courts. The
arbitrator must file a written decision with
the Chief Executive Officer within 14 days
after the hearing. The arbitrator’s decision
is final and binding on the parties. If the arbitrator agrees with the member’s objection, the
Bar will immediately refund the portion of the
member’s dues that are reasonably attributable to the activity, with interest at the statutory rate paid on the amount from the date
that the member’s fees were received to the
date of the Bar’s refund. If the arbitrator
agrees with the Bar, the member’s objection is
denied and the file in the matter closed. Similar or related objections, by agreement of the
parties, may be consolidated for hearing before one arbitrator.
Oregon State Bar Bylaws, Art. 12, Sec. 6 (http://www.
osbar.org/ docs/rulesregs/bylaws.pdf ).
To comply with Keller’s safeguard requirements
for the collection of fees, the Bar must include an adequate explanation of the basis for the fee, provide a reasonably prompt opportunity to challenge the amount of
the fee before an impartial decisionmaker, and provide
an escrow account for the amounts reasonably in dispute while such challenges are pending. Keller 496
U.S. at 16 (citing Teachers v. Hudson, 475 U.S. 292
(1986)). Because the Bar specifically mandates that all
communications must be germane to the law, it has instituted the above procedure only when a member

App. 263
believes the Bar has violated that mandate. As Keller
noted,
We believe an integrated bar could certainly
meet its Abood obligation by adopting the sort
of procedures described in Hudson. Questions
whether one or more alternative procedures
would likewise satisfy that obligation are better left for consideration upon a more fully developed record.
Id. at 17.
The Bar’s Bylaws procedure provides adequate
safeguards as contemplated by Keller. The basis for the
fee does not present itself until a Bar member objects
and if the Bar agrees, it immediately refunds the fee
attributable to the activity including any interest
earned on that fee. Such procedure satisfies the escrow
requirement of the safeguards and the opportunity to
promptly challenge the fee. If the Bar member disagrees with the decision he or she may then seek arbitration where, if the Bar has not already explained its
decision, the member will receive an explanation of the
fee decision and have the opportunity to resolve the issue before an impartial decisionmaker.
Nothing in Hudson’s procedures mandate affirmative consent prior to collecting the fee. This is especially true where the Bar’s policy already mandates
that all communications must be germane to the legal
profession. Moreover, the Bar provides all members
with an annual accounting of both projected and actual
expenses, allowing a member an opportunity to object

App. 264
if they believe an upcoming expense fails to comply
with the Bylaws regarding germane communications.
See Or. Rev. Stat. § 9.100 (requiring financial statement submission to the Chief Justice); Bylaws § 7.2
(Board of Governors’ review of proposed budget during
public meetings).
Certain plaintiffs challenge the lack of explanation concerning their refunds upon objecting to the
statements in the April 2018 Bar Bulletin. However,
plaintiffs did not avail themselves of the very procedures that would have provided that explanation and
thus they cannot now allege a set of facts that would
demonstrate the Bar, in its application of its Bylaws,
violated their constitutional rights to procedural safeguards concerning the use of their fees for compelled
speech.
Because the Bar has adequate procedural safeguards in place to protect against compelled speech
and because mandatory Bar membership and compulsory fees do not otherwise violate the First Amendment, plaintiffs’ claims necessarily fail as a matter of
law based on the face of the pleadings and judicially
noticed facts. Accordingly, all claims should be dismissed.
E. Qualified Immunity
Plaintiffs concede the individual defendants are
immune from suit for damages and thus the motion to
dismiss based on qualified immunity is moot.

App. 265
F. Board of Governors
Plaintiffs also concede the claims against the
Board of Governors should be dismissed.
G. Motion for Partial Summary Judgment (18-1591,
Doc. 18)
Plaintiffs’ motion relies on Janus overruling Keller and as noted above, this court cannot make that
determination. Accordingly, the motion for partial
summary judgment should be denied.
CONCLUSION
A. Gruber v. Oregon State Bar, 18-cv-1591-JR
Defendants’ motion to dismiss (doc. 14) should be
denied as moot. Defendants’ motion to dismiss (doc. 41)
should be granted. Plaintiffs’ motion for partial summary judgment (doc. 18) should be denied. The case
should be dismissed and a judgment should be entered.
B. Crowe v. Oregon State Bar, 18-cv-2139-JR
Defendants’ motion to dismiss (doc. 15 should be
granted. The case should be dismissed and a judgment
should be entered.
This recommendation is not an order that is immediately appealable to the Ninth Circuit Court of appeals. Any notice of appeal pursuant to Rule 4(a)(1),
Federal Rules of Appellate Procedure, should not be
filed until entry of the district court’s judgment or

App. 266
appealable order. The parties shall have fourteen (14)
days from the date of service of a copy of this recommendation within which to file specific written objections with the court. Thereafter, the parties shall have
fourteen (14) days within which to file a response to
the objections. Failure to timely file objections to any
factual determination of the Magistrate Judge will be
considered as a waiver of a party’s right to de novo consideration of the factual issues and will constitute a
waiver of a party’s right to appellate review of the findings of fact in an order or judgment entered pursuant
to this recommendation.
DATED this 1st day of April, 2019.
/s/ Jolie A. Russo
JOLIE A. RUSSO
United States
Magistrate Judge

App. 267
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF OREGON
PORTLAND DIVISION
DANIEL Z. CROWE;
LAWRENCE K. PETERSON;
and OREGON CIVIL
LIBERTIES ATTORNEYS,
an Oregon Nonprofit
Corporation,
Plaintiffs,

Case No. 3:18-cv-02139
CIVIL RIGHTS
COMPLAINT FOR
INJUNCTIVE AND
DECLARATORY
RELIEF AND
DAMAGES

42 U.S.C. § 1983
(Freedom of Speech)
OREGON STATE BAR, a
42 U.S.C. § 1983
Public Corporation; OREGON
(Freedom of
STATE BAR BOARD OF
Association)
GOVERNORS; VANESSA
42 U.S.C. § 1988
NORDYKE, President of the
(Attorney Fees)
Oregon State Bar Board of
(Filed Dec. 13, 2018)
Governors; CHRISTINE
CONSTANTINO, Presidentelect of the Oregon State
Bar Board of Governors;
HELEN HIERSCHBIEL,
Chief Executive Officer of
the Oregon State Bar;
KEITH PALEVSKY, Director
of Finance and Operations
of the Oregon State Bar;
AMBER HOLLISTER,
General Counsel for the
Oregon State Bar,
v.

Defendants.

App. 268
1. This civil rights lawsuit seeks to protect the
First and Fourteenth Amendment rights of Oregon attorneys who have been forced to join the Oregon State
Bar (“OSB”) and to pay for political advocacy by the
OSB that they do not wish to support.
2. The State of Oregon requires attorneys to join
and pay fees to a bar association, the Oregon State Bar
(“OSB”), to be allowed to practice law in the state. ORS
9.160, 9.191.
3. Under U.S. Supreme Court precedent, a mandatory bar association such as the OSB must implement safeguards to ensure that members’ dues are
used only for the narrow purpose of improving the
quality of legal services through the regulation of attorneys—not for political advocacy. See Keller v. State
Bar of Cal., 496 U.S. 1 (1990).
4. Supreme Court precedent also requires a
mandatory association such as the OSB to fund its political advocacy with money paid by people who affirmatively consented to having their money used for that
purpose. See Janus v. Am. Fed’n of State, Cnty., & Mun.
Emps., Council 31, 138 S. Ct. 2448, 2486 (2018).
5. The OSB, however, has not implemented procedures to ensure that members’ mandatory fees are
not used for political advocacy, and it has used mandatory fees to fund political speech without obtaining
members’ affirmative consent in advance.
6. For example, the OSB used mandatory member fees to publish statements in the April 2018 issue

App. 269
of its Bar Bulletin that criticized President Donald
Trump. Plaintiffs Daniel Crowe and Lawrence Peterson, who are Oregon attorneys, would not have chosen
to fund that criticism but had no opportunity to prevent their mandatory dues from being used to pay for
it.
7. In addition, Oregon’s statute requiring attorneys to become OSB members is unconstitutional because it violates attorneys’ First Amendment right to
freedom of association and is not necessary to ensure
the quality of legal services and regulate attorneys.
8. This lawsuit therefore asks this Court to declare Oregon’s mandatory bar membership unconstitutional, or to order Defendants to adopt procedures to
prevent members’ mandatory fees from being used for
political speech and other activities unrelated to improving the quality of legal services and regulating attorneys without the members’ affirmative consent.
JURISDICTION AND VENUE
9. This action is brought under 42 U.S.C. §§ 1983
and 1988.
10. This Court has subject matter jurisdiction
over Plaintiffs’ claims under 28 U.S.C. §§ 1331 and
1343.
11. This Court has authority to grant declaratory and other relief under 28 U.S.C. §§ 2201 and 2202.

App. 270
12. Venue is appropriate under 28 U.S.C. § 1391
and LR 3-2 because a substantial part of the events
giving rise to the claim occurred in this District, and
because Defendants operate or do business in this judicial District.
13. Divisional venue lies with the Portland Division as a substantial part of the events giving rise to
the claim occurred within the Portland Division, Plaintiff Peterson resides in the Portland Division, and
Plaintiff Oregon Civil Liberties Attorneys has its principal place of business in the Portland Division.
PARTIES
14. Plaintiff Daniel Z. Crowe is a citizen of the
United States and resides in Marion County, Mt. Angel, Oregon. Plaintiff Crowe is a duly licensed attorney
under the laws of Oregon and is a member of OSB because membership is a mandatory prerequisite to
practice law in the State of Oregon under ORS 9.160.
15. Plaintiff Crowe has paid annual dues to the
OSB since approximately 2014.
16. Plaintiff Lawrence K. Peterson is a citizen of
the United States and resides in Clackamas County,
Lake Oswego, Oregon. Plaintiff Peterson is a duly licensed attorney under the laws of Oregon and is a
member of OSB because membership is a mandatory
prerequisite to practice law in the State of Oregon under ORS 9.160.

App. 271
17. Plaintiff Peterson has paid annual dues to
the OSB since 1984.
18. Plaintiff Oregon Civil Liberties Attorneys
(“ORCLA”) is a domestic nonprofit corporation with its
principal place of business in Clackamas County, Lake
Oswego, Oregon. All members of ORCLA are citizens
of the United States, duly licensed attorneys under the
laws of Oregon, and members of OSB because membership is a mandatory prerequisite to practice law in the
State of Oregon pursuant to ORS 9.160.
19. Defendant Oregon State Bar is a public corporation established under ORS 9.010.
20. Defendant Oregon State Bar Board of Governors (the “Board”) is charged with the executive functions of OSB and with “direct[ing] its power to the
advancement of the science of jurisprudence and the
improvement of the administration of justice.” ORS
9.080(1). The Board has authority to “adopt, alter,
amend and repeal bylaws and to adopt new bylaws
containing provisions for the regulation and management of the affairs of the state bar not inconsistent
with law.” Id. The Board governs OSB, determines
the general policies of OSB, approves OSB’s annual
budget, and appoints OSB’s Executive Director. The
Board is a final policy maker regarding how OSB functions.
21. Defendant Vanessa Nordyke is President of
the Board and, in that position, is responsible for
creating and implementing procedural safeguards required to ensure member dues are used only for

App. 272
“chargeable” activities—meaning only those germane
to improving the quality of legal services through the
regulation of attorneys. Defendant Nordyke also participates in determining OSB positions on legislation
and ballot measures as a member of both the Board
and OSB’s Legislative Committee. Defendant Nordyke
is responsible for enforcing the laws requiring membership and funding of OSB as a prerequisite to practicing law in the State of Oregon. Defendant Nordyke
is implementing and enforcing the unconstitutional
practices and policies complained of in this action, acting under the color of state law.
22. Defendant Christine Constantino is Presidentelect of the Board and a member of the OSB’s Budget
and Finance Committee. The Budget and Finance
Committee is tasked with overseeing the Board’s financial operations, making recommendations to the
Board regarding annual budgets and assessments,
managing OSB’s reserves and investments, receiving
biennial audits, and providing guidance on long-range
forecasts, operating expenses and capital purchases.
Defendant Constantino is implementing and enforcing the unconstitutional practices and policies complained of in this action, acting under the color of state
law.
23. Defendant Helen Hierschbiel is the Chief
Executive Officer and Chief Executive Director of OSB.
In that position, appointed by and acting under the
supervision of the Board, Defendant Hierschbiel implements, administers, and supervises OSB’s operation and program activities, managing a staff of

App. 273
approximately 90 individuals and an $11 million annual budget. Defendant Hierschbiel is implementing
and enforcing the unconstitutional practices and policies complained of in this action, acting under the color
of state law.
24. Defendant Keith Palevsky is OSB’s Director
of Finance and Operations and a member of OSB’s
Budget and Finance Committee. Defendant Palevsky
is implementing and enforcing the unconstitutional
practices and policies complained of in this action, acting under the color of state law.
25. Defendant Amber Hollister is OSB’s General
Counsel and, in that position, is responsible for providing legal advice to the OSB and the Board. Defendant
Hollister is implementing and enforcing the unconstitutional practices and policies complained of in this action, acting under the color of state law.
FACTS
OSB’s Mandatory Membership and Fee Collection
26. Oregon law compels every attorney licensed
in Oregon to join OSB in order to earn a living practicing law in the state. ORS 9.160.
27. Oregon law authorizes OSB to charge annual
membership fees to its mandatory members. ORS
9.191.
28. As Oregon attorneys, Plaintiffs Crowe and Peterson, and Plaintiff ORCLA’s members, are compelled

App. 274
to join OSB and to pay membership fees to Defendants
as a condition of engaging in their profession. ORS
9.160, 9.191.
29. Defendants enforce laws requiring membership in and funding of OSB as a prerequisite to practicing law in the State of Oregon. ORS 9.160, 9.191.
30. Defendants act under color of state law when
collecting, disbursing, and spending mandatory dues.
OSB’s Disbursement of Mandatory Fees
31. The OSB places the mandatory fees it collects into three separate funds: (1) a general fund,
which provides funding for mandatory and discretionary services for members and the public; (2) a client
security fund, which awards money to clients of Oregon
attorneys who have lost money or property due to misappropriation or embezzlement by their lawyers; and
(3) a diversity and inclusion department.
32. In 2018, OSB disbursed mandatory fees in
the following manner client security fund (2%); diversity and inclusion (8%); loan repayment assistance program (2%); disciplinary counsel and client assistance
office (34%); other regulatory programs: governance,
general counsel, new lawyer monitoring (19%); and
other bar programs and services (35%).
33. In 2019, OSB has proposed to disburse mandatory fees in the following manner client security
fund (2%); diversity and inclusion (8%); loan repayment assistance program (2%); disciplinary counsel

App. 275
and client assistance office (34%); other regulatory programs: governance, general counsel, new lawyer monitoring (19%); and other bar programs and services
(35%).
34. Although OSB publishes this general information about its allocation of membership fees, it does
not publish information about whether or how it determines whether a given allocation of funds was for purposes germane to improving the quality of legal
services and regulating attorneys.
OSB’s Use of Mandatory Fees for Legislative
and Policy Advocacy
35. OSB uses mandatory member fees to engage
in legislative and policy advocacy in accordance with
“Legislative Policy Guidelines” that were approved by
the Board.
36. OSB’s Legislative Policy Guidelines state:
“OSB’s legislative or policy activities shall be limited
to those reasonably related to any of the following subjects: regulating and disciplining lawyers; improving
the function of the courts, including issues of judicial
independence, fairness, efficacy and efficiency; making
legal services available to society; regulating lawyer
trust accounts; the education, ethics, competence, integrity and regulation of the legal profession; providing
law improvement assistance to elected and appointed
government officials; issues involving the structure
and organization of federal, state and local courts in
or affecting Oregon, issues involving rules of practice,

App. 276
procedure and evidence in federal, state or local court
in or affecting Oregon; or issues involving the duties
and functions of judges and lawyers in federal, state
and local courts in or affecting Oregon.”
37. OSB’s Legislative Policy Guidelines do not
distinguish between germane and non-germane activities.
38. OSB’s Legislative Policy Guidelines do not
articulate what, if any, tests or procedures are in place
to ensure OSB’s classification of expenditures as germane is proper.
39. OSB’s legislative and policy activities include
political speech.
40. Through its legislative and policy activities,
OSB expends member dues for political and ideological
activities that are not germane to OSB’s purpose.
The April 2018 Bar Bulletin
41. The OSB uses member dues to publish a periodical called the Bar Bulletin.
42. The April 2018 issue of the Bar Bulletin included, on opposing pages, two statements on alleged
“white nationalism,” one of which specifically criticized
President Donald Trump.
43. A true and accurate copy of these two statements is attached as Exhibit A and incorporated
herein by reference.

App. 277
44.
45.
ORCLA’
prevent
used to
ments.

These statements constituted political speech.
Plaintiffs Crowe and Peterson, and Plaintiff
s members, had no opportunity in advance to
their mandatory member dues from being
publish the April 2018 Bar Bulletin state-

46. Plaintiffs Crowe and Peterson learned of
OSB’s publication of these statements when they received the Bar Bulletin by mail in April 2018.
47. Plaintiffs Crowe and Peterson disagree with
the statements’ allegations against, and explicit and
implicit criticism of, President Trump.
48. If given a choice, Plaintiffs Crowe and Peterson would not have voluntarily paid for publication of
the statements.
49. On April 25, 2018, Plaintiff Peterson contacted Defendant Hierschbiel to inform OSB of his objections to the use of bar fees to publish the statements,
and he requested a refund of his annual membership
fees.
50. On April 26, 2018 Plaintiff Crowe contacted
Defendant Hierschbiel to inform OSB of his objections
to the use of bar dues to publish the statements, and
he requested a refund of his annual membership
fees.
51. In response to their objections, Plaintiffs
Crowe and Peterson each received a partial dues

App. 278
refund from OSB in the amount of $1.15 ($1.12 plus
statutory interest from the date bar fees were due).
52. Other OSB members also objected to the
statements in the April 2018 Bar Bulletin and then received partial dues refunds.
53. OSB has not informed Plaintiffs of how it calculated the amounts of these partial dues refunds.
Plaintiffs’ Injuries
54. Plaintiffs Crowe and Peterson, and Plaintiff
ORCLA’s members, do not wish to have their OSB
membership dues used to fund OSB’s legislative and
policy advocacy and, if given a choice, would not fund
that activity.
55. Plaintiffs Crowe and Peterson, and Plaintiff
ORCLA’s members, did not wish to have their OSB
membership dues used to publish the two statements
in the April 2018 Bar Bulletin and, if given a choice,
would not have funded the statements’ publication.
56. Plaintiffs Crowe and Peterson, and Plaintiff
ORCLA’s members, do not wish to have their OSB
membership dues used for any other political speech or
activity and, if given a choice, would not fund any political speech or activity by OSB.
57. Plaintiffs Crowe and Peterson, and Plaintiff
ORCLA’s members, object to being required to be members of OSB to be allowed to practice law in Oregon.

App. 279
58. Plaintiffs Crowe and Peterson, and Plaintiff
ORCLA’s members, object to being required to pay
dues or fees to OSB to be allowed to practice law in
Oregon.
59. Plaintiffs Crowe and Peterson, and Plaintiff
ORCLA’s members, have suffered irreparable harm
from being required to join and pay dues to OSB as a
condition of practicing law in Oregon.
60. Plaintiffs Crowe and Peterson, and Plaintiff
ORCLA’s members will suffer irreparable harm if the
State of Oregon continues to require them to be members of, and pay dues to, OSB as a condition of practicing law in Oregon.
FIRST CLAIM FOR RELIEF
(Compelled Speech and Association)
(First and Fourteenth Amendments)
61. The allegations contained in the preceding
paragraphs are incorporated by reference as if fully set
forth here.
62. Mandatory bar fees inherently impinge on
the First Amendment rights of freedom of association
and freedom of speech.
63. To limit mandatory fees’ impingement on
First Amendment rights, the Supreme Court has required bar associations such as OSB to use mandatory
fees only for activities germane to improving the quality of legal services. See Keller, 496 U.S. at 14.

App. 280
64. To protect the rights of OSB members and
ensure mandatory member fees are utilized only for
chargeable expenditures, Keller requires the OSB to
institute safeguards that provide, at a minimum: (a)
notice to members, including an adequate explanation
of the basis for the dues and calculations of all nonchargeable activities, verified by an independent auditor; (b) a reasonably prompt decision by an impartial
decision maker if a member objects to the way his or
her mandatory dues are being spent; and (c) an escrow
for the amounts reasonably in dispute while such objections are pending. Keller, 496 U.S. at 14.
65. Refunding mandatory fees after a member’s
objection is resolved is insufficient to protect members’
First Amendment rights. A remedy that merely offers
dissenters the possibility of a refund does not avoid the
risk that dissenters’ funds may be used temporarily for
an improper purpose.
66. OSB does not provide Plaintiffs Crowe and
Peterson, and Plaintiff ORCLA’s members, an adequate explanation for the basis of their mandatory
dues.
67. OSB does not afford Plaintiffs Crowe and Peterson, and Plaintiff ORCLA’s members, any constitutionally adequate procedure to dispute the way their
dues are spent.
68. OSB has taken the position that it may use
member dues for non-chargeable activities as long as
it refunds a portion of dues back to members who object to the non-chargeable activity.

App. 281
69. As a result of its insufficient safeguards and
procedures, OSB has used mandatory member dues for
non-chargeable activities, including political speech,
without receiving members’ affirmative consent, both
through its publication of the April 2018 Bar Bulletin
and through its legislative and policy advocacy generally.
70. By failing to provide the minimum safeguards required by the First and Fourteenth Amendments before collecting and expending mandatory
member dues, Defendants maintain and enforce a set
of laws, practices, procedures and policies that deprive
Plaintiffs of their First and Fourteenth Amendment
rights.
71. This deprivation of constitutional rights is
causing Plaintiffs to suffer irreparable injury for which
there is no adequate remedy at law. Unless enjoined by
this Court, Plaintiffs will continue to suffer irreparable
harm.
72. Plaintiffs are entitled to declaratory and injunctive relief against continued enforcement and
maintenance of Defendants’ unconstitutional laws,
practices, procedures and policies, and are entitled to
an award of attorney fees. See 28 U.S.C. §§ 2201, 2202;
42 U.S.C. §§ 1983, 1988.

App. 282
SECOND CLAIM FOR RELIEF
(Right to Affirmatively Consent)
(First and Fourteenth Amendments)
73. The allegations contained in the preceding
paragraphs are incorporated by reference as if fully set
forth here.
74. Under the First and Fourteenth Amendments, a manatory bar association may not use a member’s mandatory dues or fees to engage in political
activities or other activities not germane to the bar association’s purpose of improving the quality of legal
services through the regulation of attorneys unless the
member affirmatively consents to having his or her
dues or fees used for that purpose.
75. To protect members’ First Amendment
rights, a mandatory bar association such as OSB must
create an “opt-in” system for members to pay for the
bar association’s non-germane speech and activities; it
cannot require members to opt out to avoid paying for
non-germane activities. See Janus, 138 S. Ct. at 2486.
76. The OSB has used mandatory member
fees for non-chargeable activities, including political
speech, without receiving members’ affirmative consent, both through its publication of the April 2018 Bar
Bulletin and through its legislative and policy advocacy generally.
77. OSB maintains and enforces a set of laws,
practices, procedures, and policies that are not adequate to ensure that mandatory member fees will not

App. 283
be used for non-chargeable activities, including political speech, without members’ affirmative consent.
78. Accordingly, Defendants are maintaining
and actively enforcing a set of laws, practices, procedures and policies that deprive Plaintiffs of their rights
of free speech and free association, in violation of the
First and Fourteenth Amendments.
79. Plaintiffs are entitled to declaratory and injunctive relief against continued enforcement and
maintenance of Defendants’ unconstitutional laws,
practices, procedures and policies, and are entitled to
an award of attorney fees. See 28 U.S.C. §§ 2201, 2202;
42 U.S.C. §§ 1983, 1988.
THIRD CLAIM FOR RELIEF
(Compelled Membership)
(First and Fourteenth Amendments)
80. The allegations contained in the preceding
paragraphs are incorporated by reference as if fully set
forth here.
81. The First and Fourteenth Amendments protect not only the freedom to associate, but also the freedom not to associate.
82. The First and Fourteenth Amendments protect the freedom to avoid subsidizing group speech
with which an individual disagrees.
83. By its very nature, the OSB, as a mandatory
bar association, violates these rights.

App. 284
84. Mandatory associations are permissible only
when they serve a compelling state interest that cannot be achieved through means significantly less restrictive of associational freedoms.
85. The only state interest possibly served by a
mandatory bar association is improvement of the quality of legal services through the regulation of attorneys.
86. The state can readily use means that are significantly less restrictive of associational freedoms to
improve the quality of legal services through the regulation of attorneys.
87. This is evidenced by the 18 states that regulate the legal profession without requiring attorneys to
join and pay a bar association.
88. By failing to utilize means significantly less
restrictive of associational freedoms than a mandatory
association, Defendants maintain and actively enforce
a set of laws, practices, procedures and policies that deprive Plaintiffs of their rights of free speech and free
association, in violation of the First and Fourteenth
Amendments.
89. Plaintiffs are entitled to declaratory and injunctive relief against continued enforcement and
maintenance of Defendants’ unconstitutional laws,
practices, procedures and policies, and are entitled to
an award of attorney fees. See 28 U.S.C. §§ 2201, 2202;
42 U.S.C. §§ 1983, 1988.

App. 285
REQUEST FOR RELIEF
Wherefore, Plaintiffs respectfully request that this
Court enter judgment in Plaintiffs’ favor and:
A. Declare that Plaintiffs’ rights to freedom of
speech and association under the First and Fourteenth
Amendments are violated by Defendants’ failure to implement the minimum safeguards required by Keller v.
State Bar of California;
B. Declare that Defendants may not use the
mandatory fees of OSB members, including Plaintiffs,
for non-chargeable activities unless the members have
affirmatively consented to having their dues used for
those purposes, as required by Janus v. AFSCME;
C. In the alternative, declare that Defendants violate Plaintiffs’ rights to freedom of speech and association under the First and Fourteenth Amendments by
enforcing Oregon statutes that make membership in
OSB a prerequisite to practicing law in Oregon and by
imposing mandatory dues as a condition of membership;
D. Preliminarily and permanently enjoin Defendants and all persons in active concert or participation with them from enforcing ORS 9.160, which
mandates membership in the Oregon State Bar, and
ORS 9.191, which requires payment of membership
fees to the Oregon State Bar.
E. Award Plaintiffs Crowe and Peterson damages in the amount of all dues they have paid to the

App. 286
Oregon State Bar within the applicable limitations period, plus interest;
F. Award Plaintiffs their costs, attorneys’ fees,
and other expenses in accordance with law, including
42 U.S.C. § 1988; and
G. Order such additional relief as may be just
and proper.
Dated this 13th day of December, 2018.
DANIEL Z. CROWE,
LAWRENCE K. PETERSON,
and OREGON CIVIL
LIBERTIES ATTORNEYS
By: /s/ Luke D. Miller
Luke D. Miller, OSB No. 175051
Military Disability Lawyer, LLC.
1567 Edgewater St. NW
PMB 43
Salem, OR 97304
Telephone: (800) 392-5682
Fax: (503) 779-1091
luke@militarydisabilitylawyer.com
Jacob Huebert (pro hac vice motion
pending)
Aditya Dynar (pro hac vice motion
pending)
Goldwater Institute
Scharf-Norton Center for
Constitutional Litigation
500 E. Coronado Rd.
Phoenix, AZ 85004
Telephone: (602) 462-5000

App. 287
Fax: (602) 256-7045
litigation@goldwaterinstitute.org
Attorneys for Plaintiffs

EXHIBIT A
Oregon State Bar

Feb. 23, 2018

Statement on White Nationalism and
Normalization of Violence
As the United States continues to grapple with a resurgence of white nationalism and the normalization
of violence and racism, the Oregon State Bar remains
steadfastly committed to the vision of a justice system
that operates without discrimination and is fully accessible to all Oregonians. As we pursue that vision
during times of upheaval, it is particularly important
to understand current events through the lens of our
complex and often troubled history. The legacy of that
history was seen last year in the streets of Charlottesville, and in the attacks on Portland’s MAX train.
We unequivocally condemn these acts of violence.
We equally condemn the proliferation of speech that
incites such violence. Even as we celebrate the great
beneficial power of our First Amendment, as lawyers
we also know it is not limitless. A systemic failure to
address speech that incites violence emboldens those
who seek to do harm, and continues to hold historically
oppressed communities in fear and marginalization.

App. 288
As a unified bar, we are mindful of the breadth of perspectives encompassed in our membership. As such,
our work will continue to focus specifically on those issues that are directly within our mission, including the
promotion of access to justice, the rule of law, and a
healthy and functional judicial system that equitably
serves everyone. The current climate of violence, extremism and exclusion gravely threatens all of the
above. As lawyers, we administer the keys to the courtroom, and assist our clients in opening doors to justice.
As stewards of the justice system, it is up to us to safeguard the rule of law and to ensure its fair and equitable administration. We simply cannot lay claim to a
healthy justice system if whole segments of our society
are fearful of the very laws and institutions that exist
to protect them.
In today’s troubling climate, the Oregon State Bar remains committed to equity and justice for all, and to
vigorously promoting the law as the foundation of a
just democracy. The courageous work done by specialty
bars throughout the state is vital to our efforts and we
continue to be both inspired and strengthened by those
partnerships. We not only refuse to become accustomed
to this climate, we are intent on standing in support
and solidarity with those historically marginalized,
underrepresented and vulnerable communities who
feel voiceless within the Oregon legal system.
/s/ Vanessa A. Nordyke
Vanessa A. Nordyke
2018 President
Board of Governors

/s/ Jonathan Puente
Jonathan Puente
Director of Diversity
& Inclusion

App. 289
/s/ Helen Hierschbiel
Helen Hierschbiel
Chief Executive Officer
/s/ Christine R. Costantino /s/ Liani Reeves
Christine R. Costantino
Liani Reeves
2018 President-elect
Board of Governors
Board of Governors
Liaison to the Advisory
Committee on
Diversity & Inclusion
/s/ Jonathan Patterson
Jonathan Patterson
Chairperson
Advisory Committee on
Diversity & Inclusion

Joint Statement of the Oregon Specialty Bar
Associations Supporting the Oregon State
Bar’s Statement on White Nationalism and
Normalization of Violence
The Oregon Asian Pacific American Bar Association,
the Oregon Women Lawyers, the Oregon Filipino
American Lawyers Association, OGALLA-The LGBT
Bar Association of Oregon, the Oregon Chapter of the
National Bar Association, the Oregon Minority Lawyers Association, and the Oregon Hispanic Bar Association support the Oregon State Bar’s Statement on
White Nationalism and Normalization of Violence and
its commitment to the vision of a justice system that

App. 290
operates without discrimination and is fully accessible
to all Oregonians.
Through the recent events from the Portland MAX
train attacks to Charlottesville, we have seen an emboldened white nationalist movement gain momentum
in the United States and violence based on racism has
become normalized. President Donald Trump, as the
leader of our nation, has himself catered to this white
nationalist movement, allowing it to make up the base
of his support and providing it a false sense of legitimacy. He has allowed this dangerous movement of racism to gain momentum, and we believe this is allowing
these extremist ideas to be held up as part of the mainstream, when they are not. For example, President
Trump has espoused racist comments, referring to
Haiti and African countries as “shithole countries” and
claiming that the United States should have more immigrants from countries like Norway. He signed an executive order that halted all refugee admissions and
barred people from seven Muslim-majority countries,
called Puerto Ricans who criticized his administration’s response to Hurricane Maria “politically motivated ingrates,” said that the white supremacists
marching in Charlottesville, North Carolina in August
of 2017 were “very fine people,” and called into question
a federal judge, referring to the Indiana-born judge as
“Mexican,” when the race of his parents had nothing to
do with the judge’s decision. We are now seeing the
white nationalist movement grow in our state and our
country under this form of leadership.

App. 291
As attorneys who lead diverse bar associations
throughout Oregon, we condemn the violence that has
occurred as a result of white nationalism and white supremacy. Although we recognize the importance of the
First Amendment of the United States Constitution
and the protections it provides, we condemn speech
that incites violence, such as the violence that occurred
in Charlottesville. President Trump needs to unequivocally condemn racist and white nationalist groups.
With his continued failure to do so, we must step in
and speak up.
As attorneys licensed to practice law in Oregon, we
took an oath to “support the Constitution and the laws
of the United States and of the State of Oregon.” To
that end, we have a duty as attorneys to speak up
against injustice, violence, and when state and federal
laws are violated in the name of white supremacy or
white nationalism. We must use all our resources, including legal resources, to protect the rights and safety
of everyone. We applaud the Oregon State Bar’s commitment to equity and justice by taking a strong stand
against white nationalism. Our bar associations pledge
to work with the Oregon State Bar and to speak out
against white nationalism and the normalization of
racism and violence.
/s/ Derily Bechthold
/s/ Angela Franco Lucero
Derily Bechthold
Angela Franco Lucero
President, Oregon
President, Oregon
Asian Pacific American
Women Lawyers
Bar Association

App. 292
/s/ Julia Markley
Julia Markley
President, Oregon
Filipino American
Lawyers Association

/s/ Kamron Graham
Kamron Graham
Co-Chair, OGALLAThe LGBT Bar
Associaton of Oregon

/s/ Alysia Harris
/s/ Chase Morinaka
Alysia Harris
Chase Morinaka
President, Oregon
Chair, Oregon Minority
Chapter of the National
Lawyers Association
Bar Association
/s/ Ivan Resendiz Gutierrez
Ivan Resendiz Gutierrez
President, Oregon
Hispanic Bar Association

App. 293
RELEVANT CONSTITUTIONAL
AND STATUTORY PROVISIONS
U.S. Constitution, amend. I
Congress shall make no law respecting an establishment of religion, or prohibiting the free exercise thereof;
or abridging the freedom of speech, or of the press; or
the right of the people peaceably to assemble, and to
petition the Government for a redress of grievances.
U.S. Constitution, amend. XIV, § 1.
All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of
the United States and of the State wherein they reside.
No State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the
United States; nor shall any State deprive any person
of life, liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the equal
protection of the laws.
Oregon Revised Statute § 9.010
Attorneys deemed officers of court;
statutes applicable to Oregon State Bar
(1) An attorney, admitted to practice in this state, is
an officer of the court.
(2) The Oregon State Bar is a public corporation and
an instrumentality of the Judicial Department of the
government of the State of Oregon. The bar is authorized to carry out the provisions of ORS 9.005 to 9.757.

App. 294
(3) The bar is subject to the following statutes applicable to public bodies:
(a)

ORS 30.210 to 30.250.

(b)

ORS 30.260 to 30.300.

(c)

ORS 30.310, 30.312, 30.390 and 30.400.

(d)

The Oregon Rules of Civil Procedure.

(e)

ORS 192.311 to 192.478.

(f )

ORS 192.610 to 192.690.

(g)

ORS 243.401 to 243.507.

(h)

ORS 244.010 to 244.040.

(i)

ORS 297.110 to 297.230.

(j)

ORS chapters 307, 308 and 311.

(k) ORS 731.036 and 737.600.
(4) Except as provided in subsection (3) of this section, the bar is not subject to any statute applicable to
a state agency, department, board or commission or
public body unless the statute expressly provides that
it is applicable to the Oregon State Bar.
(5) The Oregon State Bar has perpetual succession
and a seal, and may sue and be sued. Notwithstanding
the provisions of ORS 270.020 and 279.835 to 279.855
and ORS chapters 278, 279A, 279B and 279C, the bar
may, in its own name, for the purpose of carrying into
effect and promoting its objectives, enter into contracts
and lease, acquire, hold, own, encumber, insure, sell,

App. 295
replace, deal in and with and dispose of real and personal property.
(6) No obligation of any kind incurred or created under this section shall be, or be considered, an indebtedness or obligation of the State of Oregon.
Oregon Revised Statute § 9.080
Duties of board; professional liability fund; quorum
(1) The state bar shall be governed by the board of
governors, except as provided in ORS 9.136 to 9.155.
The state bar has the authority to adopt, alter, amend
and repeal bylaws and to adopt new bylaws containing
provisions for the regulation and management of the
affairs of the state bar not inconsistent with law. The
board is charged with the executive functions of the
state bar and shall at all times direct its power to serve
the public interest by:
(a) Regulating the legal profession and improving the quality of legal services;
(b) Supporting the judiciary and improving the
administration of justice; and
(c) Advancing a fair, inclusive and accessible justice system.
(2)(a)(A) The board has the authority to require all
active members of the state bar engaged in the private
practice of law whose principal offices are in Oregon
to carry professional liability insurance and is empowered, either by itself or in conjunction with other
bar organizations, to do whatever is necessary and

App. 296
convenient to implement this provision, including the
authority to own, organize and sponsor any insurance organization authorized under the laws of the
State of Oregon and to establish a lawyer’s professional liability fund. This fund shall pay, on behalf of
active members of the state bar engaged in the private practice of law whose principal offices are in Oregon, all sums as may be provided under such plan
which any such member shall become legally obligated to pay as money damages because of any claim
made against such member as a result of any act or
omission of such member in rendering or failing to render professional services for others in the member’s capacity as an attorney or caused by any other person for
whose acts or omissions the member is legally responsible.
(B) The board has the authority to assess
each active member of the state bar engaged
in the private practice of law whose principal
office is in Oregon for contributions to the professional liability fund and to establish the
date by which contributions must be made.
(C) The board has the authority to establish
definitions of coverage to be provided by the
professional liability fund and to retain or employ legal counsel to represent the fund and
defend and control the defense against any
covered claim made against the member.
(D) The board has the authority to offer optional professional liability coverage on an
underwritten basis above the minimum required coverage limits provided under the

App. 297
professional liability fund, either through the
fund, through a separate fund or through any
insurance organization authorized under the
laws of the State of Oregon, and may do whatever is necessary and convenient to implement this provision. Any fund so established
shall not be subject to the Insurance Code of
the State of Oregon.
(E) Records of a claim against the professional liability fund are exempt from disclosure under ORS 192.311 to 192.478.
(b) For purposes of paragraph (a) of this subsection, an attorney is not engaged in the private
practice of law if the attorney is a full-time employee of a corporation other than a corporation
incorporated under ORS chapter 58, the state, an
agency or department thereof, a county, city, special district or any other public or municipal corporation or any instrumentality thereof. However,
an attorney who practices law outside of the attorney’s full-time employment is engaged in the private practice of law.
(c) For the purposes of paragraph (a) of this subsection, the principal office of an attorney is considered to be the location where the attorney
engages in the private practice of law more than
50 percent of the time engaged in that practice. In
the case of an attorney in a branch office outside
Oregon and the main office to which the branch
office is connected is in Oregon, the principal office
of the attorney is not considered to be in Oregon
unless the attorney engages in the private practice

App. 298
of law in Oregon more than 50 percent of the time
engaged in the private practice of law.
(3) The board may appoint such committees, officers
and employees as it deems necessary or proper and fix
and pay their compensation and necessary expenses.
At any meeting of the board, two-thirds of the total
number of members then in office shall constitute a
quorum. It shall promote and encourage voluntary
county or other local bar associations.
(4) Except as provided in this subsection, an employee of the state bar shall not be considered an “employee” as the term is defined in the public employees’
retirement laws. However, an employee of the state bar
may, at the option of the employee, for the purpose of
becoming a member of the Public Employees Retirement System, be considered an “employee” as the term
is defined in the public employees’ retirement laws.
The option, once exercised by written notification directed to the Public Employees Retirement Board, may
not be revoked subsequently, except as may otherwise
be provided by law. Upon receipt of such notification by
the Public Employees Retirement Board, an employee
of the state bar who would otherwise, but for the exemption provided in this subsection, be considered an
“employee,” as the term is defined in the public employees’ retirement laws, shall be so considered. The state
bar and its employees shall be exempt from the provisions of the State Personnel Relations Law. No member
of the state bar shall be considered an “employee” as
the term is defined in the public employees’ retirement
laws, the unemployment compensation laws and the

App. 299
State Personnel Relations Law solely by reason of
membership in the state bar.
Oregon Revised Statute § 9.160
Practice of law by persons other
than active members prohibited
(1) Except as provided in this section, a person may
not practice law in this state, or represent that the person is qualified to practice law in this state, unless the
person is an active member of the Oregon State Bar.
(2) Subsection (1) of this section does not affect the
right to prosecute or defend a cause in person as provided in ORS 9.320.
(3) An individual licensed under ORS 696.022 acting
in the scope of the individual’s license to arrange a real
estate transaction, including the sale, purchase, exchange, option or lease coupled with an option to purchase, lease for a term of one year or longer or rental
of real property, is not engaged in the practice of law in
this state in violation of subsection (1) of this section.
(4) A title insurer authorized to do business in this
state, a title insurance agent licensed under the laws
of this state or an escrow agent licensed under the laws
of this state is not engaged in the practice of law in this
state in violation of subsection (1) of this section if, for
the purposes of a transaction in which the insurer or
agent provides title insurance or escrow services, the
insurer or agent:

App. 300
(a) Prepares any satisfaction, reconveyance, release, discharge, termination or cancellation of a
lien, encumbrance or obligation;
(b) Acts pursuant to the instructions of the principals to the transaction as scrivener to fill in
blanks in any document selected by the principals;
(c) Presents to the principals to the transaction
for their selection any blank form prescribed by
statute, rule, ordinance or other law; or
(d) Presents to the principals to the transaction
for their selection a blank form prepared or approved by a lawyer licensed to practice law in this
state for one or more of the following:
(A)

A mortgage.

(B)

A trust deed.

(C)

A promissory note.

(D) An assignment of a mortgagee’s interest
under a mortgage.
(E) An assignment of a beneficial interest
under a trust deed.
(F) An assignment of a seller’s or buyer’s interest under a land sale contract.
(G)

A power of attorney.

(H)

A subordination agreement.

(I) A memorandum of an instrument that is
to be recorded in place of the instrument that
is the subject of the memorandum.

App. 301
(5) In performing the services permitted in subsection (4) of this section, a title insurer, a title insurance
agent or an escrow agent may not draft, select or give
advice regarding any real estate document if those activities require the exercise of informed or trained discretion.
(6) The exemption provided by subsection (4) of this
section does not apply to any acts relating to a document or form that are performed by an escrow agent
under subsection (4)(b), (c) or (d) of this section unless
the escrow agent provides to the principals to the
transaction a notice in at least 12-point type as follows:
YOU WILL BE REVIEWING, APPROVING AND
SIGNING IMPORTANT DOCUMENTS AT CLOSING. LEGAL CONSEQUENCES FOLLOW FROM
THE SELECTION AND USE OF THESE DOCUMENTS. THESE CONSEQUENCES AFFECT YOUR
RIGHTS AND OBLIGATIONS. YOU MAY CONSULT
AN ATTORNEY ABOUT THESE DOCUMENTS. YOU
SHOULD CONSULT AN ATTORNEY IF YOU HAVE
QUESTIONS OR CONCERNS ABOUT THE TRANSACTION OR ABOUT THE DOCUMENTS. IF YOU
WISH TO REVIEW TRANSACTION DOCUMENTS
THAT YOU HAVE NOT YET SEEN, PLEASE CONTACT THE ESCROW AGENT.
(7) The exemption provided by subsection (4) of this
section does not apply to any acts relating to a document or form that are performed by an escrow agent
under subsection (4)(b), (c) or (d) of this section for a
real estate sale and purchase transaction in which all

App. 302
or part of the purchase price consists of deferred payments by the buyer to the seller unless the escrow
agent provides to the principals to the transaction:
(a) A copy of any proposed instrument of conveyance between the buyer and seller to be used in
the transaction;
(b) A copy of any proposed deferred payment security instrument between the buyer and seller to
be used in the transaction; and
(c) A copy of any proposed promissory note or
other evidence of indebtedness between the buyer
and seller to be used in the transaction.
(8) The notice and copies of documents that must be
provided under subsections (6) and (7) of this section
must be delivered in the manner most likely to ensure
receipt by the principals to the transaction at least
three days before completion of the transaction. If copies of documents have been provided under subsection
(7) of this section and are subsequently amended, copies of the amended documents must be provided before
completion of the transaction.
(9) Failure of any person to comply with the requirements of subsections (3) to (8) of this section does not
affect the validity of any transaction and may not be
used as a basis to challenge any transaction.

App. 303
Oregon Revised Statute § 9.191
Annual fees; professional liability assessments
(1) Except as provided in subsection (2) of this section, the annual membership fees to be paid by members of the Oregon State Bar shall be established by
the Board of Governors of the Oregon State Bar, and
each year notice of the proposed fees for the coming
year shall be published and distributed to the membership not later than 20 days before the annual meeting of the house of delegates. Any increase in annual
membership fees over the amount established for the
preceding year must be approved by a majority of delegates of the house of delegates voting thereon at the
annual meeting of the house of delegates. The board
shall establish the date by which annual membership
fees must be paid.
(2) The board shall establish prorated membership
fees payable for the year that a member is admitted to
the practice of law in this state. If the new member is
admitted on or before the date established by the board
for the payment of annual membership fees under subsection (1) of this section, the new member must pay
the full annual membership fees established under
subsection (1) of this section.
(3) In establishing annual membership fees, the
board shall consider and be guided by the anticipated
financial needs of the state bar for the year for which
the fees are established, time periods of membership
and active or inactive status of members. Annual membership fees may include any amount assessed under

App. 304
any plan for professional liability insurance for active
members engaged in the private practice of law whose
principal offices are in Oregon as provided in ORS
9.080(2).

